                                   Participating Agencies

Department of Defense                                  U.S. Department of State and
Office of Inspector General                            Broadcasting Board of Governors
400 Army Navy Drive                                    Office of Inspector General
Arlington, VA 22202                                    Room 8100, SA-3
                                                       2201 C Street, NW
U.S. Army Audit Agency                                 Washington, DC 20520-0308
3101 Park Center Drive
Alexandria, VA 22302-1596                              United States Agency for International Development
                                                       Office of Inspector General
Naval Audit Service                                    Room 8.09-090, RRB
1006 Beatty Place, SE                                  1300 Pennsylvania Avenue NW
Washington Navy Yard Bldg. 219                         Washington, DC 20523
Washington, DC 20374
                                                       Special Inspector General for Iraq Reconstruction
Air Force Audit Agency                                 400 Army Navy Drive
1126 AF Pentagon                                       Arlington, VA 22202-4704
Washington, DC 20330-1126
                                                       Special Inspector General for Afghanistan Reconstruction
Defense Contract Audit Agency                          400 Army Navy Drive
8725 John J. Kingman Road, Suite 2135                  Arlington, VA 22202-4704
Fort Belvoir, VA 22060-6219
                                                       Commission on Wartime Contracting
Government Accountability Office                       in Iraq and Afghanistan
441 G St., NW                                          1401 Wilson Blvd., Suite 300
Washington, DC 20548                                   Arlington, VA 22209




                                                                                                                  Observations from Oversight Organizations Impacting 

                              Department of Defense Office of Inspector General
                                                                                                                   Operations Iraqi Freedom and Enduring Freedom 

                                           400 Army Navy Drive
                                        Arlington, VA 22202-4704                                                         Beginning FY 2003 Through FY 2009
�
                               This report is available online at: www.dodig.mil
                                                                                                                  Report No. SDIG-SWA-10-01               August 30, 2010
Additional Information
The Department of Defense Office of the Special Deputy Inspector General for SWA
prepared this report. If you have questions, contact sdig-swa@dodig.mil.

Suggestions for Oversight Efforts
To suggest or request oversight efforts for defense programs, contact the Office of the
Special Deputy Inspector General for SWA by phone (703) 604-9165 (DSN 664-9165),
by fax (703) 604-8932, or by mail:

                      SDIG-SWA
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 1000)
                      Arlington, VA 22202-4704




                                                                                            Department of Defense
Acronyms and Abbreviations                                                                     Inspector General
AFAA                  Air Force Audit Agency                                                  400 Army Navy Drive
CWC                   Commission on Wartime Contracting                                     Arlington, VA 22202-4704
DCAA                  Defense Contract Audit Agency
DoD OIG               Department of Defense Office of Inspector General                          www.dodig.mil
DoN                   Department of Navy
DoS OIG               Department of State Office of Inspector General                     Defense Hotline 1.800.424.9098
GWOT                  Global War on Terror
MNSTC-I               Multi-National Security Transition Command-Iraq
NAVAUDSVC             Naval Audit Service
OEF                   Operation Enduring Freedom
OIF                   Operation Iraqi Freedom
PHC                   Primary Healthcare Centers
SIGAR                 Special Inspector General for Afghanistan Reconstruction
SIGIR                 Special Inspector General for Iraq Reconstruction
SWA JPG               Southwest Asia Joint Planning Group
USAAA                 United States Army Audit Agency
USAID OIG             United States Agency for International Development
                      Office of Inspector General
USMC                  United States Marine Corps
                               INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON , VIRGINIA 22202-4704 



                                                                         August 30, 20 I0
MEMORANDUM FOR DISTRIBUTION


SUBJECT: Observati ons from Oversight Organizations Impacting Operations Iraqi
         Freedom and Enduring Freedom Beginning FY 2003 Through FY 2009
         (Report No. SD IG-SWA- IO-OI)


Wc are providing this repo.i for your information and use. This report provides a
historical look at oversight activ ities in Southwest Asia beginning FY 2003 th rough FY
2009. This report also provides information related to recommendations that havc been
closed and those that remain open as of March I, 20 I0, This product represents the
combined oversight work of the members of the Joint Planning Group for Southwest
As ia. The purpose of this group is to improve the planning and execution of oversight
act ivities while improving the efficiency and effectiveness of the resources of each
member organization.

Questions should be directed to the Special Deputy lnspector General for Southwest Asia
703-604-9165 or at sdig-swa@dodig.mil .



                                      ~~~!:!!:~
                                             Special Deputy Inspector Genera l
                                             for Southwest As ia
DISTRIBUTION:
SECRETARY OF DEFENSE
DEPUTY SECRETARY OF DEFENSE
SECRETARY OF THE ARMY
SECRETARY OF THE AIR FORCE
SECRETARY OF THE NAVY
UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
   LOGISTICS
DIRECTOR, DEFENSE PROCUREMENT AND ACQUISITION POLICY
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL OFFICER
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
DIRECTOR, JOINT STAFF
COMMANDER, U.S. CENTRAL COMMAND
   COMMANDER, U.S. FORCES-IRAQ
   COMMANDER, U.S. FORCES-AFGHANISTAN
   COMMANDER, U.S. ARMY CENTRAL
   COMMANDER, U.S. NAVAL FORCES CENTRAL COMMAND
   COMMANDER, U.S. AIR FORCES CENTRAL COMMAND
   COMMANDER, U.S. MARINE CORPS FORCES CENTRAL COMMAND
COMMANDER, U.S. TRANSPORTATION COMMAND
COMMANDER, JOINT FORCES COMMAND
COMMANDER, SPECIAL OPERATIONS COMMAND
COMMANDER, CENTCOM JOINT CONTRACTING COMMAND –
   IRAQ/AFGHANISTAN
COMMANDER, U.S. ARMY MATERIEL COMMAND
DEPARTMENT OF THE ARMY INSPECTOR GENERAL
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
AUDITOR GENERAL, DEPARTMENT OF THE NAVY
AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE
CHIEF, NATIONAL GUARD BUREAU
DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION
   INTEGRATION/DOD CIO
SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION
SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
U.S. CENTRAL COMMAND, INSPECTOR GENERAL
GOVERNMENT ACCOUNTABILITY OFFICE
CHAIRS, COMMISSION ON WARTIME CONTRACTING
UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT OFFICE OF
   INSPECTOR GENERAL
DEPARTMENT OF STATE, INSPECTOR GENERAL
OFFICE OF MANAGEMENT AND BUDGET
    Report No. SDIG-SWA-10-01 (Project No. D2010-D000IG-0073.000)                      August 30, 2010


       Results in Brief: Observations from Oversight
       Organizations Impacting Operations Iraqi
       Freedom and Enduring Freedom Beginning
FY 2003 Through FY 2009

We identified 715 products (606 reports, 5 hearings, and 104 related testimonies) related to Operations
Iraqi and Enduring Freedom issued by the oversight community, beginning FY 2003 through FY 2009.
We did not categorize or identify detailed information on 29 of the 715 products (28 reports and 1
testimony), which were identified as classified.

Based on selections made by or vetted through the issuing agencies for FY 2008 and FY 2009 reports,
we compiled and analyzed reports and recommendations as categorized by the following six areas and
functional subcategories:
•     Security
      - Accountability and Maintenance of Equipment
      - Physical Security and Personnel Security
      - Training and Equipping National Security Forces
      - Warfare Support
•     Governance, Rule of Law, and Human Rights
      - Government Capacity Building
      - Anticorruption
      - Human Rights
      - Refugee Assistance

•     Economic and Social Development
      - Agriculture and Counternarcotics
      - Education and Healthcare
      - Infrastructure
      - Reconstruction

•     Contracting Oversight and Performance
      - Equipment and Property
      - Contract Management
      - Funds Control
      - Defense Contract Audit Agency
      - Services
•     Crosscutting
•     Other

Further, from FY 2003 through FY 2009, the oversight community issued 2,486 recommendations to
improve processes in Operations Iraqi and Enduring Freedom and 1,553 (62 percent) of these
recommendations were closed as of March 1, 2010.

                                                   i
Table of Contents
Results in Brief                                                                      i

Introduction                                                                          1

       Objectives                                                                     1
       Background                                                                     1

Chapter 1. Observations From Oversight of Defined Functional Areas                    6

       Security                                                                       6
       Governance, Rule of Law, and Human Rights                                     10
       Economic and Social Development                                               12
       Contracting Oversight and Performance                                         15
       Crosscutting                                                                  20
       Other                                                                         21

Chapter 2. Actions Taken by Management to Address Recommendations Made
During the Period October 1, 2002, through September 30, 2009                        22

       Standards for Followup on Recommendations                                     23

Appendices

       A.   Scope and Methodology                                                     25
       B.   Operations Iraqi and Enduring Freedom Reports FY 2003- FY 2009            29
       C.   Operations Iraqi and Enduring Freedom Testimony FY 2003- FY 2009          68
       D.   Department of State Office of the Inspector General                       78
       E.   U.S. Agency for International Development Office of the Inspector General 85
Introduction
Objectives
The overall objectives are to provide an update on the status of open recommendations
presented in Department of Defense, Office of Inspector General Report No. D-2008-
086, “Challenges Impacting Operations Iraqi Freedom and Enduring Freedom Reported
by Major Oversight Organizations Beginning FY 2003 through FY 2007,” July 18, 2008,
and to categorize and to identify selected observations from reports and testimonies
related to Operation Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF) as
issued during FY 2008 and FY 2009 by the Federal oversight community. This
community, which is comprised of members of the Southwest Asia Joint Planning Group,
includes the following organizations: U.S. Army Audit Agency (USAAA), Naval Audit
Service (NAVAUDSVC), Air Force Audit Agency (AFAA), Department of State Office
of Inspector General (DoS OIG), Department of Defense Office of Inspector General
(DoD OIG), Government Accountability Office (GAO), Special Inspector General for
Iraq Reconstruction (SIGIR), Special Inspector General for Afghanistan Reconstruction
(SIGAR), U.S. Agency for International Development Office of Inspector General
(USAID OIG), and the Commission on Wartime Contracting (CWC). 1 However, the DoS
OIG and the USAID OIG chose not to participate in the scope of this product, and
therefore, their products were not included in the totals reflected in this report.

We are providing our summary information in a manner consistent with the categories
and subcategories developed for the 2010 Comprehensive Oversight Plan for Southwest
Asia and the Afghanistan/Pakistan oversight plans.

See Appendix A for a discussion of the scope and methodology and the definitions used
for each of the categories and subcategories. Appendix B contains a list of the OIF and
OEF related reports included in this report. Appendix C contains a list of the OIF and
OEF related testimonies that were produced by the participating organizations from FY
2003 through FY 2009. Appendix D and Appendix E, respectively, contain brief
overviews and resulting reports of DoS OIG and the USAID OIG operations within the
Southwest Asia region.

Background
Overseas Contingency Operations 2
The United States is engaged in a comprehensive effort to protect and defend the
homeland and defeat terrorism. After the terrorist attacks of September 11, 2001, DoD
began OEF, which takes place principally in and around Afghanistan, but also covers


1
  The Government Accountability Office participates as an observer in the Southwest Asia Joint Planning
Group.
2
  The current Administration refers to the term formerly known as Global War on Terrorism as Overseas
Contingency Operations.


                                                   1
operations in the Horn of Africa, the Philippines, and elsewhere. Operation Noble Eagle
provides enhanced security for U.S. military bases and other homeland security efforts
that were initiated in response to the attacks. In 2003, DoD began OIF, which takes place
in and around Iraq. On September 28, 2009, the Congressional Research Service reported
that Congress had approved an estimated $944 billion for military operations, base
security, reconstruction, foreign aid, embassy costs, and veterans’ health care for the
three operations initiated since the 9/11 attacks. 3 Of that total, the Congressional
Research Service estimated that OIF would receive about $683 billion (72 percent) and
OEF would receive about $227 billion (24 percent).

Systemic Challenges and Functional Oversight Areas
This report updates the results found in DoD OIG Report No. D-2008-086, which
reported on the most prevalent systemic management and performance challenges facing
the DoD, such as contract management, financial management, and logistics. While we
still consider these areas to be prevalent challenges and at high risk, the FYs 2008 - 2009
update of this report addresses additional issues, as well as specific administrative and
legislative branch interests: Security; Governance, Rule of Law and Human Rights;
Economic and Social Development; Contracting Oversight and Performance;
Crosscutting Programs; and Other. 4 While this report primarily addresses observations
made concerning the DoD, we recognize that the efforts in Iraq and Afghanistan are
closely tied to the efforts of the Department of State, the U.S. Agency of International
Development, and other U.S. Agencies. Together, these Agencies are working together to
achieve the national goals established by the Administration.

Security
Products under this category focus not only on stabilization of conflict areas, but also on
the security of U.S. Government personnel assigned in the region. The focus of these
products also includes equipment accountability and maintenance, training and equipping
national security forces, warfare support, and oversight of physical security and personnel
security.

Governance, Rule of Law, and Human Rights
The U.S. is working to strengthen constitutional governments in the region so they can
respond to their citizens’ needs; build the capacity of justice systems and respect for the
rule of law; and support human rights and advocacy programs. Key areas of focus include
programs to build the capacity of foreign governments to address corruption, promote
human rights, and provide refugee assistance.




3
  Congressional Research Report RL33110, “The Cost of Iraq, Afghanistan, and Other Global War on
Terror Operations Since 9/11,” September 28, 2009.
4
  “Comprehensive Oversight Plan for Afghanistan-Pakistan, Fourth Quarter Fiscal Year 2009 through
Fiscal Year 2010,” August 2009; “Comprehensive Oversight Plan for Southwest Asia and Surrounding
Areas, Fiscal Year 2010,” February 2010.


                                                  2
Economic and Social Development
Economic and social development priorities include enhancing regional trade,
encouraging private sector expansion, rehabilitating infrastructure, providing access to
health and education services, and encouraging legitimate agricultural development. The
coordinating oversight organizations provide a wide range of programs that contribute to
economic and social development, such as agriculture and counternarcotics; education
and health care; infrastructure to provide energy, transportation, and other services; and
reconstruction.

Contracting Oversight and Performance
It is essential that funds are spent appropriately and that the U.S. Government obtains
value for the services and commodities it purchases. In addition, oversight of these funds
is crucial, particularly in an environment in which there are difficulties with providing
contracting staff and technical personnel to oversee contracts. Oversight in this area
focuses on equipment and property, funds control, contract management, and services.

Southwest Asia Joint Planning Group
In 2007, the DoD OIG jointly established an interagency Southwest Asia Joint Planning
Group (SWA JPG) and chairs the quarterly meetings. The mission of the group is to
better coordinate and integrate oversight activities and to oversee efforts to prevent fraud,
waste, abuse, and criminal activities in Southwest Asia. The group provides an
opportunity for collaboration and teamwork with the organizations engaged in this effort,
including the military inspectors general and service auditors general, combatant
commands inspectors general, Defense Contract Audit Agency (DCAA), Defense
Finance and Accounting Service, Defense Contract Management Agency, DoS OIG,
USAID OIG, Special Inspector General for Iraq Reconstruction (SIGIR), Special
Inspector General for Afghanistan Reconstruction (SIGAR), General Accountability
Office (GAO), and the Commission on Wartime Contracting (CWC).

The SWA JPG frequently includes guest speakers representing key areas such as
financial management and logistics. The DoD OIG Special Deputy Inspector General for
Southwest Asia leads the coordination of oversight and communication with Defense
leadership via the SWA JPG, resulting in improved mission support to military units
conducting operations in the region.

Oversight Products
Between October 1, 2002, and September 30, 2009, 715 reports, hearings, and
testimonies supporting OIF and OEF were issued. We did not categorize or identify
detailed information on 29 of the 715 products (28 reports and 1 testimony), which were
identified as classified 5.


5
  While the majority of these reports address oversight of operations of OIF and OEF, there are reports
included specifically from SIGIR, SIGAR and GAO that address other programs outside the DoD. While
not DoD specific, these reports are included to show that similar challenges exist in programs that
collectively represent the challenges to achieve the goals of the United States in Iraq and Afghanistan.


                                                    3
In July 2008, we reported on the status of recommendations for 302 reports and
testimonies (246 reports and 56 testimonies) and categorized these recommendations in
DoD OIG Report No. D-2008-086. However, in conducting our work for the update, the
oversight community identified an additional 54 reports and 10 testimonies that were not
reported in the July 2008 product. The new total for the FY 2003-FY 2007 universe
includes 366 reports and testimonies (300 reports and 66 testimonies, 20 of these
products were classified).

The oversight community issued 298 unclassified reports in FY 2008 and FY 2009, for
which the SWA JPG asked each reporting agency to categorize their products into one or
more of the following six main functional areas based on their review of the pertinent
areas covered in the reports and subsequent recommendations.
    • Security
    • Governance, Rule of Law, and Human Rights
    • Economic and Social Development
    • Contracting Oversight and Performance
    • Crosscutting
    • Other

We identified 2,486 recommendations that addressed one or more functional areas to
improve operations supporting OIF and OEF. Table 1 shows the number of reports and
number of categories selected for recommendations made within the six main functional
areas.

                           Table 1. OIF and OEF Related Reports
                                    (FY 2008 - FY 2009)
                                             FY 2008                                      FY 2009
                             FY 2008                       FY 2009
   Functional Area                          Category                                     Category
                             Reports        Selections      Reports                      Selections
Security                          63                   336                114               697
Governance, Rule of
Law and Human                     16                   29                  20                 39
Rights
Economic and Social                4                   13                  18                 36
Development
Contracting Oversight             52                   215                 84                531
and Performance
Crosscutting                      12                   24                  36                 94
Other                              1                    3                   3                 13
*We had 71 FY 2008- FY 2009 reports with no recommendations. In instances where a report had no
recommendation, we asked the agency responsible for the report to categorize the overall subject of the
report. The total number of FY 2008 and FY 2009 reports listed above will exceed 298 because reports may
cover multiple functional areas.

Status of Recommendations
According to the reporting agencies, as of March 1, 2010, sufficient actions have been
taken on 1,553 of the 2,486 recommendations (62 percent) and these recommendations
are considered completed and closed. We did not report on any recommendations that


                                                   4
were closed after March 1, 2010, but will do so in a future report. Recommendations are
discussed in detail in Chapter 2, where table 3 (page 22) also shows the overall status of
recommendations as of March 1, 2010.




                                             5
Chapter 1. Observations From Oversight of
Defined Functional Areas
The oversight community issued 298 unclassified reports between October 1, 2007, and
September 30, 2009, that support OIF and OEF. In order to provide a better
understanding of what was reported, we focused and provided observations on the
following six main functional areas, as well as specific administrative and legislative
branch interests:
    • Security
    • Governance, Rule of Law, and Human Rights
    • Economic and Social Development
    • Contracting Oversight and Performance
    • Crosscutting
    • Other


Security
Security is a primary focus in Southwest Asia. The U.S. Administration’s priority goals
to achieve stability and to disrupt, dismantle, and defeat terrorist organizations in
Afghanistan and Pakistan, are supported by multiple organizations. The security forces of
many of these countries, including Iraq and Afghanistan, lack the personnel, equipment,
and reliable vehicles needed to conduct operations without the support of U.S. and
coalition forces. The intended build-up of the Iraqi and Afghanistan National Security
Forces poses significant challenges to accomplishing the United States mission. Much
work remains before these security forces can operate independently.

Accountability and Maintenance of Equipment
                                              Demonstrating equipment accountability
Figure 1 : Racks of M-4 carbines lined up to ensure
             safety and accountability        and maintenance for deployed U.S.
                                              military forces, as well as equipment
                                              shipping and receiving are major
                                              challenges for the Department. For
                                              example, the NAVAUDSVC reported in
                                              FY 2008 that United States Marine Corps
                                              units involved in shipping and receiving
                                              small arms, often did not follow
                                              established (and required) control
                                              procedures to ensure that in-transit
                                              weapons shipments were monitored and
                                              accountability was maintained. In
addition, USMC management did not provide adequate oversight of the in-transit
weapons shipping process or hold USMC units accountable for not following required
procedures. Much research needed to be done to determine if any weapons had actually


                                                6
been lost or stolen. NAVAUDSVC indicated that, because of the age of some of these
transactions and the lack of audit trails, there would probably be no conclusive answer for
many of the transactions. 6

In FY 2008, AFAA reported the mobility bag program management could be improved
by reducing the number of home station mobility bags to achieve more than $44 million
in additional benefits. Mobility bags contain all or most of the mobility assets required
for deployment. They can be issued quickly to deploying personnel during emergency
situations. Personnel did not effectively manage mobility bag inventories and shelf-life
assets in the U.S. Central Command Air Force area of responsibility, resulting in
personnel deploying unsafe items. Also, because Air Force personnel did not follow up
on mobility bag transfers, accountability was lost for mobility bags valued at $665,393. 7

In FY 2009, USAAA reported that visibility over shipping containers was systemically
problematic in Southwest Asia and found three overarching factors the Army should have
addressed to improve visibility over shipping containers, including: the continued use of
containers beyond their intended purpose (storage being the primary example);
categorization and treatment of containers as expendable assets; and the absence of
sufficient container management education and training at logistics schools. USAAA
stated that addressing these factors, particularly the key logistics gap concerning storage,
would mitigate future container management challenges and should result in significant
cost avoidance for the Army. 8

In FY 2009, DoD OIG reported that while the USMC recovery and reset efforts for
reviewed equipment were generally effective, there were issues concerning USMC’s
handling of supplemental funds requests. Approximately 5.6 percent of the supplemental
funds requested did not meet DoD or USMC guidance for inclusion in the supplemental
funds request. DOD OIG determined that USMC requested funding based on:
    • Requirements that the USMC categorized as low priority and desirable, but the
       guidance said that it should have been for only essential requirements;
    • Estimated combat losses when the guidance stated these requirements should be
       based on actual losses;
    • Requirements based on inaccurate unit prices; and
    • Requirements that exceeded approved requirements.

Further, retaining supporting documentation allows senior officials to ensure that only
bona fide, documented requirements are funded to sustain current and future readiness
rates. As a result of the Marine Corps’ actions, approximately $383.3 million in FY 2007
supplemental funds may have been put to better use, and an additional $138 million
requested was unsupported. 9



6
  NAVAUDSVC Report No. N2008-0008.
7
  AFAA Report No. F2008-003-FD3000.
8
  USAAA Report No. A-2009-0069-ALL.
9
  DoD OIG Report No. D-2009-066.


                                             7
Physical Security and Personnel Security
The oversight community identified opportunities to improve physical security and
personnel security for OIF and OEF. In April 2009, SIGIR reported on the DoD oversight
of serious incidents (such as attacks, deaths, injuries, and property damage) involving
private security contractors in Iraq, including a number of opportunities to improve the
serious incident reporting, investigating, and remediating processes. For example, DoD-
managed Contractor Operations Cells and U.S. Embassy Regional Security Office
databases did not capture all reported serious incidents and did not present a complete
picture of the serious incidents they were tasked to track. This may have indicated
database management problems or the failure of the private security contractors to follow
reporting requirements. 10

In October 2008, NAVAUDSVC reported that opportunities exist within the USMC to
improve the overall critical asset identification process, such as improving command
participation, using authoritative sources for mission essential tasks, clarifying tier
definition criteria, implementing uniform training, and securing a dedicated funding
source. The report stated that these opportunities existed because there were insufficient
internal controls and oversight, and also a lack of clear guidance to ensure that a complete
and accurate record existed of assets and infrastructures deemed critical to the execution
of DoD and USMC missions and core capabilities. 11

Training and Equipping National Security Forces
The Department faces challenges in properly training and equipping national security
forces supporting OIF and OEF, which effects program and equipment capabilities.
  Figure 2: Afghan National Police unit members after returning to In FY 2009, SIGAR
                           their district                          reported on the Combined
                                                                   Security Transition
                                                                   Command –
                                                                   Afghanistan’s (CSTC-A)
                                                                   oversight of a $404
                                                                   million contract that
                                                                   provides training and
                                                                   training support for the
                                                                   Afghanistan National
                                                                   Security Forces in 17
                                                                   locations throughout
                                                                   Afghanistan. The SIGAR
found that CSTC-A’s oversight of a $404 million contract was limited, and as a result,
CSTC-A lacked assurances that U.S. funds were being spent in accordance with contract
requirements. Without strong oversight, payments to contractors were based primarily on
a contractor having reported that it had met requirements specified in the contract. The



10
     SIGIR Report No. 09-019.
11
     NAVAUDSVC Report No. N2009-0006.


                                             8
absence of periodic field visits by qualified contracting oversight personnel put U.S.
funds at risk of waste or abuse. 12

In FY 2009, GAO found that DoD and State had not overcome persistent obstacles
affecting the success of their programs, including a lack of dedicated personnel for
creating new mentor teams to support focused development of police districts, which put
in jeopardy the ability of the Focused District Development program to achieve its goals
because it must compete with an expanding Afghan National Army training program. In
addition, the Departments of Defense and State had not overcome the resistance of
Afghan National Police regional commanders, who were not cooperating with efforts to
validate almost 29,400 names registered to receive Afghan National Police identification
cards that would help ensure contributions to the Law and Order Trust Fund for
Afghanistan to pay the wages of Afghan police were not being used to pay nonexistent or
inactive personnel. 13

In FY 2009, SIGIR reported that the Multi-National Security Transition Command-Iraq
(MNSTC-I) did not properly oversee a $220 million depot integrator contract. Required
equipment was not installed and Iraqi students did not attend training. As a result, the
objectives an Iraqi military depot maintenance capability fell far short of the initial
contract goals. SIGIR indicated that until these problems were resolved, the Iraqi Army’s
ability to independently conduct depot level maintenance would be limited. Nonetheless,
MNSTC-I reported at the time that it intended to transfer the facility on December 31,
2009, “as is,” without regard to the level of facility, equipment, or training
development. 14

On September 30, 2009, DoD OIG reported 14 examples where progress had been made
in the areas of Afghanistan National Security Forces doctrine, training, leader
development, material/logistics, and international cooperation. The report also identified
challenges in the following areas:
     • Oversight of contracting and contractors;
     • Strength of the Afghan National Security Forces;
     • Logistics development and sustainable capacity of the Afghan National Security
         Forces;
     • Community policing, rule of law, and the counterinsurgency fight;
     • Lack of accountability at all levels of the Afghan National Security Forces; and
     • U.S. and International Security Assistance Force/Coalition trainers and mentors. 15

Warfare Support
Another set of challenges for the Department are U.S. warfare training and management
of assets required to support U.S. military forces for Overseas Contingency Operations.


12
   SIGAR Report No. Audit-09-1.
13
   GAO Report No. GAO-09-280.
14
   SIGIR Report No. 09-027.
15
   DoD OIG Report No. SPO-2009-007.


                                             9
For example, in the first two quarters of FY 2009, NAVAUDSVC reported that some
active service members were not receiving mandatory preparation counseling 90 or more
days prior to separating from the USMC, as required by public law. By not providing
counseling when required, the USMC did not ensure the affected service members
received timely information about transition services, benefits, and entitlements available
to assist them in adjusting to civilian life. Also, the USMC was not able to determine why
Marines did not receive training as required because 71 percent of mandatory forms were
missing from the official military personnel files or were filled out incorrectly. 16

Air Force personnel could improve war reserve materiel management. In January 2009,
AFAA reported Air Forces Central Command planners overstated war reserve material
requirements by more than 17,000 assets totaling $240.4 million, and misstated
associated asset authorizations by more than 34,000 items valued at nearly $600 million,
which resulted in Air Forces Central Command officials not identifying and canceling
unnecessary buy requirements totaling $155.6 million, or identifying and filling 3,800
unfilled critical equipment authorizations. Air Forces Central Command did not properly
account for war reserve material assets with an overall accountability error rate of 37
percent and inadequate inventory controls increased the risk for undetected lost assets or
fraud, waste, and abuse for $1 billion in assets. 17

DoD OIG reported in FY 2009 that in FY 2004, DoD transferred more than $126 million
from the Defense Emergency Response Fund to the Iraq Freedom Fund as required by the
public laws. DoD OIG reported that the components did not review their obligations to
ensure they were valid and accurate and that unliquidated obligations were deobligated.
As a result, in July 2009, 5 years and 6 months after the public law had mandated the
transfer of balances in the Defense Emergency Response Fund to Iraq Freedom Fund,
there was still about $260 million ($108.9 million classified as unpaid obligations and
$151.1 million classified as unobligated) in the Defense Emergency Response Fund for
GWOT that DoD needed to transfer to the Department of Treasury because the
proscribed time under the law to transfer the funds to the Iraq Freedom Fund had
expired. 18

Governance, Rule of Law, and Human Rights
The United States is working to strengthen constitutional governments in the region so
that they respond to their citizens’ needs; build the capacity of justice systems and respect
for the rule of law; and support human rights and advocacy programs. Key areas for
which oversight is provided involve government capacity building, programs to address
corruption and promote human rights, and refugee assistance.




16
   NAVAUDSVC Report No. N2009-0046.
17
   AFAA Report No. F2009-0003-FD3000.
18
   DoD OIG Report No. D2009-098.


                                             10
Government Capacity Building
Coalition forces, as well as international humanitarian organizations, have worked
extensively to address programs designed to stabilize communities; foster agricultural
and economic growth (including loan programs and state-owned enterprise programs) ;
and build the capacity of national, local, and provincial governments in areas such as the
rule of law, oversight, and governance.

For example, in September 2009, SIGAR reported on U.S. and donor assistance and
coordination of support for Afghan election preparation, and assessed the assistance
provided to strengthen the capacity of the Afghan electoral institution, specifically the
Independent Election Commission. SIGAR emphasized that conducting credible and
acceptable elections not only depends on the integrity of the election process but also the
willingness and ability of the next Afghan government to continue to build the
commission’s capabilities so that democratic principles and the electoral processes are
sustained. 19

In January 2009, SIGIR reported on the operation- and performance-measuring practices
of the Provincial Reconstruction Teams. SIGIR stated the Office of Provincial Affairs
had taken action to develop a performance monitoring system to assess provincial
capacity and the outcomes of Provincial Reconstruction Teams activities, but that the
Office of Provincial Affairs had not maintained a strong control environment to assure
they will develop and execute work plans. 20

Anticorruption
The oversight community actively reviews anticorruption programs designed to deter
gross abuses of the public trust for private gain. When left unchecked, corruption can
significantly hinder economic development. Anticorruption efforts are of particular
importance in Iraq and Afghanistan given the extent to which past regimes openly
accepted government corruption as the norm.

In Iraq, SIGIR has worked extensively in anticorruption programs, issuing numerous
reports addressing U.S. embassy efforts to manage a multitude of U.S. Government
agency anticorruption programs. In FY 2009, SIGIR reported on DoS progress in
implementing its revised anticorruption management plan, and addressing previous
SIGIR recommendations, and the anticorruption efforts of the Iraq government. The
report highlighted that recent actions by the DoS and U.S. Embassy in Iraq showed a
continued commitment to improving the U.S. anticorruption program; however, more
remained to be accomplished to fully establish and implement a comprehensive and
effective program. SIGIR determined that the U.S. anticorruption strategy lacked metrics
that tied program activities to goals, as well as baselines from which progress could be




19
     SIGAR Report No. Audit-09-6.
20
     SIGIR Report No. 09-013.


                                            11
measured, leaving future program investments vulnerable to wasteful spending,
ineffectiveness, and inefficiency. 21

Human Rights
The oversight community has worked to address projects focused on human rights, such
as trafficking in persons and sexual harassment.

In June 2008, GAO reported human rights as an issue that has complicated the
development of capable Iraqi Security Forces. According to GAO, Iraq’s Shi’a-
dominated government has engaged in sectarian-based human rights violations and has
tolerated abuses committed by Shi’a militias with ties to political factions in the
governing coalition. The Iraqi government, through its security forces, has committed
arbitrary arrest, prolonged detention without due process, targeted executions, and torture
against non-Shi’a Iraqis. 22

Refugee Assistance
Figure 3: U.S. and Italian medical personnel provideIraqi refugees are one of the largest
       medical assistance to an Afghan child.       urban populations the United Nations
                                                    has been called on to assist. The United
                                                    Nations reports government estimates of
                                                    up to 4.8 million Iraqis displaced within
                                                    the last 5 years, with two million
                                                    fleeing, primarily to Syria and Jordan.
                                                    Oversight of this area addresses
                                                    programs designed to provide
                                                    resettlement and placement, cash and
                                                    medical assistance, food, and
                                                    employment and social services to
                                                    refugees. In FY 2009, GAO reported
that an insufficient quantity of staff to monitor projects, difficulties gaining access to
projects and refugees, and the lack of reliable data on education and health needs
hindered DoS’s efforts to ensure that projects were helping the intended beneficiaries.
U.S. and international efforts to effectively provide humanitarian assistance to Iraqi
refugees in neighboring countries were impeded by two key factors – the lack of reliable
estimates on the needs of Iraqi refugees and data on the funding targeted toward Iraqi
refugee programs. 23

Economic and Social Development
Efforts to advance economic and social development in the region affected by OIF and
OEF are critical to regional stabilization, the success of U.S. efforts, and the eventual
drawdown of U.S. forces from the region. Economic and social development priorities

21
   SIGIR Report No. 08-023.
22
   GAO Report No. GAO-08-837.
23
   GAO Report No. GAO-09-120.


                                                12
include enhancing regional trade, encouraging private sector expansion, rehabilitating
infrastructure, providing access to health and education services, and encouraging
legitimate agricultural development. Oversight products identify a wide range of
programs that contribute to economic and social development, such as agriculture and
counternarcotics; education and health care; infrastructure to provide energy,
transportation, and other services; and reconstruction.

Agriculture and Counternarcotics
Figure 4: Counternarcotics exercise conducted  Agriculture and counternarcotics oversight
         near Dabaray, Afghanistan.            address the management of counternarcotics
                                               programs and sustainable, legal agricultural
                                               crop production for both consumption and
                                               production in the region and the impact of
                                               these programs on economic and social
                                               development. During a site visit to evaluate
                                               counternarcotics detention facility procedures
                                               in September 2009, SIGAR reported that all
                                               detention cells were occupied by low-profile
                                               detainees, whereas, according to State and
                                               Justice Department officials, the facility was
built with the intention of housing mid- and high-profile drug traffickers. Because it was
filled with low-profile detainees, the facility did not have any available detention cells to
hold mid- and high-profile drug traffickers. Further, SIGAR reported their concern that
the new detention facility, once constructed, may become filled with low-profile
prisoners, rather than the high-value targets for whom the facility was designed. This
could have a negative effect on the ability of the Criminal Justice Task Force to
investigate major narcotics offenders and the Central Narcotics Tribunal to prosecute
them. 24

Education and Healthcare
Reviews in this area address programs related to education and medical care programs in
the region and the impact of these programs on economic and social development and
advancement. In April 2009, SIGIR reported on a U.S. Army contract for the design and
construction of 150 primary healthcare centers (PHCs) and identified that just two years
later, with the PHCs in various construction phases, the U.S. Government terminated the
PHC task orders. The U.S. Army Corps of Engineers’ Gulf Region Division has
completed construction of most of the PHCs despite poor security conditions that led to
incidents such as the bombing of some facilities. Gulf Region Division awarded follow-
on construction contracts to Iraqi contractors to complete the PHCs and then reported, at
the time of the report, that construction was completed. As a result of the changes to the
original program, SIGIR identified the following:




24
     SIGAR Report No. Audit-09-7.


                                                13
                                                                 Figure 5: Surgical team at Balad
      •   The program cost about $345 million, $102           Hospital in Iraq providing critical
          million more than the original contract planned.            medical services.
      •   PHCs were transferred to the Iraq Ministry of
          Health as much as three years later than planned.
      •   Only 133 PHCs were built instead of the 150 PHCs
          indicated by the original contract.
      •   Not all of the 133 PHCs reported completed were
          completed and open to the public at the time of the
          report.
      •   Significant uncorrected construction deficiencies
          and non-operating medical equipment were
          identified at four open and operating PHCs.

SIGIR stated in its report that, without sufficient
accountability and transparency of PHC program status, the U.S. Government does not
have the information essential to determine whether any further U.S. management
attention is needed to prevent some or all of its PHC investment from being wasted. 25

Infrastructure
       Figure 6: Bridge construction project in Iraq. In FY 2009, GAO reported that the
                                                      construction of a fully upgraded
                                                      regional highway network was
                                                      expected to foster regional trade and
                                                      contribute to Afghanistan’s economic
                                                      development. The Afghan
                                                      government, in conjunction with
                                                      international donors, established the
                                                      goal of completing these roads by the
                                                      end of 2008. The United States and
                                                      other donors committed more than
                                                      $1.5 billion for the over 3,200
                                                      kilometer regional highway network,
and completed about 60 percent of these highways as of February 2008. GAO indicated
that, at that time, an additional 29 percent of the construction was ongoing. Funding for
the remaining 11 percent had been committed, but construction had not begun.
Completion of the regional highway was not expected until December 2009, in part,
because of the timing of the financial commitments. 26




25
     SIGIR Report No. 09-015.
26
     GAO Report No. GAO-09-626SP.


                                                   14
Reconstruction
U.S. agencies and commands in Afghanistan have management information systems for
collecting data on reconstruction activities, but there is no single system that provides
complete and accurate information of all completed, underway, and planned
reconstruction activities. In October 2008, SIGAR reported that the availability and use
of management information systems for project management varied significantly and
provided little opportunity for sharing information without considerable effort. Sharing
reconstruction information between agencies and commands typically occurred through
periodic meetings and manually intensive processes involving spreadsheets,
presentations, and other ad hoc reports. This situation provided an increased chance of
duplication of efforts, conflicting ventures, and overall wasted resources. SIGAR also
indicated that a more formal, fully coordinated effort among key U.S. Government
implementing entities was needed to jointly assess current information systems and
develop the requirements for an integrated management information solution. 27

Contracting Oversight and Performance
It is essential that funds are spent appropriately and that the U.S. Government obtains
value for the services and commodities it purchases. Oversight of these funds is crucial,
particularly in an environment in which there are difficulties with providing contracting
staff and technical personnel to oversee contracts. Oversight in this area focused on
equipment and property, contract management, funds control, Defense Contract Audit
Agency, and services.

Equipment and Property
Equipment and property reviews address specific or multiple contracts, which may be
used to acquire, manage, construct, or maintain equipment or property used in Overseas
Contingency Operations. As the United States draws down its forces in Iraq, the re-
posturing of DoD equipment and property is a massive and expensive effort. In
September 2008, GAO reported that efforts had been made to synchronize planning for
re-posturing, but that DoD, U.S. Central Command, and the military services had not yet
clearly established all of the roles and responsibilities for managing and executing the
drawdown of materiel from Iraq. 28

In Afghanistan, the United States and its allies are focusing on strengthening its presence
in the area. DoD OIG has reported on efforts to account for property. For example, DoD
OIG found that the U.S. Army Corps of Engineers, Afghanistan Engineer District, did not
properly negotiate and award two contract modifications related to the construction of the
Kabul National Military Hospital, and that the Afghanistan Engineer District improperly
exercised a contract option that did not have well-defined requirements on one of the
National Military Hospital contracts. 29 USAAA found that supply activities were not
staffed and equipped in a cost-effective manner and thus were unable to ensure contractor


27
   SIGAR Report No. Audit-09-3.
28
   GAO Report No. GAO-08-930.
29
   DoD OIG Report No. D-2009-076.


                                            15
requirements were reasonable and effectively supported staffing and equipment levels at
supply activities. 30

Contract Management
The reliance of the Department on contractors presents several broad management
challenges, including determining which functions and activities should be contracted
out; developing a total workforce strategy to address the appropriate mix, roles, and
responsibilities of contractor, civilian, and military personnel; and ensuring appropriate
oversight, including addressing risks, ethics concerns, and surveillance needs. Such issues
take on heightened significance in Iraq and Afghanistan. Reviews of this area address all
or part of contract requirements, acquisition strategy, contracting, contract management,
or contract administration. Reviews of contract administration may include reviews of the
contracting officer representative’s assignment, delegation, training, and performance. In
general, the reviews may include contracting oversight and performance, and may refer to
the post-award management and oversight of contract actions.

CWC reported in FY 2009 that the ability of the government to detect contract cost errors
and material misstatements was seriously impeded by contractors’ inadequate internal
controls over their business systems. 31 SIGIR issued a series of focused audits, and in FY
2008 reported that the complex nature and unstable security environment in Iraq
contributed to millions of dollars lost on incomplete, terminated, and abandoned projects,
and contract management weaknesses also played a key role in the contract outcomes.
The weaknesses included a high turnover of contracting officers, a heavy contracting
officer workload, missing records, and a failure to follow-up on deficiencies. These
weaknesses created an environment conducive to waste and inefficiency. 32 In FY 2008,
the USAAA reported that controls over dining facility operations under the Logistics
Civil Augmentation Program contract needed improvement to make sure dining facility
operations were performed in the most efficient and effective manner. Specifically:

     •   Contractor standing operating procedures were missing, incomplete, or lacking
         adequate internal controls to properly manage and operate dining facilities.
     •   Lack of adequate controls in production schedules, the 21-day menu plan, portion
         control, and warehouse operations created waste of subsistence items and
         unnecessary expenditures.
     •   Command had not established a basic daily food allowance and had not required
         the contractor to manage a financial account card as required by Army guidance.
         If the contractor managed a financial account card as required, annual food
         expenditures could have been reduced by an estimated $61.5 million at two
         forward operating bases reviewed. 33


30
   USAAA Report No. A-2008-0090-ALL.
31
   CWC Special Report Number 1, “Special Report on Contractor Business Systems, Defense agencies
must improve their oversight of contractor business systems to reduce waste, fraud, and abuse,”
September 21, 2009.
32
   SIGIR Report No. 08-019.
33
   USAAA Report No. A-2008-0091-ALL.


                                                 16
Funds Control
It is vital that civilian and military personnel authorized to obligate and expend funds in
support of Overseas Contingency Operations use resources derived from a centrally funded
transfer account in order to ensure the funds are used in a fiscally responsible manner. Funds
control addresses oversight work that reviews the effectiveness, quality, and efficiency of
controls of government managers that ensure proper management and accountability of
funds disbursed; proper use of funds; and proper reporting, including accuracy in DoD
financial reports.

In April 2009, SIGIR reported a need to track provincial reconstruction team program
costs in Iraq. DoS and DoD officials concurred that, with additional effort, existing
financial systems could track most provincial reconstruction team costs. SIGIR indicated
that historical cost data could be useful in planning and implementing other
reconstruction operations using provincial reconstruction teams. 34 In July 2009,
NAVAUDSVC reported significant internal control weaknesses at several Southwest
Asia locations. These control weaknesses led to inappropriate awards of 15 personal
services contracts, purchase card decisions that were not sufficiently supported, $14
million in commercial payments that lacked the minimum documentation for a valid
payment, and a disbursing office that had not established formal policies and procedures
addressing cash management for paying agents. 35

In August 2009, USAAA reported that the process used to acquire role-players was not
cost effective because each training site contracted for role-players individually, instead
of using a more corporate-wide approach. According to USAAA, the Army could save
about $25.9 million by using a corporate-wide contracting approach and recouping
overpayments from the contractor. 36

DCAA Audits
In FY 2009, the CWC reported that DCAA’s reports were not informative enough to help
contracting officers make effective decisions and that the agency was under-resourced to
respond effectively to wartime needs. 37

DCAA’s services include professional advice to acquisition officials on accounting and
financial matters to assist them in the negotiation, award, administration, and settlement
of contracts.

In addition to DCAA’s involvement in the negotiation and award of contracts, significant
resources are also dedicated to overseeing the allowability, allocability, and
reasonableness of incurred and billed costs. Procedures that govern the costs incurred in-


34
   SIGIR Report No. 09-020.
35
   NAVAUDSVC Report No. N2009-0041.
36
   USAAA Report No. A-2009-0202-FFF.
37
   CWC Special Report Number 1, “Special Report on Contractor Business Systems, Defense agencies
must improve their oversight of contractor business systems to reduce waste, fraud, and abuse,”
September 21, 2009.


                                                 17
country are also tested through reviews of contractor timekeeping, subcontract
management, and cash management/disbursement. Finally, to ensure that adequate
internal controls are in place regarding the contractor’s policies and procedures, DCAA
performs audits associated with critical internal control systems, with an emphasis on
estimating, subcontract management, and billing systems.

DCAA Audits Related to Overseas Contingency Operations
The DCAA audit workload related to military operations and reconstruction in Iraq is
driven by contracting officer requests, audits required for ongoing contract oversight, or
by requests from other DCAA offices. Most contracting officer requests are for proposal
audits, pre-award accounting system audits, or for special audits to address specific
contract concerns or issues. Audit reports for requested audits are addressed to the
procuring contracting officer or the administrative contracting officer. Contract-required
audits include incurred cost, labor timekeeping, internal control systems, purchase
existence and consumption, and cost accounting standards. Contract-required audits are
initiated by DCAA and performed periodically throughout the life of cost-type contracts.
These audit reports are addressed to the primary administrative contracting officer. The
cognizant DCAA office is determined by the location of the contractor’s accounting
records. Most of these records are maintained stateside. Much of the audit effort
performed in-theater is in response to requests for audit assistance from other DCAA
offices to perform labor floor checks, verify assets or purchases, evaluate contractor
operations, and other efforts that can only be performed in-theater. See Table 2 for a
summary of the DCAA products issued.




                                            18
         Table 2. DCAA Audits Related to Iraq/Afghanistan FY 2004- FY 2009
                                            FY      FY      FY     FY      FY       FY
  DESCRIPTION OF AUDIT AREA
                                           2004    2005    2006   2007    2008     2009
 Price Proposal                             128     186    159     105     66      119
 Agreed-Upon Procedures Price
                                            113     50      21     13       0        0
 Proposal
 Other Special Requested Audits             123     190    142     71      63       33
 Incurred Cost                               1       8      15     27      78       25
 Labor Timekeeping                           59     82      76     60      40       67
 Internal Controls                           47     59      37     32      26       29
 Pre-award Accounting Survey                 30     20      39      6       4        5
 Purchase Existence and
                                             15     19      14     23      12       28
 Consumption
 Cost Accounting Standards                   28     50      33     39      44       22
 Other                                       23     42      68     47      45       30
 Total                                      567     706    604     423    378      358

1. Price Proposals - Audits of price proposals submitted by contractors in connection
with the award, modification, or repricing of Government contracts or subcontracts
2. Agreed-Upon Procedures Price Proposal - Evaluation of specific areas, including
actual labor and overhead rates and/or cost realism analysis, requested by customers in
connection with the award of Government contracts or subcontracts
3. Other Special Requested Audits - Audit assistance provided in response to special
requests from the contracting community based on identified risks
4. Incurred Cost - Audits of costs charged to Government contracts to determine
whether they are allowable, allocable, and reasonable
5. Labor Timekeeping - Audits to determine if the contractor consistently complies with
established timekeeping system policies and procedures for recording labor costs
6. Internal Controls - Audits of contractor internal control systems relating to the
accounting and billing of costs under Government contracts
7. Pre-award Accounting Survey - Pre-award audits to determine whether a contractor’s
accounting system is acceptable for segregating and accumulating costs under
Government contracts
8. Purchase Existence and Consumption - The physical observation of purchased
materials and services and related inquiries regarding their documentation and
verification of contract charges
9. Cost Accounting Standards - Audits of Contractor Disclosure Statements and
compliance with Cost Accounting Standards
10. Other - Significant types of other audit activities including compliance with Truth in
Negotiations Act, audits of provisional billing rates, and audits of claims and termination
settlement proposals


                                            19
Services
Services oversight addresses contract actions that generally require the time and effort of
a contractor, to include private security contractors, whether for personnel or physical
security. These reviews address the types of contracts used to obtain the service, award
fee management, and other controls over the contractor to ensure services were received
as expected, contracts were properly written to ensure expectations would be met, and
services provided were in the interest of the government and the taxpayer.

In FY 2009, DoD OIG reported that controls over contractor common access cards
needed improvement; specifically, that contractor common access cards were not
consistently approved, issued, reverified, revoked, or recovered by the Department. DoD
OIG also reported that better Army oversight was required for a contractor system that
issued over 25,428 common access cards to contractors deploying to Southwest Asia. 38

In FY 2009, the USAAA reported that processes and procedures were not adequate to
ensure the Gulf Region Division executed procurement actions to maximize the delivery
of construction in Iraq. Internal controls needed strengthening to ensure: actions were
taken to correct identified deficiencies within the contracting offices; proper oversight
was provided to contracting offices; required documents were prepared and retained to
support key acquisition decisions; adequate training was provided to contracting
personnel; and a long-term staffing plan was in place to ensure the Gulf Region Division
could meet the demands of Iraqi Reconstruction. In addition, the reach-back program that
was intended to provide support to Gulf Region Division personnel stationed in Iraq was
not operating effectively or efficiently. 39

Crosscutting
Crosscutting issues address reviews that relate to multiple category selections (Security;
Government, Rule of Law, and Human Rights; Economic and Social Development; and
Contracting and Oversight Performance).

For example, in April 2009, GAO reported key issues for consideration in developing
oversight agendas and determining the way forward in securing and stabilizing
Afghanistan. Significant oversight would be needed to help ensure visibility over the cost
and progress of these efforts. The enclosures suggested areas for additional oversight, on
topics such as U.S. and international commitments; the security environment; U.S. forces
and equipment; Afghan National Security Forces; counternarcotics efforts; economic
development; government capacity; accountability for U.S.-provided weapons; and
oversight of contractor performance. 40




38
   DoD OIG Report No. D-2009-005.
39
   USAAA Report No. A-2009-0244-ALL.
40
   GAO Report No. GAO-09-473SP.


                                            20
Other
Other projects address unique subject matter related to improving oversight in the
Southwest Asia region, but do not fit into an established category.

For example, in FY 2009 USAAA reported in the FYs 2010-2015 Program Objective
Memorandum the process that five of the six Program Evaluation Groups used to
determine critical requirements were not fully transparent, and, in many cases,
requirements were not classified as critical if supplemental funds were available. USAAA
also identified that some enduring requirements for FYs 2010-2015 were not fully
considered while building the Program Objective Memorandum (base budget) primarily
because of conflicting and changing DoD guidance and the Army’s continued reliance on
the supplemental. Additionally, the Army needed greater transparency and better criteria
for identifying incremental costs of war to be included in Overseas Contingency
Operations requests and those enduring requirements that need to migrate to the base
budget. 41




41
     USAAA Report No. A-2009-0188-FFM.


                                           21
Chapter 2. Actions Taken by Management to
Address Recommendations Made During the
Period October 1, 2002, through September
30, 2009
As of March 1, 2010, sufficient actions had been taken on 1,553 of the 2,486
recommendations (62 percent). These recommendations are considered completed and
closed by the reporting oversight organizations.

This report is an update of the status of recommendations identified in DoD OIG Report
D-2008-086 and for recommendations made in reports during FY 2008 and FY 2009. Of
the 1,034 recommendations related to the FY 2003 through FY 2007 reports, 925 (89
percent) have been closed, while 109 of them (11 percent) remain open as of March 1,
2010.

We are not reporting on any recommendations that may have been closed after March 1,
2010, but will do so in our report on FY 2010 products. Table 3 shows the overall status
of recommendations as of March 1, 2010.

                     Table 3. Overall Status of Recommendations
   FY of       Recommendation                      Percent                 Percent
                                      Closed                    Open
   Report           Total                          Closed                   Open
 FY 2003                29               29         100%           0          0%
 FY 2004               109              106          97%           3          3%
 FY 2005               338              328          97%          10          3%
 FY 2006               299              270          90%          29         10%
 FY 2007               259              192          74%          67         26%
 FY03–FY07
                      1034              925          89%         109         11%
 Subtotal
 FY 2008               450              279          62%         171         38%
 FY 2009              1002              349          35%         653         65%
 FY08-FY09
                      1452              628          43%         824         57%
 Subtotal
 Total                2486              1553         62%         933         38%




                                           22
Table 4 shows the number of reports and recommendations for each agency for FYs 2008
and 2009.

       Table 4. FY 2008-FY 2009 Reports and Recommendations by Agency
                     2008           2008          2009           2009
Agency
                   Reports    Recommendations Reports Recommendations
USAAA                 29             142            51            179
AFAA                   5              10             7             13
NAVAUDSVC              4              18            13            113
DoD OIG               30             181            55            568
GAO                   24              63            24             49
SIGIR                 28              36            27             61
SIGAR                N/A             N/A             7             14
CWC                    0               0             2              5
Totals               120             450           186           1002

Table 5 shows the FY 2008 and FY 2009 status of recommendations for each agency in
our report as of March 1, 2010.

        Table 5. FY 2008-FY 2009 Status of Recommendation by Agency
                 Open Closed                Open Closed
                               % Closed                  % Closed Overall
Agency            FY      FY                 FY    FY
                                FY 2008                   FY 2009 Closed %
                 2008    2008               2009  2009
USAAA              76     66      46%        90    89      50%      48%
AFAA                1      9      90%         6     7      54%      70%
NAVAUDSVC           1     17      94%        62    51      45%      52%
DoD OIG            18    163      90%       371   197      35%      48%
GAO                50     13      21%        48     1       2%      13%
SIGIR              25     11      31%        59     2       3%      13%
SIGAR             N/A    N/A      N/A        12     2      14%      14%
CWC                 0      0      N/A         5     0       0%       0%
Totals            171    279      62%       653   349      35%      43%



Standards for Follow up on Recommendations
Office of Management and Budget Circular A-50, “Audit Follow-up,”
September 29, 1982, states that audit follow up is an integral part of good management
and is a shared responsibility of agency management officials and auditors. Each agency
must establish systems to ensure the prompt and proper resolution and implementation of




                                          23
audit recommendations. These systems must provide for a complete record of actions
taken on both monetary and nonmonetary findings and recommendations. 42
Generally accepted government auditing standards prescribe follow-up requirements for
audit findings and recommendations. Accordingly, for performance audits, generally
accepted government auditing standards state that auditors should evaluate whether the
audited entity has taken appropriate corrective action to address findings and
recommendations from previous engagements that are significant. Auditors should use
this information in assessing risk and determining the nature, timing, and extent of
current work, including determining the extent to which testing the implementation of the
corrective actions applies to the current engagement objectives. 43
DoD Directive 7650.3, “Follow-up on General Accounting Office, Department of
Defense Office of Inspector General, and Internal Audit Reports,” October 18, 2006,
provides guidance for GAO, DoD OIG, and other DoD internal audit organizations.
Follow-up is an integral part of good management and is a responsibility shared by DoD
managers and auditors. Each agency implements its own follow-up program in
accordance with the prescribed standards. 44




42
   Office of Management and Budget Circular A-50, September 29, 1982.
43
   GAO-07-731G Government Auditing Standards, July 2007, Chapter 7 “Field Work Standards for
Performance Audits,” Section 7.36 “Previous Audits and Attestation Engagements.”
44
   DoD Directive 7650.3, “Follow-up on General Accounting Office (GAO), DoD Inspector General (DoD
OIG), and Internal Audit Reports,” October 18, 2006.


                                               24
Appendix A. Scope and Methodology
USAAA, NAVAUDSVC, AFAA, DoD OIG, GAO, SIGIR, SIGAR, and CWC issued
715 products (606 reports, 5 hearings, and 104 testimonies) (686 unclassified and 29
classified) beginning FY 2003 through FY 2009 that support OIF or OEF. This non-audit
service report identifies 715 OIF and OEF related products from FY 2003 through FY
2009 issued and given by the oversight community.

The Department of State Office of Inspector General and the U.S. Agency for
International Development Office of Inspector General chose not to participate in the
scope of this product, therefore, while a list of their products are identified in the
appendices, the products of these agencies are not reflected or counted toward the total
indicated in the body of the report.

We did not categorize the testimonies in the report. We identified the OIF and OEF
related reports 45 and relied on the reporting oversight agencies for their quality control
standards, as a result, we did not review the supporting documentation for any of the
reports. In order to focus our observations, we used functional areas identified in the FY
2009-2010 Comprehensive Oversight Plan for Afghanistan/Pakistan and the FY 2010
Comprehensive Oversight Plan for Southwest Asia to categorize the reports.

The overall categories (functional areas) used for the purposes of presentation of the
observations are:
• Security
• Governance, Rule of Law, and Human Rights
• Economic and Social Development
• Contracting Oversight and Performance
• Crosscutting
• Other

The team used subcategories identified in the FY 2009-2010 Comprehensive Oversight
Plan for Afghanistan/Pakistan (the Plan) and the FY 2010 Comprehensive Oversight Plan
for Southwest Asia. Based on the categories and subcategories identified in the Plan the
team compiled the following definitions for vetting and categorization of observable
issues and recommendations:



45
  This product focuses mainly on reports issued to DoD; however, SIGIR, SIGAR, and GAO issued
reports that may have included recommendations to non-DoD components but are related to the overall
United States goals in Southwest Asia. This product includes all SIGIR, SIGAR, GAO, CWC and DoD
reports, hearings, and testimonies, excluding classified reports, beginning in FY 2003 through FY 2009.
The examples used in this product come from reports issued in FY 2008 and FY 2009.


                                                   25
Security
    • Accountability & Maintenance of Equipment: Addresses government-owned
        equipment and property used in support of a DoD or other U.S. government
        activity. This category does not address those matters related to contracting
        acquisition actions or any contracted maintenance, but does address
        accountability throughout the complete life cycle. The complete life cycle
        includes accounting for proper disposal or transfer of equipment or property to a
        host government.
    • Physical Security & Personnel Security: Addresses the physical security of
        military and civilian personnel and their operational bases (permanent, mobile,
        and temporary). This includes, but is not limited to, reviews of security
        clearances and identification cards.
    • Training and Equipping National Security Forces: Addresses the reviews of
        training and equipping organizations that are critical for stability in sovereign
        nations (Iraq, Afghanistan, Pakistan, others). It also includes advising, assisting,
        or mentoring activities. National security forces may include national
        army/navy/air force/coast guard/other military, the Frontier Corps, national and
        local police, and special and border police.
    • Warfare Support: Addresses reviews related to supporting military operations
        such as planning, logistics and transportation functions, and the results of those
        military operations. It also would include reviews of such programs as the
        Wounded Warrior care, both outside the continental United States and upon
        return to the continental United States, pre- and post-mobilization efforts,
        training, etc.

Governance, Rule of Law, and Human Rights
   • Government Capacity Building: Addresses programs designed to stabilize
      communities; foster economic (including loan programs and state-owned
      enterprise programs) and agricultural growth; and build the capacity of the
      national, local, and provincial governments such as Rule of Law, oversight, and
      governance.
   • Anticorruption: Addresses reviews of programs and projects focused on
      prevention of improper or unlawful conduct intended to secure a benefit for
      oneself or another. Particular emphasis is placed on political corruption and
      bribery.
   • Human Rights: Addresses projects focused on the quality of the basic rights and
      freedoms to which all humans are entitled. Topics may include, but are not
      limited to, trafficking in persons and sexual harassment.
   • Refugee Assistance: Addresses oversight of programs designed to provide
      resettlement and placement, cash and medical assistance, food, employment, and
      social services to refugees.




                                             26
Economic and Social Development
   • Agriculture and Counternarcotics: Addresses reviews related to the management
      of counternarcotics programs and sustainable, legal agricultural production for
      both consumption and production in the region and the impact of these programs
      on economic and social development.
   • Education and Healthcare: Addresses programs related to education and medical
      care programs in the region and the impact of these programs on economic and
      social development and advancement.
   • Infrastructure: Addresses programs related to acquiring or refurbishing resources
      such as buildings or infrastructure equipment required for economic and social
      development and sustainability in the region. This may include public works, such
      as water and energy grids, as well as educating personnel on proper maintenance
      and future construction requirements.
   • Reconstruction: Addresses programs related to the reconstruction or
      reestablishment of assets, in addition to infrastructure, affected by destabilization
      and the resulting destruction experienced in the region and the impact of this
      reconstruction on economic and social development.

Contracting Oversight and Performance
   • Equipment and Property: Reviews address specific or multiple contracts that may
       acquire, manage, construct, or maintain equipment or property used in
       contingency operations.
   • Contract Management: Addresses parts or all of contracting requirements,
       acquisition strategy, management, and administration. Reviews of contract
       administration may include a review of the contracting officer representative’s
       assignment, delegation, training, and performance. In general, the review may
       include contracting oversight and performance, and may refer to the post-award
       management and oversight of contract actions.
   • Funds Control: Addresses oversight work that reviews the effectiveness, quality,
       and efficiency of controls of government managers that ensure the proper
       management and accountability of funds disbursed, the proper use of funds, and
       the proper reporting including accuracy in DoD financial reports.
   • DCAA Audits: Addresses audits performed by Defense Contract Audit Agency to
       assist contracting officers in the negotiation, award, administration, and settlement
       of contracts.
   • Services: Addresses oversight of contract actions that generally require a
       contractor’s time and effort to include private security contractors whether for
       personnel or physical security. These reviews would address the type of contracts
       used to obtain the service, award fee management, and other controls over the
       contractor to ensure service was received as expected, the contract was properly
       written to ensure expectations would be met, and services provided were in the
       best interest of the government and the taxpayer.




                                            27
Other
We added this category to address reports that did not relate to any of the available
categories.

We also counted the recommendations in each report and obtained the status of each
recommendation from representatives from USAAA, NAVAUDSVC, AFAA, DoD OIG,
GAO, SIGIR, SIGAR, and CWC. All decisions regarding the categorization of
recommendations were made by the originating agencies. We asked DoD OIG
directorate’s, Acquisition and Contract Management, Joint & Southwest Asia Operations,
and Defense Business Operations, to validate and make any necessary adjustments to the
categorization selections made by this team for their OIF/OEF products. The DoD OIG
directorates for Readiness, Operations and Support; Intelligence; Inspections and
Evaluations; Audit Policy and Oversight; and Special Plans and Operations categorized
the recommendations of their own products.

The team reviewed the status of the recommendations of the 715 reports and determined
whether appropriate action was taken to address the 2,486 recommendations by
determining how many recommendations remain open at the end of each FY.


Use of Computer-Processed Data
We relied on data entered into the Defense Automated Management Information System
to determine the status of the DoD OIG report recommendations. We did not perform any
tests of the validity of the data manually entered into the Defense Automated
Management Information System by DoD OIG personnel when compiling information
for this report.




                                            28
Appendix B. OIF and OEF Reports FY 2003
through FY 2009
From FY 2003 through FY 2009, the oversight community has issued 606 reports that
relate to Operations Iraqi Freedom or Enduring Freedom. The reports are listed by
agency, by issue date. Classified reports are marked with an asterisk (*).

Army Audit Agency
The Army Audit Agency issued 157 reports pertaining to Operations Iraqi Freedom and
Enduring Freedom. To obtain copies of the Army Audit Agency reports, visit their Web
site at https://www.aaa.army.mil. The site is available only to military domains and the
Government Accountability Office. Other activities may request copies of Agency
reports by contacting the Army Audit Agency Audit Coordination and Followup Office at
703-697-3992.

Army Audit Agency Report No. A-2009-0245-ALL, “LOGCAP Operations in Support of
Operation Iraqi Freedom-Power Generators,” September 30, 2009

Army Audit Agency Report No. A-2009-0244-ALL, “U.S. Army Corps of Engineers
Contract Functions in Iraq, Gulf Region Division, Baghdad, Iraq,” September 30, 2009

Army Audit Agency Report No. A-2009-0242-ALR, “Property Book Unit Supply
Enhanced, I Corps and Fort Lewis,” September 30, 2009

Army Audit Agency Report No. A-2009-0228-ALL, “Retrograde Operations in
Southwest Asia-Management of Automatic Return Items and Critical Items, Office of the
Deputy Chief of Staff G-4 (FOUO),” September 30, 2009

Army Audit Agency Report No. A-2009-0132-ALL, “Contracting Operations, U.S. Army
Contracting Command Southwest Asia-Kuwait,” September 29, 2009

Army Audit Agency Report No. A-2009-0235-ALL, “Commander’s Emergency
Response Program, Multi-National Division-South (FOUO),” September 28, 2009

Army Audit Agency Report No. A-2009-0233-ALA, “Army Acquisition Objective
Process,” September 25, 2009

Army Audit Agency Report No. A-2009-0221-ALA, “Effect of Mine Resistant Ambush
Protected Vehicle Upon Tactical Vehicle System Requirements, Office of the Deputy
Chief of Staff, G-3/6/7 (FOUO),” September 21, 2009

Army Audit Agency Report No. A-2009-0219-ALL, “Sensitive Items Accountability and
Control, Abu Ghraib Warehouse, Iraq (FOUO),” September 21, 2009

Army Audit Agency Report No. A-2009-0212-FFS, “Requirements for Mobilized
Soldiers,” September 17, 2009

Army Audit Agency Report No. A-2009-0188-FFM, “Assessing Army’s Future Base
Budget Requirements (FOUO),” September 1, 2009


                                          29
Army Audit Agency Report No. A-2009-0202-FFF, “Use of Role Players for Training-
Exclusive of Combat Training Centers,” August 28, 2009

Army Audit Agency Report No. A-2009-0196-ALO, “Assessing Future Base Budget
Requirements, Installation Program Evaluation Group (FOUO),” August 27, 2009

Army Audit Agency Report No. A-2009-0192-FFF, “Assessing Future Base Budget
Requirements, Training Program Evaluation Group (FOUO),” August 25, 2009

Army Audit Agency Report No. A-2009-0189-ALL, “Applying Agreed Upon Procedures
to Review Payment Vouchers 247029 and 288091 for the Purchase of Air-Condition
Units and Generators for Forward Operating Base Falcon in Iraq (FOUO),” August 21,
2009

Army Audit Agency Report No. A-2009-0182-ALL, “Commander’s Emergency
Response Program, Multi-National Force-West (FOUO),” August 18, 2009

Army Audit Agency Report No. A-2009-0181-ALR, “Property Accountability, 3rd
Infantry Division, Rear Detachment, Fort Stewart Georgia,” August 18, 2009

Army Audit Agency Report No. A-2009-0183-ALL, “Agreed Upon Procedures to
Determine if There Was a Potential for Theft of Property and Loss of Funds to the
Government Due to the Actions of a Government Property Administrator (FOUO),”
August 14, 2009

Army Audit Agency Report No. A-2009-0173-ALL, “Controls Over Vendor Payments-
Kuwait (Phase I -U.S. Army Contracting Command, Southwest Asia, Camp Arifjan,
Kuwait), July 29, 2009

Army Audit Agency Report No. A-2009-0169-ALL, “Commander’s Emergency
Response Program, Multi-National Division-North (FOUO),” July 28, 2009

Army Audit Agency Report No. A-2009-0159-ALM, “Assessing Future Base Budget
Requirements, Sustaining Program Evaluation Group (FOUO),” July 27, 2009

Army Audit Agency Report No. A-2009-0144-ZBI, “Army Foreign Language Program
Contracting (FOUO),” July 23, 2009

Army Audit Agency Report No. A-2009-0165-ALL, “Followup Audit of Management
Controls Over Offline Purchases,” July 16, 2009

Army Audit Agency Report No. A-2009-0156-ALM, “Field Level Maintenance
Operations, U.S. Army Sustainment Command and U.S. Army Garrison, Fort Hood,
Texas,” July 9, 2009

Army Audit Agency Report No. A-2009-0146-ALM, “Sustaining Left-Behind
Equipment, U.S. Army Sustainment Command,” June 22, 2009

Army Audit Agency Report No. A-2009-0120-FFD, “Improvised Explosive Device
Training for Explosive Ordnance Disposal Soldiers, Deputy Chief of Staff G-3/5/7 and
TRADOC (FOUO),” June 17, 2009

Army Audit Agency Report No. A-2009-0130-FFD, “Body Armor Requirements, Office
of the Deputy Chief of Staff, G-3/5/7,” June 8, 2009

                                          30
Army Audit Agency Report No. A-2009-0119-ALL, “Commander’s Emergency
Response Program – Multi-National Division - Baghdad Iraq (FOUO),” June 8, 2009

Army Audit Agency Report No. A-2009-0102-ALL, “Agreed Upon Procedures
Attestation-Accountability of Postal Receipts at the Joint Military Postal Facility, Camp
Patriot, Kuwait (FOUO),” May 21, 2009

Army Audit Agency Report No. A-2009-0106-ALL, “Agreed Upon Procedures to
Review and Compare Financial Records and Project Files for Five Commander’s
Emergency Response Program Projects Initiated in Combat Outpost Carver, Iraq
(FOUO),” May 12, 2009

Army Audit Agency Report No. A-2009-0082-ALM, “Field Level Reset Requirements -
Army National Guard,” March 31, 2009

Army Audit Agency Report No. A-2009-0080-ALL, “Retrograde Operations in
Southwest Asia, Multi-class Retrograde – Iraq, Camp Victory, Iraq (FOUO),” March 31,
2009

Army Audit Agency Report No. A-2009-0076-ALM, “Reset Fly Away Team--Interdepot
Transfer Request (FOUO),” March 31, 2009

Army Audit Agency Report No. A-2009-0066-ALR, “Property Book Unit Supply
Enhanced System - Property Accountability and Management, 10th Mountain Division,”
March 30, 2009

Army Audit Agency Report No. A-2009-0086-ALA, “Body Armor Testing, Program
Executive Office, Soldier,” March 30, 2009

Army Audit Agency Report No. A-2009-0085-ALL, “Retrograde Operations in
Southwest Asia, Class VII Theater Provided Equipment, Camp Victory, Iraq (FOUO),”
March 26, 2009

Army Audit Agency Report No. A-2009-0073-AlA, “Assessing Future Base Budget
Requirements, Equipping Program Evaluation Group (FOUO),” March 26, 2009

Army Audit Agency Report No. A-2009-0035-ALR, “Customer Billing Rates – Liner
Business Shipments, United States Transportation Command,” March 25, 2009

Army Audit Agency Report No. A-2009-0077-ALM, “Time-Sensitive Issue: M88A1
Recovery Vehicle FY09 Reset Maintenance Requirements (FOUO),” March 23, 2009

Army Audit Agency Report No. A-2009-0074-ALM, “Time-Sensitive Issue: Automatic
Reset Induction Transportation from Southwest Asia (FOUO),” March 23, 2009

Army Audit Agency Report No. A-2009-0071-ALM, “Time Sensitive Issue--Automatic
Reset induction Criteria (FOUO),” March 23, 2009

Army Audit Agency Report No. A-2009-0069-ALL, “Management of Shipping
Containers in Southwest Asia-- Kuwait, Iraq, Afghanistan, and CONUS, Summary
Report (FOUO),” March 19, 2009

Army Audit Agency Report No. A-2009-0062-FFM, “Assessing Future Base Budget
Requirements, Manning Program Evaluation Group (FOUO),” March 3, 2009

                                            31
Army Audit Agency Report No. A-2009-0049-FFS, “U.S. Army Reserve Pre-
Mobilization Training Requirements,” February 20, 2009

Army Audit Agency Report No. A-2009-0057-FFS, “Army National Guard Pre-
Mobilization Training Requirements,” February 19, 2009

Army Audit Agency Report No. A-2009-0070-ALL, “Applying Agreed Upon Procedures
to Review Invoices for Housing Maintenance Contracts, Camp Arifjan, Kuwait
(FOUO),” February 2, 2009

Army Audit Agency Report No. A-2009-0043-ALL, “Attestation to Determine the
Accuracy of Financial Records (FOUO),” February 2, 2009

Army Audit Agency Report No. A-2009-0042-ALM, “Contracts for Field Level Reset,
U.S. Army Sustainment Command,” January 27, 2009

Army Audit Agency Report No. A-2009-0033-ALL, “Management of Shipping
Containers in Southwest Asia - Afghanistan,” January 22, 2009

Army Audit Agency Report No. A-2009-0026-ALR, “Container Detention Billing for the
Global War on Terrorism, Military Surface Deployment and Distribution Command,”
January 15, 2009

Army Audit Agency Report No. A-2009-0023-ALM, “Time Sensitive Issue--Excess
Theater Provided Equipment Disposition Request Process (FOUO),” December 16, 2008

Army Audit Agency Report No. A-2008-0287-ALL, “Followup Audit of Asset Visibility
and Container Management-Operation Iraqi,” September 30, 2008

Army Audit Agency Report No. A-2008-0286-ALL, “Management of Shipping
Containers in Southwest Asia-Kuwait,” September 30, 2008

Army Audit Agency Report No. A-2008-0255-FFS, “Accountability of Contractors on
the Battlefield,” September 30, 2008

Army Audit Agency Report No. A-2008-0179-FFI, “Operational Purchases of
Information Technology Equipment, Purchases, and Services - Iraq and Kuwait,”
September 25, 2008

Army Audit Agency Report No. A-2008-0256-ALM, “Overseeing Contracts for Field-
Level Reset, U.S. Army Sustainment Command,” September 17, 2008

Army Audit Agency Report No. A-2008-0213-ALA, “Rapid Fielding Initiative, Program
Executive Office, Soldier, Fort Belvoir, Virginia,” September 5, 2008

Army Audit Agency Report No. A-2008-0234-FFF, “Use of Role-Players for Training at
Combat Training Centers,” September 2, 2008

Army Audit Agency Report No. A-2008-0190-ALM, “Reset Metrics—Sustainment
Maintenance,” July 22, 2008

Army Audit Agency Report No. A-2008-0182-FFS, Temporary Change of Station Orders
and Housing for Mobilized Soldiers,” July 15, 2008


                                         32
Army Audit Agency Report No. A-2008-0178-FFI, “Operational Purchases of IT
Equipment, Systems, and Services, FORSCOM,” July 1, 2008

Army Audit Agency Report No. A-2008-0145-ALL, “Management of Shipping
Containers in Southwest Asia, Continental United States,” June 25, 2008

Army Audit Agency Report No. A-2008-0172-ALM, “Time-Sensitive Issue—Automatic
Reset Induction Overstatement of Field Reset Requirements,” June 24, 2008

Army Audit Agency Report No. A-2008-0160-ALM, “Reset Metrics—Lessons
Learned,” June 17, 2008

Army Audit Agency Report No. A-2008-0109-FFM, “Accounting for Seized Assets and
Development Fund for Iraq Balances,” May 22, 2008

Army Audit Agency Report No. A-2008-0142-ALM, “Operational Loss Requirements,”
May 12, 2008

Army Audit Agency Report No. A-2008-0120-ALM, “Reset Metrics--Field Level Reset,”
April 30, 2008

Army Audit Agency Report No. A-2008-0098-ALL, “Management of Shipping
Containers in Southwest Asia - Iraq,” April 3, 2008

Army Audit Agency Report No. A-2008-0092-ALL, “Agreed-Upon Procedures
Attestation to Determine How Much the U.S. Army May Have Been Overcharged for
Services Obtained Under Two Blanket Purchase Agreements (Law Enforcement
Sensitive),” April 2, 2008

Army Audit Agency Report No. A-2008-0097-ALL, “Agreed-Upon Procedures
Attestation of the Methodology and Approach the Army Internal Task Force on
Contracting Used to Assess Contracts U.S. Army (FOUO),” March 31, 2008

Army Audit Agency Report No. A-2008-0091-ALL, “Internal Controls Over Contracted
Dining Facility Operations, Audit of Logistics Civil Augmentation Program Operations
in Support of Operation Iraqi Freedom,” March 31, 2008

Army Audit Agency Report No. A-2008-0090-ALL, “Audit of Supply Activities (H-
Sites), Audit of Logistics Civil Augmentation Program Operations in Support of
Operation Iraqi Freedom,” March 20, 2008

Army Audit Agency Report No. A-2008-0077-ALL, “Contract Administration Over
Contracted Dining Facility Operations, Audit of Logistics Civil Augmentation Program
Operations in Support of Operation Iraqi Freedom,” March 20, 2008

Army Audit Agency Report No. A-2008-0085-ALL, “Class III (Bulk and Retail) Fuel
Operations in the Iraq Area of Operation,” March 18, 2008

Army Audit Agency Report No. A-2008-0075-ALL, “Contractor-Acquired Property,
Audit of Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” March 12, 2008

Army Audit Agency Report No. A-2008-0041-ALL, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom,” January 30, 2008

                                          33
Army Audit Agency Report No. A-2008-0021-FFS, “Army Operational Plans for
Contractor Support on the Battlefield,” November 28, 2007

Army Audit Agency Report No. A-2008-0019-ALA, “Accelerated Commercial-Off-the-
Shelf Acquisitions, U.S. Army Materiel Command,” November 28, 2007

Army Audit Agency Report No. A-2008-0010-ALL, “Followup Audit of Internal
Controls Over Cargo Container Payments,” November 2, 2007

Army Audit Agency Report No. A-2008-0001-FFS, “Contractor Support at Mobilization
Stations, Fort McCoy, Wisconsin,” October 10, 2007

Army Audit Agency Report No. A-2007-0204-ALL, “Audit of Defense Base Act
Insurance for the Logistics Civil Augmentation Program, Audit of Logistics Civil
Augmentation Program Operations in Support of Operation Iraqi Freedom,”
September 28, 2007

Army Audit Agency Report No. A-2007-0215-FFS, “Contractor Support and
Mobilization Stations - Ft. Bragg, North Carolina,” September 18, 2007

Army Audit Agency Report No. A-2007-0210-FFS, “Contractor Support and
Mobilization Stations - Ft. Carson, Colorado,” September 10, 2007

Army Audit Agency Report No. A-2007-0191-FFM, “Agreed-Upon Procedures
Attestation of the Results of the 2007 National Defense Authorization Act Audit on
Wounded in Action Soldier Pay Accounts, Attestation Report,” August 15, 2007

Army Audit Agency Report No. A-2007-0184-FFM, “Civilian Pay in Support of
Operation Enduring Freedom and Operation Iraqi Freedom,” August 15, 2007

Army Audit Agency Report No. A-2007-0190-ALM, “Resource Requirements for Reset
(FOUO),” August 8, 2007

Army Audit Agency Report No. A-2007-0149-ALL, “Audit of the Army’s Theater
Linguist Program in Afghanistan, Operation Enduring Freedom,” July 23, 2007

Army Audit Agency Report No. A-2007-0152-ALR, Time-Sensitive Report, Audit of
Container Detention Billing for Global War on Terrorism, June 14, 2007

Army Audit Agency Report No. A-2007-0131-ALA, “Rapid Equipping Force Initiative,”
May 18, 2007

Army Audit Agency Report No. A-2007-0126-All, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom-Army Reserve Equipment,”
May 9, 2007

Army Audit Agency Report No. A-2007-0104-All, “Summary Audit Report on the Cost-
Effectiveness of Transitioning Work Under the Logistics Civil Augmentation Program
Contingency Contract to Sustainment Contracting, Audit of Logistics Civil Augmentation
Program Operations in Support of Operation Iraqi Freedom,” March 23, 2007

Army Audit Agency Report No. A-2007-0093-ALL, “Audit of the Cost-Effectiveness of
Transitioning Selected Functions Performed at the Theater Distribution Center (Task
Order 87) From Contingency to Sustainment Contracting, Audit of Logistics Civil

                                          34
Augmentation Program Operations in Support of Operation Iraqi Freedom,” March 9,
2007

Army Audit Agency Report No. A-2007-0088-ALE, “Reset of Aviation Assets; U.S.
Army Aviation and Missile Life Cycle Management Command (FOUO),” August 8,
2007

Army Audit Agency Report No. A-2007-0075-ALL, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom,” February 15, 2007

Army Audit Agency Report No. A-2007-0071-ALE, “Reconstitution of Secondary
Items,” February 12, 2007

Army Audit Agency Report No. A-2007-0061-ALL, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom-Army Reserve Equipment,”
January 30, 2007

Army Audit Agency Report No. A-2007-0053-ALE, “Reconstitution—Supply
Management Operations in U.S. Army, Europe and Seventh Army,” January 19, 2007

Army Audit Agency Report No. A-2007-0052-ALE, “Reconstitution—Direct Support
and Below Maintenance in U.S. Army, Europe and Seventh Army,” January 17, 2007

Army Audit Agency Report No. A-2007-0040-ALL, “Audit of Procedures for Managing
the Overaged Reparable Items List at the Tactical Wheeled Vehicle Refurbished Center,”
January 16, 2007

Army Audit Agency Report No. A-2007-0039-FFP, “Global War on Terrorism
Supplemental Funding,” December 21, 2006

Army Audit Agency Report No. A-2007-0019-ALL, “Distribution Functions, Audit of
Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” November 21, 2006

Army Audit Agency Report No. A-2007-0011-ALL, “Nontactical Vehicle Usage in the
Iraq Area of Operations, Audit of Logistics Civil Augmentation Program Operations in
Support of Operation Iraqi Freedom,” November 16, 2007

Army Audit Agency Report No. A-2007-0015-ALE, “Maintenance of Left Behind
Equipment in U.S. Army, Europe and Seventh Army,” October 31, 2006

Army Audit Agency Report No. A-2007-0005-FFP, “Audit of Logistics Support for
Operation Enduring Freedom-Philippines,” October 12, 2006

Army Audit Agency Report No. A-2006-0254-ALL, “Audit of Procedures for
Transferring Property During the Base Closure Process in Support of Operation Iraqi
Freedom,” September 29, 2006

Army Audit Agency Report No. A-2006-0237-ALE, “Funding Reset of Aviation Assets
in Europe,” September 29, 2006

Army Audit Agency Report No. A-2006-0253-ALL, “Cost-Effectiveness of
Transitioning the General Support Supply Activity (Task Order 87) From Contingency to


                                          35
Sustainment Contracting, Audit of Logistics Civil Augmentation Program Operations in
Support of Operation Iraqi Freedom,” September 28, 2006

Army Audit Agency Report No. A-2006-0246-ALL, “Cost-Effectiveness of
Transitioning Task Order 66-Kuwait Naval Base Camp Support From Contingency to
Sustainment contracting, Audit of Logistics Civil Augmentation Program Operations In
Support of Operation Iraqi Freedom-Phase II (Kuwait),” September 27, 2006

Army Audit Agency Report No. A-2006-0233-ALL, “Clothing Issue Facilities, Audit of
Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” September 22, 2006

Army Audit Agency Report No. A-2006-0188-ALL, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom,” August 11, 2006

Army Audit Agency Report No. A-2006-0168-ALL, “Report on the Subsistence Prime
Vendor Contract, Audit of Logistics Civil Augmentation Program Operations in Support
of Operation Iraqi Freedom,” August 4, 2006

Army Audit Agency Report No. A-2006-0158-ALL, “Report on Class IX (Aviation)
Warehouse Staffing, Camp Anaconda, Audit of Logistics Civil Augmentation Program
Operations in Support of Operation Iraqi Freedom,” July 11, 2006

Army Audit Agency Report No. A-2006-0136-ALL, “Management Controls Over
Offline Purchases,” June 13, 2006

Army Audit Agency Report No. A-2006-0077-ALE, “Reconstitution—General Support
Maintenance Within U.S. Army, Europe and Seventh Army,” June 2, 2006

Army Audit Agency Report No. A-2006-0099-ALL, “Audit of Program Management in
the Iraq Area of Operations, Audit of Logistics Civil Augmentation Program Operations
in Support of Operation Iraqi Freedom,” April 25, 2006

Army Audit Agency Report No. A-2006-0067-FFM, “Military Pay for Operation
Enduring Freedom/ Operation Iraqi Freedom–Active Component,” April 5, 2006

Army Audit Agency Report No. A-2006-0091-ALL, “Audit of Management of the
Theater Transportation Mission (Task Order 88), Audit of Logistics Civil Augmentation
Program Operations in Support of Operation Iraqi Freedom,” April 4, 2006

Army Audit Agency Report No. A-2006-0090-ALE, “Followup Audit II of the
Commanders’ Emergency Response Program and Quick Response Fund,” March 31,
2006

Army Audit Agency Report No. A-2006-0083-ALL, “Audit of Retrograde Operations
(Task Order 87), Audit of Logistics Civil Augmentation Program Operations in Support
of Operation Iraqi Freedom,” March 21, 2006

Army Audit Agency Report No. A-2006-0081-ALL, “Audit of Unliquidated Obligations,
Audit of Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” March 17, 2006

Army Audit Agency Report No. A-2006-0073-ALL, “Management of Force Provider
Modules: Logistics Civil Augmentation Program,” March 20, 2006

                                          36
Army Audit Agency Report No. A-2006-0046-ALA, “Fund Accountability for Fiscal
Year 2004 Iraq Relief and Reconstruction Funds: Project and Contracting Office,
Washington, DC,” January 31, 2006

Army Audit Agency Report No. A-2006-0047-ALL, “Base Closure Process in the Iraq
Area of Operations,” January 11, 2006

Army Audit Agency Report No. A-2006-0038-FFM, “Reserve Component Pay-OIF/OEF
(FOUO),” May 25, 2006

Army Audit Agency Report No. A-2006-0022-ALL, “Logistics Civil Augmentation
Program: U.S. Army Materiel Command,” November 28, 2005

Army Audit Agency Report No. A-2006-0018-ALL, “Logistics Civil Augmentation
Program Support Unit Training: Logistics Civil Augmentation Program Support Unit
Headquarters Fort Belvoir, Virginia,” November 17, 2005

Army Audit Agency Report No. A-2005-0332-ALE, “Followup Audit of the
Commanders’ Emergency Response Program and Quick Response Fund: Multi-National
Security Transition Command-Iraq,” September 30, 2005

Army Audit Agency Report No. A-2005-0264-FFP, “Audit of Military Pay in Support of
Operation Enduring Freedom/Operation Iraqi Freedom,” August 23, 2005

Army Audit Agency Report No. A-2005-0250-ALE, “Class IX Spare Parts—Operation
Iraqi Freedom,” August 15, 2005

Army Audit Agency Report No. A-2005-0197-ALE, “Asset Visibility and Container
Management—Operation Iraqi Freedom,” July 5, 2005

Army Audit Agency Report No. A-2005-0206-FFG, “Validation of the Statement of
Accountability, Attestation of Disbursing Station Symbol Number 8551: 336th Finance
Command, Camp Arifjan, Kuwait,” June 29, 2005

Army Audit Agency Report No. A-2005-0194-ALA, “Program Management in Support
of Iraq Reconstruction: Project and Contracting Office, Washington, DC,” May 26, 2005

Army Audit Agency Report No. A-2005-0177-ALS, “Internal Controls Over Cargo
Container Payments: Military Surface Deployment and Distribution Command,” May 12,
2005

Army Audit Agency Report No. A-2005-0173-ALE, “Commanders’ Emergency
Response Program and Quick Response Fund: Multi-National Security Transition
Command-Iraq,” May 2, 2005

Army Audit Agency Report No. A-2005-0172-ALE, “Functionality of Logistics
Automated Systems—Operation Iraqi Freedom,” April 27, 2005

Army Audit Agency Report No. A-2005-0168-ALE, “Theater Distribution Capabilities—
Operation Iraqi Freedom,” April 26, 2005

Army Audit Agency Report No. A-2005-0078-FFG, “Coalition Provisional Authority
Travel Process,” March 2, 2005


                                         37
Army Audit Agency Report No. A-2005-0095-FFG, “Vested and Seized Assets,
Operation Iraqi Freedom,” February 16, 2005

Army Audit Agency Report No. A-2005-0043-ALE, “Logistics Civil Augmentation
Program in Kuwait,” November 24, 2004

Army Audit Agency Report No. A-2005-0052-ALS, “Validation of Material Weakness
In-transit Visibility Policies and Standards,” November 23, 2004

Army Audit Agency Report No. A-2004-0463-FFC, “FY 03 Supplemental Funds and
Cash Flow,” August 27, 2004

Army Audit Agency Report No. A-2004-0438-AML, “Definitization of Task Orders -
Audit of Logistics Civil Augmentation Program,” August 12, 2004

Army Audit Agency Report No. A-2004-0426-IMU, “Audit of Base Camp Commercial
Communications,” July 28, 2004

Army Audit Agency Report No. A-2004-0305-FFG, “Time Sensitive Report, Audit of
Vested and Seized Assets, Operation Iraqi Freedom,” May 18, 2004

Army Audit Agency Report No. A-2004-0271-IMU, “Observations of Mine Clearing
Operations Made at Bagram Airfield, Afghanistan,” May 3, 2004

Army Audit Agency Report No. A-2004-0243-IMU, “Operation Enduring Freedom--
Base Camp Construction and Master Plan,” April 15, 2004

Army Audit Agency Report No. A-2004-0156-IMU, “Operation Enduring Freedom--
Logistics Civil Augmentation Program,” February 27, 2004

Army Audit Agency Report No. A-2004-0066-IMU, “Operation Enduring Freedom-
Management and Use of Shipping Containers,” December 9, 2003

Army Audit Agency Report No. A-2004-0053-IMU, “Operation Enduring Freedom-
Management of Class I Supplies,” December 5, 2003

Army Audit Agency Report No. A-2004-0033-IMU, “Management of Resources,”
October 23, 2003

Army Audit Agency Report No. A-2004-0013-IMU, “Audit of Operation Enduring
Freedom-Class IX Aviation Spare Parts,” October 7, 2003

Army Audit Agency Report No. A-2003-0400-IMU, “Audit of Operation Enduring
Freedom - Class IX Aviation Spare Parts,” August 19, 2003

Army Audit Agency Report No. A-2003-0371-IMU, “Audit of Operation Enduring
Freedom-Use of Automatic Identification Technology for In-Transit Visibility,” July 24,
2003

Army Audit Agency Report No. A-2003-0370-IMU, “Audit of Operation Enduring
Freedom - In-Transit Visibility,” July 24, 2003

Army Audit Agency Report No. A-2003-0324-FFF, “Mobilization and Pay Record
Discrepancies in the Reserve Component,” June 30, 2003

                                          38
Army Audit Agency Report No. A-2003-0294-IMU, “Operation Enduring Freedom-
Property Accountability,” June 2, 2003

Army Audit Agency Report No. A-2003-0110-IMU, “Logistics Civil Augmentation
Program, A-2003-0110-IMU,” December 31, 2002

Naval Audit Service
The Naval Audit Service issued 24 audit reports pertaining to Operations Iraqi Freedom
and Enduring Freedom. To obtain copies of Naval Audit Service reports, please contact
the Naval Audit Service FOIA Office at (202) 433-5757 or by e-mail to
navaudsvc.foia@navy.mil.

Naval Audit Service Report No. N2009-0052, “Allowance, Inventory, and Maintenance
Production of USMC Small Arms (FOUO),” September 30, 2009

Naval Audit Service Report No. N2009-0046, “Marine Corps Transition Assistance
Management Program (FOUO),” September 15, 2009

Naval Audit Service Report No. N2009-0041, “Department of the Navy Acquisition and
Disbursing Checks and Balances at Camp Lemonier, Djibouti, Africa (FOUO),” July 30,
2009

Naval Audit Service Report No. N2009-0032, “Marine Corps Use of the Deployed
Theater Accountability System,” June 4, 2009

Naval Audit Service Report No. N2009-0027, “Navy Marine Corps Intranet (NMCI)
Computer Turn-in and Disposal Process (FOUO),” April 28, 2009

Naval Audit Service Report No. N2009-0018, “Controls Over Medical Supplies and
Equipment (FOUO),” February 19, 2009

Naval Audit Service Report No. N2009-0012, “Protection of Navy Personnel and
Installations from Chemical, Biological, Radiological, Nuclear, or High-Yield Explosive
(CBRNE) Attack (FOUO),” November 26, 2008.

Naval Audit Service Report No. N2009-0009, “DoN Fisher Houses,” November 4, 2008

Naval Audit Service Report No. N2009-0007, “Notice of Ammunition Reclassification
(NAR) Program Utilization (FOUO),” October 30, 2008

Naval Audit Service Report No. N2009-0006, “SMC Critical Infrastructure Protection
(CIP) Program,” October 29, 2008

*Naval Audit Service Report No. N2009-0005, “Department of the Navy’s Inventory
Controls over Communications Security Equipments on Ships (Classified),” October 29,
2008

Naval Audit Service Report No. N2009-0004, “Navy Antiterrorism (AT) Program
Execution (FOUO),” October 22, 2008

Naval Audit Service Report No. N2009-0003, “Disbursing Checks and Balances at Naval
Support Activity, Bahrain and Dubai,” October 17, 2008


                                          39
Naval Audit Service Report No. N2008-0047, “Department of the Navy Small Arms In-
Transit Accountability (FOUO),” August 21, 2008

Naval Audit Service Report No. N2008-0045, “Validation of Defense Health Program
Global War on Terrorism Obligations for the Bureau of Medicine and Surgery (FOUO),”
August 27, 2008

Naval Audit Service Report No. N2008-0026, “Navy Individual Augmentee Physical
Requirements for the Global War on Terrorism,” March 5, 2008

Naval Audit Service Report No. N2008-0008, “Marine Corps Small Arms (FOUO),”
November 23, 2007

Naval Audit Service Report No. N2007-0060, “Marine Corps Urgent Universal Need
Statement Process,” September 28, 2007

Naval Audit Service Report No. N2007-0046, “Internal Controls Over Disbursing Office
Operations in Bahrain (FOUO),” July 23, 2007

Naval Audit Service Report No. N2007-0029, “The Navy’s Small Arms and Weapons
Programs (FOUO),” May 1, 2007

Naval Audit Service Report No. N2007-0027, “Marine Corps Tracking and Recording of
Individual Augmentation,” April 18, 2007

*Naval Audit Service Report No. N2006-0035, “Communications Security Equipment,”
July 17, 2006

Naval Audit Service Report No. N2006-019, “United States Marine Corps Demand on
Equipment,” March 23, 2006

Naval Audit Service Report No. N2005-0018, “Marine Corps Systems Command
Contracts Supporting Operation Iraqi Freedom,” December 22, 2004

Air Force Audit Agency
The Air Force Audit Agency issued 27 audit reports pertaining to Operations Iraqi
Freedom and Enduring Freedom. To obtain releasable copies of Air Force Audit Agency
reports, please fax your FOIA request to the Air Force Audit Agency FOIA Manager at
(703) 696-7776 or e-mail to afaafoia@pentagon.af.mil.
*Air Force Audit Agency Report No. F2009-0007-FD1000, “AFCENT AOR
Construction (Classified),” August 3, 2009.

Air Force Audit Agency Report No. F2009-0004-FD3000, “AFCENT Deployed Location
IT Equipment Accountability and Control,” April 1, 2009

Air Force Audit Agency Report No. F2009-0005-FD2000, “AFCENT Management of
Controlled Drugs,” April 1, 2009

Air Force Audit Agency Report No. F2009-0006-FD3000, “AFCENT Deployed
Locations Munitions Management (FOUO),” May 6, 2009



                                         40
Air Force Audit Agency Report No. F2009-0006-FC4000, “Pallets,” February 4, 2009

Air Force Audit Agency Report No. F2009-0003-FD3000, “AFCENT War Reserve
Materiel,” January 7, 2009

Air Force Audit Agency Report No. F2009-0001-FD1000, “AFCENT AOR Civil
Engineer Materials,” October 6, 2008

Air Force Audit Agency Report No. F2008-0008-FD3000, “United States Air Forces
Central Deployed Locations Aerial Port Operations,” July 18, 2008

Air Force Audit Agency Report No. F2008-0005-FD3000, “MQ-1 Predator Asset
Maintenance and Accountability,” April 1, 2008

Air Force Audit Agency Report No. F2008-0003-FD3000, “Pre-Positioned Mobility
Bags,” February 19, 2008

Air Force Audit Agency Report No. F2008-0001-FD3000, “Central Command Air Forces
Deployed Locations Cryptographic and Secured Communication Equipment,” November
1, 2007

Air Force Audit Agency Report No. F2008-0001-FD2000, “Patient Movement Items,”
October 12, 2007

Air Force Audit Agency Report No. F-2007-0008-FD3000, “Central Command Air
Forces Deployed Locations Government-Wide Purchase Card Program,” June 27, 2007

Air Force Audit Agency Report No. F-2007-0007-FD3000, “Theater Battle Management
Core System-Unit Level,” June 8, 2007

Air Force Audit Agency Report No. F-2007-0006-FD4000, “Civilian Deployments,”
March 15, 2007

Air Force Audit Agency Report No. F-2007-0006-FD3000, “Central Command Air
Forces Deployed Locations Ground Fuels Management,” April 27, 2007

Air Force Audit Agency Report No. F-2007-0005-FD3000, “Central Command Air
Forces Deployed Locations Services Contract Management,” April 20, 2007

Air Force Audit Agency Report No. F-2007-0004-FC4000, “Deployed Assets,”
January 26, 2007

Air Force Audit Agency Report No. F-2006-0007-FD3000, “Central Command Air
Forces Deployed Locations Blanket Purchase Agreements,” August 21, 2006

Air Force Audit Agency Report No. F-2006-0006-FD3000, “Central Command Air
Forces Deployed Locations Cash Management,” August 3, 2006

Air Force Audit Agency Report No. F-2005-0058-FDE000, “Equipment Accountability
380th Air Expeditionary Wing Al Dhafra AB, United Arab Emirates,” June 8, 2005”

Air Force Audit Agency Report No. F-2005-0053-FDE000, “Blanket Purchase
Agreements 380th Air Expeditionary Wing Al Dhafra AB,” United Arab Emirates,
June 1, 2005

                                        41
Air Force Audit Agency Report No. F-2005-0043-FDE000, “Equipment Accountability
379th Air Expeditionary Wing Al Udeid AB, Qatar,” April 1, 2005

Air Force Audit Agency Report No. F-2005-0035-FDE000, “Blanket Purchase
Agreements 1st Expeditionary Red Horse Group Al Udeid AB, Qatar,” March 14, 2005

Air Force Audit Agency Report No. F-2005-0011-FB1000, “Global War on Terrorism
Funds Management,” June 20, 2005

Air Force Audit Agency Report No. F-2004-0060-FDE000, “Small Arms 379th Air
Expeditionary Wing Al Udeid AB, Qatar,” July 1, 2004

Air Force Audit Agency Report No. F-2004-0057-FDE000, “Blanket Purchase
Agreement 379th Air Expeditionary Wing Al Udeid AB, Qatar,” June 22, 2004

DoD Office of Inspector General
The DoD OIG issued 126 reports or testimonies pertaining to Operations Iraqi Freedom
and Enduring Freedom. To obtain electronic copies of DoD OIG reports and testimonies,
please visit http://www.DoDig.mil/Audit/reports/index.html.

DoD OIG Report No. D-2009-113, “Medical Equipment Used to Support Operations in
Southwest Asia, (Project No. D2008-D000LF-0093.000),” September 30, 2009

DoD OIG Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition
Plans to Train, Equip, and Field the Afghan National Security Forces (D2009-D00SPO-
0113.000),” September 30, 2009

DoD OIG Report No. D-2009-115, “Summary of Information Operations Contracts in
Iraq, (Project No. D2009-D000JA-0108.001),” September 29, 2009

DoD OIG Report No. D-2009-117, “Controls Over Air Combat Command and Pacific
Air Forces Unliquidated Obligations from Department of the Air Force Contracts
Supporting Contingency Operations, (Project No. D2009-D000FC-0121.000),”
September 29, 2009

DoD OIG Report No. D-2009-118, “Internal Controls Over Naval Special Warfare
Command Comptroller Operations in Support of Contingency Operations (Project No.
D2009-D000FN-0075.000),” September 29, 2009

DoD OIG Report No. D-2009-109, “Contracts Supporting the DoD Counter
Narcoterrorism Technology Program Office, (Project No. D2008-D000AS-0255.000),”
September 25, 2009

DoD OIG Report No. D-2009-112, “Deferred Maintenance on the Air Force C-130
Aircraft, (Project No. D2008-D000FH-0225.000),” September 25, 2009

DoD OIG Report No. D-2009-114, “Transition Planning for the Logistics Civil
Augmentation Program IV Contract, (Project No. D2008-D000AS-0270.000),”
September 25, 2009

*DoD OIG Report No. 09-INTEL-13, “Investigation of Possible Use of Mind Altering
Substances by DoD Personnel during Interrogations of Detainees and/or Prisoners


                                         42
Captured during the War on Terror (D2007-DIN T01-0092.005)” [CLASSIFIED],
September 23, 2009

DoD OIG Report No. D-2009-108, “U.S. Air Forces Central War Reserve Materiel
Contract, (Project No. D2008-D000CK-0161.000),” September 23, 2009

DoD OIG Report No. D-2009-100, “Afghanistan Security Forces Fund Phase III -
Accountability for Equipment Purchased for the Afghanistan National Police, (Project
No. D2007-D000LQ-0161.006),” September 22, 2009

DoD OIG Report No. D-2009-102, “Price Reasonableness Determinations for Contracts
Awarded by the U.S. Special Operations Command, (Project No. D2008-D000CG-
0123.000),” September 18, 2009

DoD OIG Report No. IE-2009-007, “Interagency Evaluation of the Section 1206 Global
Train and Equip Program (D2008-DIPOE3-0008.000),” August 31, 2009

DoD OIG Report No. D-2009-099, “Afghanistan Security Forces Fund Phase III -
Accountability for Equipment Purchased for the Afghanistan National Army, (Project
No. D2007-D000LQ-0161.002,” August 12, 2009

DoD OIG Report No. D-2009-091, “Information Operations Contracts in Iraq, (Project
No. D2009-D000JA-0108.000),” July 31, 2009

DoD OIG Report No. D-2009-098, “Status of the Defense Emergency Response Fund in
Support of the Global War on Terror, (Project No. D2008-D000FE-0106.000),” July 30,
2009

DoD OIG Report No. D-2009-095, “Contracting for Transportation Services for U.S.
Army Corps of Engineers, Gulf Region Division, (Project No. D2008-D000LH-
0235.002),” July 29, 2009

DoD OIG Report No. D-2009-096, “Contracts for the U.S. Army’s Heavy-Lift VI
Program in Kuwait, (Project No. D2008-D000LH-0250.000),” July 28, 2009

DoD OIG Report No. SPO-2009-006, “Assessment of the Accountability and Control of
Arms, Ammunition, and Explosives (AA&E) Provided to the Security Forces of
Afghanistan,” July 24, 2009

DoD OIG Report No. IPO2009E001, “Review of Electrocution Deaths in Iraq: Part II -
Seventeen Incidents Apart from Staff Sergeant Ryan D. Maseth, U.S. Army,” July 24,
2009

DoD OIG Report No. IE-2009-006, “Review of Electrocution Deaths in Iraq: Part I -
Staff Sergeant Ryan D. Maseth, U.S. Army,” July 24, 2009

DoD OIG Report No. SPO-2009-005, “Assessment of Electrical Safety in Afghanistan,”
July 24, 2009

DoD OIG Report No. D-2009-093, “Ship Utilization in Support of the Global War on
Terror, (Project No. D2008-D000AB-0193.000),” July 15, 2009

DoD OIG Report No. D-2009-085, “Contracting for Nontactical Vehicles in Support of
Operation Enduring Freedom, (Project No. D2008-D000LH-0235.001),” June 8, 2009

                                          43
DoD OIG Report No. D-2009-083, “Logistics Support Contracting for the United States
Special Operations Command, (Project No. D2008-D000AS-0248.000),” May 28, 2009

DoD OIG Report No. D-2009-075, “Afghanistan Security Forces Fund Phase III-
Accountability for Weapons Distributed to the Afghanistan National Army, (Project No.
D2007-D000LQ-0161.005),” May 21, 2009

*DoD OIG Report No. SPO-2009-004, “Assessment of DoD Managed Programs in
Support of the Government of Pakistan (D2008-D000IG-0184.000) [CLASSIFIED], May
20, 2009

DoD OIG Report No. D-2009-079, “Controls Over the Department of the Navy Military
Payroll Disbursed in Support of the Global War on Terror, (Project No. D2008-D000FC-
0189.000),” May 7, 2009

DoD OIG Report No. D-2009-078, “Health Care Provided by Military Treatment
Facilities to Contractors in Southwest Asia, (Project No. D2008-D000LF-0241.000),”
May 4, 2009

DoD OIG Report No. D-2009-076, “Afghanistan Security Forces Fund Phase III-U.S..
Army Corps of Engineers Real Property Accountability, (Project No. D2007-D000LQ-
0161.004),” April 14, 2009

DoD OIG Report No. D-2009-6-004, “Defense Contract Management Actions on Audits
of Cost Accounting Standards and Internal Control Systems at DoD Contractors Involved
in Iraq Reconstruction Activities,” April 8, 2009

DoD OIG Report No. D-2009-073, “DoD Components’ Use of Global War on Terror
Supplemental Funding Provided for Procurement and Research, Development, Test, and
Evaluation, (Project No. D2006-D000AE-0241.001),” April 8, 2009

DoD OIG Report No. D-2009-067, “Controls Over Air Force Materiel Command
Unliquidated Obligations on Department of the Air Force Contracts Supporting the
Global War on Terror, (Project No. D2008-D000FC-0208.000),” April 3, 2009

DoD OIG Report No. D-2009-066, “Marine Corps’ Management of the Recovery and
Reset Programs, (Project No. D2007-D000LD-0129.000),” April 1, 2009

DoD OIG Report No. D-2009-063, “Funds Appropriated for Afghanistan and Iraq
Processed Through the Foreign Military Sales Trust Fund, (Project No. D2007-D000FD-
0198.000),” March 24, 2009

DoD OIG Report No. SPO-2009-003, “Assessment of the Accountability of Night Vision
Devices Provided to the Security Forces of Iraq,” March 17, 2009

DoD OIG Report No. D-2009-061, “Controls Over Reporting Transportation Costs in
Support of the Global War on Terror, (Project No. D2008-D000FI-0083.000),” March 12,
2009

DoD OIG Report No. D-2009-058, “DoD Cost of War Reporting of Supplemental Funds
Provided for Procurement and Research, Development, Test, and Evaluation, (Project
No. D2006-D000AE-0241.001),” February 27, 2009



                                          44
DoD OIG Report No. D-2009-054, “Identification of Classified Information in
Unclassified DoD Systems During the Audit of Internal Controls and Data Reliability in
the Deployable Disbursing System, (Project No. D2007-D000FL-0252.000),” February
17, 2009

*DoD OIG Report No. 09-INTEL-03, “Review of Intelligence Resources at the Joint
Intelligence Task Force - Combating Terrorism and Special Operations Command in
Support of Operation Enduring Freedom and Operation Iraqi Freedom” [CLASSIFIED],
February 13, 2009

DoD OIG Report No. D-2009-050, “Distribution of Funds and the Validity of
Obligations for the Management of the Afghanistan Security Forces Fund Phase II,
(Project No. D2007-D000LQ-0161.001),” February 5, 2009

DoD OIG Report No. D-2009-046, “Procurement and Delivery of Joint Service Armor
Protected Vehicles, (Project No. D2007-D000CK-0230.000),” January 29, 2009

DoD OIG Report No. D-2009-047, “DoD Testing Requirements for Body Armor,
(Project No. D2008-D000JA-0263.000),” January 29, 2009

DoD OIG Report No. D-2009-042, “Hiring Practices Used To Staff the Iraqi Provisional
Authorities, (Project No. D2007-D000LC-0051.000),” January 16, 2009

DoD OIG Report No. D-2009-041, “Expeditionary Fire Support System and Internally
Transportable Vehicle Programs, (Project No. D2008-D000AB-0091.000) Errata Memo
(329KB),” January 14, 2009

DoD OIG Report No. D-2009-031, “Afghanistan Security Forces Fund Phase III-Air
Force Real Property Accountability, (Project No. D2007-D000LQ-0161.003),” December
29, 2008

DoD OIG Report No. SPO-2009-002, “Assessment of Arms, Ammunition, and
Explosives Accountability and Control; Security Assistance; and Logistics Sustainment
for the Iraq Security Forces,” December 19, 2008

DoD OIG Report No. D-2009-033, “Controls Over Billing Customers and Collecting
Revenue for Work Performed at Corpus Christi Army Depot, (Project No. D2007-
D000FI-0164.000),” December 16, 2008

DoD OIG Report No. D-2009-027, “Combat Search and Rescue Helicopter, (Project No.
D2008-D000AB-0133.000),” (FOUO) December 8, 2008

DoD OIG Report No. D-2009-030, “Marine Corps Implementation of the Urgent
Universal Needs Process for Mine Resistant Ambush Protected Vehicles, (Project No.
D2008-D000AE-0174.000),” December 8, 2008

DoD OIG Report No. D-2009-007, “Procurement and Use of Nontactical Vehicles at
Bagram Air Field, Afghanistan, (Project No. D2008-D000LQ-0063.000),” October 31,
2008

DoD OIG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and
Explosives Control and Accountability; Security Assistance; and Sustainment for the
Afghan National Security Forces,” October 24, 2008


                                          45
DoD OIG Report No. D-2009-006, “Small Arms Ammunition Fund Management in
Support of the Global War on Terror, (Project No. D2008-D000FJ-0014.000),” October
20, 2008

DoD OIG Report No. D-2009-005, “Controls Over the Contractor Common Access Card
Life Cycle, (Project No. D2007-D000LA-0199.001),” October 10, 2008

DoD OIG Report No. D-2009-003, “Internal Controls Over Army General Fund, Cash
and Other Monetary Assets Held Outside of the Continental United States, (Project No.
D2007-D000FP-0122.000),” October 9, 2008

DoD OIG Report No. D-2008-119, “Contingency Construction Contracting Procedures
Implemented by the Joint Contracting Command-Iraq/Afghanistan,” September 29, 2008

DoD OIG Report No. D-2008-135, “Contracts for Supplies Requiring Use of Radio
Frequency Identification,” September 29, 2008

DoD OIG Report No. D-2008-132, “Ocean Freight Transportation Payments Using
PowerTrack®” (FOUO) September 26, 2008

*DoD OIG Report No. 08-INTEL-14, “Evaluation of Department of Defense
Intelligence, Surveillance, and Reconnaissance Activities in Support of U.S. Pacific
Command for the Conduct of Operation Enduring Freedom – Philippines”
[CLASSIFIED], September 25, 2008

DoD OIG Report No. D-2008-133, “Equipment Status of Forces Deployed in Support of
Operation Iraqi Freedom,” September 20, 2008

DoD OIG Report No. D-2008-131, “Security Over Radio Frequency Identification,”
(FOUO) September 18, 2008

DoD OIG Report No. D-2008-123, “Internal Controls over Navy, General Fund, Cash
and Other Monetary Assets Held Outside the Continental United States (D2007-D000FN-
0142.000),” August 26, 2008

DoD OIG Report No. D-2008-115, “Status of Training Vehicles for U.S. Ground Forces
Deploying in Support of Operation Iraqi Freedom,” August 6, 2008

DoD OIG Report No. IE-2008-010, “Information Report on Assessment of Department
of Defense Support to the Iraqi Security Forces Inspectors General,” July 31, 2008

DoD OIG Report No. D-2008-107, “Defense Hotline Allegations Concerning Contracts
Issued by U.S. Army TACOM Life Cycle Management Command to BAE Systems Land
and Armaments, Ground Systems Division,” July 3, 2008

DoD OIG Report No. SPO-2008-001, “Assessment of the Accountability of Arms and
Ammunition Provided to the Security Forces of Iraq (Redacted Version of Classified
Report),” July 3, 2008

DoD OIG Report No. IE-2008-005, “DoD/VA Care Transition Process for Service
Members Injured in OIF/OEF,” June 12, 2008

DoD OIG Report No. IPO-2008-E001, “Review of Matters Related to the August 28,
2005, Shooting of Reuters Journalists,” June 4, 2008

                                           46
DoD OIG Report No. D-2008-098, “Internal Controls Over Payments Made in Iraq,
Kuwait and Egypt,” May 22, 2008

DoD OIG Report No. D-2008-089, “Planning Armor Requirements for the Family of
Medium Tactical Vehicles,” May 9, 2008

DoD OIG Report No. D-2008-078, “Training Requirements for U.S. Ground Forces
Deploying in Support of Operation Iraqi Freedom,” April 9, 2008

DoD OIG Report No. D-2008-067, “Procurement, Distribution, and Use of Body Armor
in DoD,” March 31, 2008

DoD OIG Report No. D-2008-064, “Defense Hotline Allegations Concerning the
Biometric Identification System for Access Omnibus Contract,” March 18, 2008

*DoD OIG Report No. D-2008-056, “Contractor Support To The Joint Improvised
Explosive Device Defeat Organization In Afghanistan” [CLASSIFIED], March 11, 2008

DoD OIG Report No. D-2008-060, “Potable and Nonpotable Water in Iraq,” March 7,
2008

DoD OIG Report No. D-2008-059, “Supplemental Funds Used for Medical Support for
the Global War on Terror,” March 6, 2008

DoD OIG Report No. D-2008-039, “DoD Support to the NATO International Security
Assistance Force,” February 5, 2008

DoD OIG Report No. D-2008-024, “Inspection Process of the Army Reset Program for
Equipment for Units Returning from Operation Iraqi Freedom,” January 18, 2008

DoD OIG Report No. IE-2008-001, “Review of the Investigative Documentation
Associated with the Death of Army Corporal Stephen W. Castner in Iraq (D-2008-2001-
DIP0E1),” January 4, 2008

DoD OIG Report No. D-2008-033, “DoD Training for U.S. Ground Forces Supporting
Operation Iraqi Freedom,” December 28, 2007

DoD OIG Report No. D-2008-038, “Conditional Acceptance and Production of Army
Medium Tactical Vehicles in Support of the Global War on Terror,” December 21, 2007

DoD OIG Report No. D-2008-029, “Request for and Use of Emergency Supplemental
Funds for the Rapid Fielding Initiative,” December 5, 2007

DoD OIG Report No. D-2008-026, “Management of the Iraq Security Forces Fund -
Phase III,” November 30, 2007

DoD OIG Report No. D-2008-027, “DoD Use of Global War on Terror Supplemental
Funding Provided for Procurement and Research, Development, Test, and Evaluation,”
November 21, 2007

DoD OIG Report No. D-2008-012, “Distribution of Funds and the Validity of
Obligations for the Management of the Afghanistan Security Forces Fund,” November 5,
2007


                                         47
*DoD OIG Report No. IPO-2007-E002, “Unclassified Executive Summary from
(Classified) “Evaluation of the Army Investigation of Chaplain (CPT) James J. Yee”
[CLASSIFIED], September 19, 2007

DoD OIG Report No. IE-2007-005, “Interagency Assessment of the Counternarcotics
Program in Afghanistan,” July 7, 2007

DoD OIG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,”
June 27, 2007

DoD OIG Report No. D-2007-105, “United States Transportation Command Compliance
with DoD Policy on the Use of Commercial Sealift,” June 21, 2007

DoD OIG Report No. D-2007-090, “Managing Prepositioned Munitions in the U.S.
European Command,” May 3, 2007

DoD OIG Report No. IPO-2007-E001, “Evaluation of the Army Investigations onto the
Death on Corporal Patrick Daniel Tillman,” (FOUO) March 26, 2007

*DoD OIG Report No. 07-INTEL-06, “Unclassified Executive Summary from
(Classified) Report No. 07-INTEL-06 DoD Involvement with The Rendon Group”
[CLASSIFIED], March 6, 2007

DoD OIG Report No. D-2007-064, “Implementation of the Commanders’ Emergency
Response Program in Afghanistan,” February 28, 2007

DoD OIG Report No. D-2007-060, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase II,” February 12, 2007

*DoD OIG Report No. 07-INTEL-04, “Office of Special Plans - Review of the Pre-Iraqi
War Activities of the Office of the Under Secretary of Defense for Policy”
[CLASSIFIED], February 9, 2007

*DoD OIG Report No. D-2007-049, “Equipment Status of Deployed Forces Within the
U.S. Central Command” January 25, 2007

DoD OIG Report No. D-2007-030, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase I,” December 8, 2006

DoD OIG Report No. D-2007-010, “The Army Small Arms Program that Relates to
Availability, Maintainability, and Reliability of the Small Arms Support for the
Warfighter,” November 2, 2006

*DoD OIG Report No. D-2007-001, “Information Operations Activities in Southwest
Asia” [CLASSIFIED], October 6, 2006

*DoD OIG Report No. 06-INTEL-12, “Review of Testimony to the National
Commission on Terrorist Attacks Upon the United States” [CLASSIFIED], September
12, 2006

DoD OIG Report No. IPO-2004C005, “Review of Criminal Investigations of Alleged
Detainee Abuse,” August 25, 2006



                                          48
*DoD OIG Report No. 06-INTEL-10, “Review of DoD-Directed Investigations of
Detainee Abuse” [CLASSIFIED], August 25, 2006

DoD OIG Report No. IPO-2006-C014, “Review of Death Notification Procedures and
Investigations concerning the Death of Army 1LT Kenneth Ballard,” July 14, 2006

*DoD OIG Report No. 06-INTEL-06, “Review of the U.S. government’s Relationship
with the Iraqi National Congress – Phase One” [CLASSIFIED], June 12, 2006

DoD OIG Report No. IE-2006-002, “Evaluation of Defense Installation Vulnerability
Assessments,” May 23, 2006

DoD OIG Report No. IPO-2006-C004, “Review of USACIDC Criminal Investigation
Involving the Death of Specialist (SPC) Thomas Sweet II, United States Army,” April 5,
2006

DoD OIG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
October 28, 2005

DoD OIG Report No. D-2006-007, “Contracts Awarded to Assist the Global War on
Terrorism by the U.S. Army Corps of Engineers,” October 14, 2005

DoD OIG Report No. IE-2005-003, “Evaluation of Support to Mobilized Army National
Guard and U.S. Army Reserve Units (Report No. D-2005-2003-DIP0E1),” August 5,
2005

DoD OIG Report No. D-2005-095, “DoD Patient Movement System,” July 27, 2005

DoD OIG Report No. IE-2005-002, “Interagency DoD-DoS IG Assessment of Iraqi
Police Training,” July 25, 2005

DoD OIG Report No. IPO-2004C004, “Review of USACIDC Criminal Investigation
Involving the Death of a Noncombatant Afghan by Army Special Forces Personnel,”
(FOUO) July 21, 2005

DoD OIG Report No. IPO-2005-C002, “Review of USACIDC Criminal Investigation
Involving the Death of Specialist (SPC) Juan M. Torres, United States Army,” (FOUO)
July 9, 2005

DoD OIG Report No. IE-2005-A004, “Combined Forces Command-Afghanistan
Management Decision Model,” July 5, 2005

*DoD OIG Report No. 05-INTEL-13 “Forensic Capabilities and Incident Reporting
Related to Air Defense Actions” [CLASSIFIED], May 27, 2005

DoD OIG Report No. D-2005-045, “Emergency Supplemental Funding for the Defense
Logistics Agency” (FOUO), May 9, 2005

DoD OIG Report No. D-2005-053, “FY 2004 Emergency Supplemental Funding for the
Defense Information Systems Agency” (FOUO), April 29, 2005

DoD OIG Report No. IPO-2004C010 “Review of Army Inspector General Investigation
into the Death of Army 1st Sgt Christopher Coffin,” February 14, 2005


                                          49
DoD OIG Report No. D-2005-024, “DoD Management of Navy Senior Enlisted
Personnel Assignments in Support of Operation Iraqi Freedom,” December 15, 2004

*DoD OIG Report No. D-2004-090, “Defense Hotline Allegations Concerning C-130
Aircraft Use in the U.S. Central Command Area of Responsibility” [CLASSIFIED],
June 17, 2004

DoD OIG Report No. D-2004-086, “Management of Marine Corps Enlisted Personnel
Assignments in Support of Operation Iraqi Freedom,” June 16, 2004

DoD OIG Report No. D-2004-057, “Contracts Awarded for the Coalition Provisional
Authority by the Defense Contracting Command - Washington,” March 18, 2004

*DoD OIG Report No. D-2004-045, “Coalition Support Funds” [CLASSIFIED],
January 16, 2004

DoD OIG Report No. D-2003-070, “DoD Involvement in Export Enforcement Activities”
(FOUO), March 28, 2003

*DoD OIG Report No. D-2003-028, “Summary Report on Homeland Defense,
Chemical/Biological Defense, and Other Matters Related to Counter-Terrorist Military
Operations” [CLASSIFIED], November 25, 2002

Government Accountability Office
GAO issued 117 reports mainly pertaining to Operations Iraqi Freedom and Enduring
Freedom. GAO also issued reports with recommendations to non-DOD activities. We
included all products related to SWA issued by GAO in this report. To obtain electronic
copies of GAO reports, please visit http://www.gao.gov/docsearch/featured/oif.html. To
request hardcopies of GAO reports, please visit http://www.gao.gov/ordering.htm, or call
202-512-6000 or fax to 202-512-6061.

*GAO Report No. GAO-09-939C, “Securing and Stabilizing Iraq: U.S. Drawdown Plans
Should Include Contingency Plans for Use If Key Assumptions about Security and Iraqi
Capabilities Prove Wrong.”

GAO Report No. GAO-09-1022R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” September 25, 2009

GAO Report No. GAO-09-874, “Department of State: Additional Steps Needed to
Address Continuing Staffing and Experience Gaps at Hardship Posts,” September 17,
2009

GAO Report No. GAO-09-351, “Contingency Contract Management: DoD Needs to
Develop and Finalize Background Screening and Other Standards for Private Security
Contractors,” July 31, 2009

GAO Report No. GAO-09-791R, “Overseas Contingency Operations: Reported
Obligations for the Department of Defense,” July 10, 2009

GAO Report No. GAO-09-562, “Human Capital: Actions Needed to Better Track and
Provide Timely and Accurate Compensation and Medical Benefits to Deployed Federal
Civilians,” June 26, 2009


                                           50
GAO Report No. GAO-09-526, “Rebuilding Iraq: Improved Management Controls and
Iraqi Commitment Needed for Key State and USAID Capacity-Building Programs,” June
3, 2009

GAO Report No. GAO-09-615, “Commander’s Emergency Response Program in
Afghanistan,” May 18, 2009

GAO Report No. GAO-09-482, “Defense Acquisitions: Assessments Needed to Address
V-22 Aircraft Operational and Cost Concerns to Define Future Investments,” May 11,
2009

GAO Report No. GAO-09-473SP, “Afghanistan: Key Issues for Congressional
Oversight,” April 21, 2009

GAO Report No. GAO-09-120, “Iraqi Refugee Assistance: Improvements Needed in
Measuring Progress, Assessing Needs, Tracking Funds, and Developing an International
Strategic Plan,” April 21, 2009

GAO Report No. GAO-09-449R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” March 30, 2009

GAO Report No. GAO-09-294SP, “Iraq: Key Issues for Congressional Oversight,”
March 24, 2009

GAO Report No. GAO-09-626SP, “Afghanistan: U.S.-and Internationally-Funded Roads,
an E-supplement to GAO-09-473SP,” March 21, 2009

GAO Report No. GAO-09-63, “Drug Control: Better Coordination with the Department
of Homeland Security and an Updated Accountability Framework can Further Enhance
DEA’s Efforts to Meet Post-9/11 Responsibilities,” March 20, 2009

GAO Report No. GAO-09-302, “Global War on Terrorism: DoD Needs to More
Accurately Capture and Report the Costs of Operation Iraqi Freedom and Operation
Enduring Freedom,” March 17, 2009

GAO Report No. GAO-09-280, “Afghanistan Security: U.S. Programs to Further Reform
Ministry of Interior and National Police Challenged by Lack of Military Personnel and
Afghan Cooperation,” March 9, 2009

GAO Report No. GAO-09-263SP, “Securing, Stabilizing, and Developing Pakistan’s
Border Area with Afghanistan: Key Issues for Congressional Oversight,” February 23,
2009

GAO Report No. GAO-09-300, “Defense Management: DoD Needs to Increase Attention
on Fuel Demand Management at Forward-Deployed Locations,” February 20, 2009

GAO Report No. GAO-09-267, “Afghanistan Security: Lack of Systematic Tracking
Raises Significant Accountability Concerns about Weapons Provided to Afghan National
Security Forces,” January 30, 2009

GAO Report No. GAO-09-114R, “Contract Management: DoD Developed Draft
Guidance for Operational Contract Support but Has Not Met All Legislative
Requirements,” November 20, 2008


                                         51
GAO Report No. GAO-09-175, “Unmanned Aircraft Systems: Additional Actions
Needed to Improve Management and Integration of DoD Efforts to Support Warfighter
Needs,” November 14, 2008

GAO Report No. GAO-09-86R, “Provincial Reconstruction Teams in Afghanistan and
Iraq,” October 1, 2008

GAO Report No. GAO-09-19, “Contingency Contracting: DoD, State, and USAID
Contracts and Contractor Personnel in Iraq and Afghanistan,” October 1, 2008

GAO Report No. GAO-08-1128R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” September 15, 2008

GAO Report No. GAO-08-930, “Operation Iraqi Freedom: Actions Needed to Enhance
DoD Planning for Reposturing of U.S. Forces from Iraq,” September 10, 2008

GAO Report No. GAO-08-924, “Military Personnel: DoD’s and the Coast Guard’s
Sexual Assault Prevention and Response Programs Face Implementation and Oversight
Challenges,” August 29, 2008

GAO Report No. GAO-08-1031, “Stabilizing and Rebuilding Iraq: Iraqi Revenues,
Expenditures, and Surplus,” August 5, 2008

GAO Report No. GAO-08-966, “Rebuilding Iraq: DoD and State Department Have
Improved Oversight and Coordination of Private Security Contractors in Iraq, but Further
Actions Are Needed to Sustain Improvements,” July 31, 2008

GAO Report No. GAO-08-884R, “Rapid Acquisition of Mine Resistant Ambush
Protected Vehicles,” July 15, 2008

GAO Report No. GAO-08-689, “Afghanistan Reconstruction: Progress Made in
Constructing Roads, but Assessments for Determining Impact and a Sustainable
Maintenance Program Are Needed,” July 8, 2008

GAO Report No. GAO-08-806, “Combating Terrorism: Increased Oversight and
Accountability Needed over Pakistan Reimbursement Claims for Coalition Support
Funds,” June 24, 2008

GAO Report No. GAO-08-837, “Securing, Stabilizing, and Rebuilding Iraq: Progress
Report: Some Gains Made, Updated Strategy Needed,” June 23, 2008

GAO Report No. GAO-08-736R, “Military Operations: Actions Needed to Better Guide
Project Selection for Commander’s Emergency Response Program and Improve
Oversight in Iraq,” June 23, 2008

GAO Report No. GAO-08-661, “Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 18, 2008

GAO Report No. GAO-08-853R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” June 13, 2008




                                          52
GAO Report No. GAO-08-546, “Military Personnel: Army Needs to Better Enforce
Requirements and Improve Record Keeping for Soldiers Whose Medical Conditions May
Call for Significant Duty Limitations,” June 10, 2008

GAO Report No. GAO-08-670, “Military Readiness: Joint Policy Needed to Better
Manage the Training and Use of Certain Forces to Meet Operational Demands,” May 30,
2008

GAO Report No. GAO-08-735R, “Preliminary Observations on the Use and Oversight of
U.S. Coalition Support Funds Provided to Pakistan,” May 6, 2008

GAO Report No. GAO-08-622, “Combating Terrorism: U.S. Lacks Comprehensive Plan
to Destroy Terrorist Threat and Close Safe Haven in Pakistan’s Federally Administered
Tribal Areas,” April 17, 2008

GAO Report No. GAO-08-557R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” March 17, 2008

GAO Report No. GAO-08-342, “Defense Management: More Transparency Needed over
the Financial and Human Capital Operations of the Joint Improvised Explosive Device
Defeat Organization,” March 6, 2008

GAO Report No. GAO-08-423R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” June 10, 2008

GAO Report No. GAO-08-316R, “Defense Logistics: The Army Needs to Implement an
Effective Management and Oversight Plan for the Equipment Maintenance Contract in
Kuwait,” January 22, 2008

GAO Report No. GAO-08-153, “Iraq Reconstruction: Better Data Needed to Assess
Iraq’s Budget Execution,” January 15, 2008

GAO Report No. GAO-08-143R, “Operation Iraqi Freedom: DoD Assessment of Iraqi
Security Forces’ Units as Independent Not Clear Because ISF Support Capabilities Are
Not Fully Developed,” November 30, 2007

GAO Report No. GAO-08-68, “Global War on Terrorism: DoD Needs to Take Action to
Encourage Fiscal Discipline and Optimize the Use of Tools Intended to Improve GWOT
Cost Reporting,” November 6, 2007

GAO Report No. GAO-08-117, “Stabilizing and Rebuilding Iraq: U.S. Ministry Capacity
Development Efforts Need an Overall Integrated Strategy to Guide Efforts and Manage
Risk,” October 4, 2007

GAO Report No. GAO-07-814, “Defense Logistics: Army and Marine Corps Cannot Be
Assured That Equipment Reset Strategies Will Sustain Equipment Availability While
Meeting Ongoing Operational Requirements,” September 19, 2007

GAO Report No. GAO-07-1195, “Securing, Stabilizing, and Rebuilding Iraq: Iraqi
Government Has Not Met Most Legislative, Security, and Economic Benchmarks,”
September 4, 2007




                                          53
GAO Report No. GAO-07-839, “Defense Contract Management: DoD’s Lack of
Adherence to Key Contracting Principles on Iraq Oil Contract Put Government Interests
at Risk,” July 31, 2007

GAO Report No. GAO-07-711, “Stabilizing Iraq: DoD Cannot Ensure That U.S.-Funded
Equipment Has Reached Iraqi Security Forces,” July 31, 2007

*GAO Report No. GAO-07-853C, “Military Readiness: DoD Needs to Set Forth an
Action Plan, with Measurable Results, to Improve Army and Marine Corps Unit
Readiness,” July 20, 2007

GAO Report No. GAO-07-836, “Unmanned Aircraft Systems: Advance Coordination
and Increased Visibility Needed to Optimize Capabilities,” July 11, 2007

GAO Report No. GAO-07-759, “Defense Acquisitions: Analysis of Processes Used to
Evaluate Active Protection Systems” June 8, 2007

GAO Report No. GAO-07-801SP, “Securing, Stabilizing, and Reconstructing
Afghanistan: Key Issues for Congressional Oversight,” May 24, 2007

GAO Report No. GAO-07-699, “Military Operations: The Department of Defense’s Use
of Solatia and Condolence Payments in Iraq and Afghanistan,” May 23, 2007

GAO Report No. GAO-07-783R, “Global War on Terrorism: reported Obligations for the
Department of Defense,” May 18, 2007

GAO Report No. GAO-07-677, “Rebuilding Iraq: Integrated Strategic Plan Needed to
Help Restore Iraq’s Oil and Electricity Sectors,” May 15, 2007

GAO Report No. GAO-07-906R, “GAO Findings and Recommendations Regarding DoD
and VA Disability Systems,” May 5, 2007

GAO Report No. GAO-07-662R, “Defense Logistics: Army and Marine Corps’s
Individual Body Armor System Issues,” April 26, 2007

* GAO Report No. GAO-07-377C, “Defense Management: A Strategic Plan Is Needed to
Guide the Joint Improvised Explosive Device Defeat Organization’s Efforts to
Effectively Accomplish Its Mission,” March 28, 2007

GAO Report No. GAO-07-444, “Operation Iraqi Freedom: DoD Should Apply Lessons
Learned Concerning the Need for Security over Conventional Munitions Storage Sites to
Future Operations Planning,” March 22, 2007

*GAO Report No. GAO-07-120C, “Operation Iraqi Freedom: Preliminary Observations
on Iraqi Security Forces’ Support Capabilities,” March 7, 2007

GAO Report No. GAO-07-144, “Defense Logistics: Improved Oversight and Increased
Coordination needed to Ensure Viability of the Army’s Prepositioning Strategy,”
February 15, 2007

GAO Report No. GAO-07-308SP, “Securing Stabilizing, And Rebuilding Iraq: Key
Issues for Congressional Oversight,” January 9, 2007



                                          54
*GAO Report No. GAO-07-71C, “Operation Iraqi Freedom: DoD Should Apply Lessons
Learned Concerning the Need for Security Over Conventional Munitions Storage Sites to
Future Operations Planning,” December 20, 2006

GAO Report No. GAO-07-145, “Military Operations: High-Level DoD Action needed to
Address Long-standing Problems with Management and Oversight of Contractors
Supporting Deployed Forces,” December 18, 2006

GAO Report No. GAO-07-30R, “Rebuilding Iraq-Status of DoD’s Reconstruction
Program,” December 15, 2006

GAO Report No. GAO-07-78, “Afghanistan Drug Control: Despite Improved Efforts,
Deterioration Security Threatens Success of U.S. Goals,” November 15, 2006

GAO Report No. GAO-07-76, “Global War On Terrorism: Fiscal Year 2006 Obligation
Rates Are Within Funding Levels and Significant Multiyear Procurement Funds Will
Likely Remain Available for Use in Fiscal year 2007,” November 13, 2006

GAO Report No. GAO-07-40, “Rebuilding Iraq: Status of Competition for Iraq
Reconstruction Contracts,” October 6, 2006

GAO Report No. GAO-06-1085, “DoD Civilian Personnel: Greater Oversight and
Quality Assurance Needed to Ensure Force Health Protection and Surveillance for Those
Deployed,” September 29, 2006

GAO Report No. GAO-06-1132, “Iraq Contract Costs: DoD Consideration of Defense
Contract Audit Agency’s Findings,” September 25, 2006

GAO Report No. GAO-06-928R, “Defense Logistics: Changes to Stryker Vehicle
Maintenance Support Should Identify Strategies for Addressing Implementation
Challenges,” September 5, 2006

*GAO Report No. GAO-06-673C, “Briefing on Iraq Stabilization,” July 27, 2006

GAO Report No. GAO-06-788, “Rebuilding Iraq: More Comprehensive National
Strategy Needed to Help Achieve U.S. Goals,” July 11, 2006

GAO Report No. GAO-06-274, “Defense Logistics: Lack of Synchronized Approach
between the Marine Corps and Army Affected the Timely Production and Installation of
Marine Corps Truck Armor,” June 22, 2006

GAO Report No. GAO-06-397, “Post-Traumatic Stress Disorder: DoD Needs to
Identify the Factors Its Providers Use to make Mental Health Evaluation Referrals for
Service Members,” May 11, 2006

GAO Report No. GAO-06-330, “United Nations: Lessons Learned from Oil for Food
Program Indicate the Need to Strengthen UN Internal Controls and Oversight Activities,”
April 25, 2006

GAO Report No. GAO-06-160, “Defense Logistics: Several Factors Limited the
Production and Installation of Army Truck Armor during Current Wartime Operations,”
March 22, 2006



                                           55
*GAO Report No. GAO-06-217C, “Rebuilding Iraq: DoD Reports Should Link
Economic, Governance, and Security Indicators to Conditions for Stabilizing Iraq,”
October 31, 2005

*GAO Report No. GAO-06-152C, “Rebuilding Iraq: DoD Reports Should Link
Economic, Governance, and Security Indicators to Conditions for Stabilizing Iraq,”
October 31, 2005

GAO Report No. GAO-06-134, “Military Personnel: DoD Needs Action Plan to Address
Enlisted Personnel Recruitment and Retention Challenges,” November 17, 2005

GAO Report No. GAO-05-819, “Defense Transportation: Air Mobility Command Needs
to Collect and Analyze Better Data to Assess Aircraft Utilization,” September 29, 2005

GAO Report No. GAO-05-882, “Global War On Terrorism: DoD Needs to Improve the
Reliability of Cost Data and Provide Additional Guidance to Control Costs,”
September 21, 2005

GAO Report No. GAO-05-932R, “Rebuilding Iraq: U.S. Assistance for the January 2005
Elections,” September 7, 2005

GAO Report No. GAO-05-872, “Rebuilding Iraq: U.S. Water and Sanitation Efforts
Need Improved Measures for Assessing Impact and Sustained Resources for Maintaining
Facilities,” September 7, 2005

GAO Report No. GAO-05-672, “Radiological Sources In Iraq: DoD Should Evaluate its
Source Recovery Effort and Apply Lessons Learned to Future Recovery Missions,”
September 7, 2005

GAO Report No. GAO-05-775, “Defense Logistics: DoD Has Begun to Improve Supply
Distribution Operations, but Further Actions Are Needed to Sustain These Efforts,”
August 11, 2005

GAO Report No. GAO-05-876, “Rebuilding Iraq: Status of Funding and Reconstruction
Efforts,” July 28, 2005

GAO Report No. GAO-05-742, “Afghanistan Reconstruction: Despite Some Progress,
Deterioration Security and Other Obstacles Continue to Threaten Achievement of U.S.
Goals,” July 28, 2005

GAO Report No. GAO-05-737, “Rebuilding Iraq: Actions needed to Improve Use of
Private Security Providers,” July 28, 2005

GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
Police Have Made Progress, but Future Plans need to be Better Defined,” June 30, 2005

GAO Report No. GAO-05-293, “Defense Management: Processes to Estimate and Track
Equipment Reconstitution Costs Can Be Improved,” May 5, 2005

GAO Report No. GAO-05-280R, “Defense Base Act Insurance: Review Needed of Cost
and Implementation Issues,” April 29, 2005

GAO Report No. GAO-05-201, “Interagency Contraction: Problems with DoD’s and
Interior’s Orders to Support Military Operations,” April 29, 2005

                                          56
GAO Report No. GAO-05-275, “Defense Logistics: Actions Needed to Improve the
Availability of Critical Items during Current and Future Operations,” April 8, 2005

GAO Report No. GAO-05-328, “Defense Logistics: High-Level DoD Coordination Is
Needed to Further Improve the Management of the Army’s LOGCAP Contract,”
March 21, 2005

GAO Report No. GAO-05-125, “Military Pay: Gaps in Pay and Benefits Create Financial
hardships for Injured Army National Guard and Reserve Soldiers,” February 17, 2005

GAO Report No. GAO-05-79, “Army National Guard: Inefficient, Error-Prone Process
Results in Travel Reimbursement Problems for Mobilized Soldiers,” January 31, 2005

GAO Report No. GAO-05-120, “Defense Health Care: Force Health Protection and
Surveillance Policy Compliance Was Mixed, but Appears Better for Recent
Deployments,” November 12, 2004

GAO Report No. GAO-04-1031, “Military Personnel: DoD Needs to Address Long-term
Reserve Force Availability and Related Mobilization and Demobilization Issues,”
September 15, 2004

GAO Report No. GAO-04-1006, “Foreign Regimes’ Assets: The United States Faces
Challenges in Recovering Assets, but Has Mechanisms That Could Guide Future
Efforts,” September 14, 2004

GAO Report No. GAO-04-915, “Military Operations: Fiscal Year 2004 Costs for the
Global War on Terrorism Will Exceed Supplemental, Requiring DoD to Shift Funds from
Other Uses,” July 21, 2004

GAO Report No. GAO-04-854, “Military Operations: DoD’s Extensive Use of Logistics
Support Contracts Requires Strengthened Oversight,” July 19, 2004

GAO Report No. GAO-04-609, “Defense Infrastructure: Factors Affecting U.S.
Infrastructure Costs Overseas and the Development of Comprehensive Master Plans,”
July 15, 2004

GAO Report No. GAO-04-902R, “Rebuilding Iraq: Resource, Security, Governance,
Essential, Services, and Oversight Issues,” June 28, 2004

GAO Report No. GAO-04-403, “Afghanistan Reconstructions: Deteriorating Security
and Limited Resources Have Impeded Progress; Improvements in U.S. Strategy Needed,”
June 2, 2004

GAO Report No. GAO-04-605, “Rebuilding Iraq: Fiscal Year 2003 Contract Award
Procedures and Management Challenges,” June 1, 2004

GAO Report No. GAO-04-746R, “Iraq’s Transitional Law,” May 25, 2004

GAO Report No. GAO-04-668, “Military Operations: DoD’s Fiscal Year 2003 Funding
and reported Obligations in Support of the Global War on Terrorism,” May 13, 2004

GAO Report No. GAO-04-559, “State Department: Issues Affecting Funding of Iraqi
National Congress Support Foundation,” April 30, 2004


                                           57
GAO Report No. GAO-04-484, “Operation Iraqi Freedom: Long-standing Problems
Hampering Mail Delivery need to be Resolved,” April 14, 2004

GAO Report No. GAO-04-305R, “Defense Logistics: Preliminary Observations on the
Effectiveness of Logistics Activities during Operation Iraqi Freedom,” December 18,
2003

GAO Report No. GAO-03-1088, “Military Operations: Fiscal Year 2003 Obligations Are
Substantial, but May Result in Less Obligations Than Expected,” September 17, 2003

GAO Report No. GAO-03-792R, “Rebuilding Iraq,” May 15, 2003

Special Inspector General for Iraq Reconstruction
The Special Inspector General for Iraq Reconstruction issued 146 audit reports mainly
pertaining to Operation Iraqi Freedom. SIGIR also issued products with
recommendations to non-DOD activities. We included all products issued by SIGIR in
this report. To obtain electronic copies of the reports, please visit
http://www.sigir.mil/directorates/audits/auditReports.html.

SIGIR Report No. 09-027, “Developing a Depot Maintenance Capability at Taji
Hampered by Numerous Problems,” July 30, 2009

SIGIR Report No. 09-024, “Tikrit Location Command Project Achieving Contract Goals
by Using Sound Management Practices,” July 30, 2009

SIGIR Report No. 09-023, “Investigation and Remediation Records Concerning Incidents
of Weapons Discharges by Private Security Contractors Can Be Improved,” July 28,
2009

SIGIR Report No. 09-022, “Field Commanders See Improvements in Controlling and
Coordinating Private Security Contractor Missions in Iraq,” July 28, 2009

SIGIR Report No. 09-026, “Commander’s Emergency Response Program: Hotel
Construction Completed, But Project Management Issues Remain,” July 26, 2009

SIGIR Report No. 09-025, “Commander’s Emergency Response Program: Muhalla 312
Electrical Distribution Project Largely Successful,” July 26, 2009

SIGIR Report No. 09-021, “Joint Audit of Blackwater Contract and Task Orders for
Worldwide Personal Protective Services in Iraq,” June 1, 2009

SIGIR Report No. 09-019, “Opportunities To Improve Processes for Reporting,
Investigating, and Remediating Serious Incidents Involving Private Security Contractors
in Iraq,” April 30, 2009

SIGIR Report No. 09-018, “Information on Government of Iraq Contributions to
Reconstruction Costs,” April 29, 2009

SIGIR Report No. 09-015, “Construction of Primary Healthcare Centers Reported
Essentially Complete, but Operational Issues Remain,” April 29, 2009




                                           58
SIGIR Report No. 09-020, “Provincial Reconstruction Teams: Developing a Cost-
Tracking Process Will Enhance Decision-Making,” April 28, 2009

SIGIR Report No. 09-016, “Asset-transfer Process for Iraq Reconstruction Projects Lacks
Unity and Accountability,” April 26, 2009

SIGIR Report No. 09-014, “Security Forces Logistics Contract Experienced Certain Cost,
Outcome, and Oversight Problems,” April 26, 2009

SIGIR Report No. 09-017, “Need To Enhance Oversight of Theater-Wide Internal
Security Services Contracts,” April 24, 2009

SIGIR Report No. 09-009, “Full Impact of Department of Defense Program to Restart
State-owned Enterprises Difficult to Estimate,” January 30, 2009

SIGIR Report No. 09-011, “Opportunities to Improve Management of the Quick
Response Fund,” January 29, 2009

SIGIR Report No. 09-013, “Provincial Reconstruction Teams’ Performance
Measurement Process Has Improved,” January 28, 2009

SIGIR Report No. 09-012, “The U.S. Has Reduced Its Funding for the Iraqi Security
Forces, but Continued Support Will Likely Be Necessary,” January 26, 2009

SIGIR Report No. 09-010, “Oversight of Aegis’ Performance on Security Services
Contracts in Iraq with the Department of Defense,” January 14, 2009

SIGIR Report No. 09-008, “Cost, Outcome, and Oversight of Iraq Oil Reconstruction
Contract with Kellogg Brown & Root Services, Inc.,” January 13, 2009

SIGIR Report No. 09-005, “Agencies Need Improved Financial Data Reporting for
Private Security Contractors,” October 30, 2008

SIGIR Report No. 09-007, “Improvements Needed in Reporting Status of Reconstruction
Projects to Chief of Mission,” October 28, 2008

SIGIR Report No. 09-006, “Status of Department of State Economic Support Fund
Interagency Agreements with the U.S. Army Corps of Engineers in Iraq,” October 28,
2008

SIGIR Report No. 09-004, “Iraq Reconstruction Project Terminations Represent a Range
of Actions,” October 27, 2008

SIGIR Report No. 09-001, “Opportunities to Enhance U.S. Democracy-Building Strategy
for Iraq,” October 22, 2008

SIGIR Report No. 09-003, “Cost, Outcome, and Oversight of Local Governance Program
Contracts with Research Triangle Institute,” October 21, 2008

SIGIR Report No. 09-002, “Challenges in Obtaining Reliable and Useful Data on Iraqi
Security Forces Continue,” October 21, 2008

SIGIR Report No. 08-024, “Information on a Special Department of Defense Program to
Foster Economic Recovery in Iraq,” July 29, 2008

                                          59
SIGIR Report No. 08-023, “Anticorruption Efforts in Iraq: U.S. and Iraq Take Actions
but Much Remains to be Done,” July 2008

SIGIR Report No. 08-022, “Government of Iraq Increasingly Funding Iraqi Security
Forces Infrastructure Development, but Substantial U.S. Support Remains,” July 26,
2008

SIGIR Report No. 08-019, “Outcome, Cost, and Oversight of the Security and Justice
Contract with Parsons Delaware, Inc.,” July 28, 2008

SIGIR Report No. 08-020, “Key Recurring Management Issues Identified in Audits of
Iraq Reconstruction Efforts,” July 27, 2008

SIGIR Report No. 08-021, “Comprehensive Plan Needed to Guide the Future of the Iraq
Reconstruction Management System,” July 25, 2008

SIGIR Report No. 08-018, “Review of Outcome, Cost, and Oversight of Water Sector
Reconstruction Contract with FluorAMEC, LLC,” July 15, 2008

SIGIR Report No. 08-011, “Review of Outcome, Cost, and Oversight of Electricity-
Sector Reconstruction Contract with Perini Corporation,” April 29, 2008

SIGIR Report No. 08-017, “Transferring Reconstruction Projects to the Government of
Iraq: Some Progress Made but Further Improvements Needed to Avoid Waste,” April 28,
2008

SIGIR Report No. 08-013, “Interim Report on Iraq Reconstruction Contract
Terminations,” April 28, 2008

SIGIR Report No. 08-015, “Interim Analysis of Iraqi Security Force Information
Provided by the Department of Defense Report, Measuring Stability and Security in
Iraq,” April 25, 2008

SIGIR Report No. 08-016, “U.S. Anticorruption Efforts in Iraq: Progress Made in
Implementing Revised Management Plan,” April 24, 2008

SIGIR Report No. 08-014, “Progress on Recommended Improvements to Contract
Administration for the Iraqi Police Training Program,” April 22, 2008

SIGIR Report No. 08-012, “Attestation to Development Fund for Iraq Cash in the
Possession of the Joint Area Support Group-Central,” March 13, 2008

SIGIR Report No. 08-010, “Report on Review of Outcome, Cost, and Oversight of Iraq
Reconstruction Contract W914NS-04-D-0006,” January 29, 2008

SIGIR Report No. 08-009, “Report on Use of Appropriate Award-Fee Conversion Scales
Can Enhance Incentive for Contractor Performance,” January 29, 2008

SIGIR Report No. 08-008, “U. S. Anticorruption Efforts in Iraq: Sustained Management
Commitment is Key to Success,” January 29, 2008

SIGIR Report No. 08-007, “Efforts to Implement a Financial-Management Information
System in Iraq,” January 29, 2008


                                          60
SIGIR Report No. 08-006, “Commander’s Emergency Response Program in Iraq Funds
Many Large-Scale Projects,” January 29, 2008

SIGIR Report No. 08-005, “Differences in Services and Fees for Management and
Administration of Iraq Reconstruction Contracts,” January 29, 2008

SIGIR Report No. 08-004, “Outcome, Cost, and Oversight of Reconstruction of Taji
Military Base and Baghdad Recruiting Center,” January 29, 2008

SIGIR Report No. 08-002, “Logistics Civil Augmentation Program Task Orders 130 and
151: Program Management, Reimbursement, and Transition,” October 30, 2007

SIGIR Report No. 08-003, “U. S. Anticorruption Efforts in Iraq: Sustained Management
Commitment is Key to Success,” October 29, 2007

SIGIR Report No. 08-001, “Interim Report on Efforts and Further Actions Needed to
Implement a Financial Management System in Iraq,” October 24, 2007

SIGIR Report No. 07-010, “Agency Management of the Closeout Process for Iraq Relief
and Reconstruction Fund Contracts,” October 24, 2007

SIGIR Report No. 07-011, “Controls Over Unliquidated Obligations in the Iraq Relief
and Reconstruction Fund,” October 23, 2007

SIGIR Report No. 07-016, “Interim Review of DynCorp International, LLC, Spending
Under Its Contract for the Iraqi Police Training Program,” October 23, 2007

SIGIR Report No. 07-015, “Review of the Effectiveness of the Provincial Reconstruction
Team Program in Iraq,” October 18, 2007

SIGIR Report No. 07-005, “Fact Sheet on Sources and Uses of U.S. Funding Provided in
Fiscal Year 2006 for Iraq Relief and Reconstruction,” July 27, 2007

SIGIR Report No. 07-008, “Fact Sheet on the Roles and Responsibilities of U.S.
government Organizations Conducting IRRF-funded Reconstruction Activities,” July 26,
2007

SIGIR Report No. 07-003, “Cost-to-Complete Reporting for Iraq Reconstruction
Projects,” July 26, 2007

SIGIR Report No. 07-014, “Status of the Provincial Reconstruction Team Program
Expansion in Iraq,” July 25, 2007

SIGIR Report No. 07-004, “Transferring Iraq Relief and Reconstruction Fund Capital
Projects to the Government of Iraq,” July 25, 2007

SIGIR Report No. 07-009, “Review of Bechtel’s Spending under Its Phase II Iraq
Reconstruction Contract,” July 24, 2007

SIGIR Report No. 07-007, “Status of U.S. government Anticorruption Efforts in Iraq,”
July 24, 2007




                                          61
SIGIR Report No. 07-001, “Logistics Civil Augmentation Program Task Order 130:
Requirements Validation, Government Oversight, and Contractor Performance,” June 22,
2007

SIGIR Report No. 07-012, “Review of Iraq Relief and Reconstruction Fund Unmatched
Disbursements at the Department of State,” April 26, 2007

SIGIR Report No. 07-006, “Management of the Commander’s Emergency Response
Program in Iraq for Fiscal Year 2006,” April 26, 2007

SIGIR Report No. 07-002, “Status of the Advanced First Responder Network,” April 25,
2007

SIGIR Report No. 06-045, “Status of Ministerial Capacity Development in Iraq,”
January 30, 2007

SIGIR Report No. 06-044, “Fact Sheet on Major U.S. Contractors’ Security Costs
Related to Iraq Relief and Reconstruction Fund Contracting Activities,” January 30, 2007

SIGIR Report No. 06-043, “Review of Iraq Relief and Reconstruction Fund Unmatched
Disbursements,” January 30, 2007

SIGIR Report No. 06-040, “Improper Obligations Using the Iraq Relief and
Reconstruction Fund (IRRF 2),” January 30, 2007

SIGIR Report No. 06-030, “Status of Medical Equipment and Other Non-construction
Items Purchased for PHCs,” January 30, 2007

SIGIR Report No. 06-029, “Review of DynCorp International, LLC, Contract Number S
LMAQM-04-C-0030, Task Order 0338, for the Iraqi Police Training Program Support,”
January 30, 2007

SIGIR Report No. 06-039, “Review of USAID/Bechtel National, Inc., Property
Management Controls for Contract SPU-C-00-04-00001-00,” January 29, 2007

SIGIR Report No. 06-036, “Follow-up on SIGIR Recommendations Concerning the
Development Fund for Iraq (DFI),” January 29, 2007

SIGIR Report No. 06-034, “Status of the Provincial Reconstruction Team Program in
Iraq,” October 29, 2006

SIGIR Report No. 06-033, “Iraqi Security Forces: Weapons Provided by the U.S.
Department of Defense Using the Iraq Relief and Reconstruction Fund,” October 28,
2006

SIGIR Report No. 06-032, “Iraqi Security Forces: Review of Plans to Implement
Logistics Capabilities,” October 28, 2006

SIGIR Report No. 06-031, “Management of the Iraqi Interim Government Fund,”
October 27, 2006

SIGIR Report No. 06-035, “Interim Audit Report on Inappropriate Use of Proprietary
Data Markings by the Logistics Civil Augmentation Program (LOGCAP) Contractor,”
October 26, 2006

                                          62
SIGIR Report No. 06-028, “Review of Administrative Task Orders for Iraq
Reconstruction Contracts,” October 23, 2006

SIGIR Report No. 06-038, “Unclassified Summary of SIGIR’s Review of Efforts to
Increase Iraq’s Capability to Protect Its Energy Infrastructure,” September 27, 2006

SIGIR Report No. 06-037, “Interim Audit Report on Improper Obligations Using the Iraq
Relief and Reconstruction Fund (IRRF-2),” September 22, 2006

SIGIR Report No. 06-026, “Review of the U.S. Agency for International Development’s
Management of the Basrah Children’s Hospital Project,” July 28, 2006

SIGIR Report No. 06-025, “Review of the Medical Equipment Purchased for the Primary
Healthcare Centers Associated with Parsons Global Services, Inc., Contract Number
W914NS–04–D–0006,” July 28, 2006

SIGIR Report No. 06-023, “Changes in Iraq Relief and Reconstruction Fund Program
Activities – January through March 2006,” July 28, 2006

SIGIR Report No. 06-021, “Joint Survey of the U.S. Embassy – Iraq’s Anticorruption
Program,” July 28, 2006

SIGIR Report No. 06-020, “Review of the Advanced First Responder Network,” July 28,
2006

SIGIR Report No. 06-019, “Review of the Use of Definitization Requirements for
Contracts Supporting Reconstruction in Iraq,” July 28, 2006

SIGIR Report No. 06-017, “Transition of Iraq Relief and Reconstruction Fund Projects to
the Iraqi Government,” July 28, 2006

SIGIR Report No. 06-024, “Joint Cash Count: Iraq National Weapons Card Program,”
July 26, 2006

SIGIR Report No. 06-018, “Survey of the Status of Funding for Iraq Programs Allocated
to the Department of State’s Bureau of International Narcotics and Law Enforcement
Affairs as of December 31, 2005,” July 2006

SIGIR Report No. 06-016, “Interim Audit Report on the Review of the Equipment
Purchased for Primary Healthcare Centers Associated with Parsons Global Services,
Contract Number W914NS-04-D-0006,” April 29, 2006

SIGIR Report No. 06-011, “Management of the Primary Healthcare Centers Construction
Projects,” April 29, 2006

SIGIR Report No. 06-007, “U.S. Agency for International Development: Management of
the Transfer of Iraq Relief and Reconstruction Fund Projects to the Iraqi Government,”
April 29, 2006

SIGIR Report No. 06-006, “Multi-National Security Transition Command-Iraq:
Management of the Transfer of IRRF-funded Assets to the Iraqi Government,” April 29,
2006



                                           63
SIGIR Report No. 06-015, “Iraqi Armed Forces Seized Assets Fund: Review of Contracts
and Financial Documents,” April 28, 2006

SIGIR Report No. 06-013, “Briefing to the International Advisory and Monitoring Board
for Iraq: Management Controls Over the Development Fund for Iraq,” April 28, 2006

SIGIR Report No. 06-012, “Development Fund for Iraq Cash Accountability Review:
Joint Area Support Group-Central/Falluja,” April 28, 2006

SIGIR Report No. 06-010, “Review of the Multi-National Security Transition Command-
Iraq Reconciliation of the Iraqi Armed Forces Seized Assets Fund,” April 28, 2006

SIGIR Report No. 06-009, “Review of Task Force Shield Programs,” April 28, 2006

SIGIR Report No. 06-008, “Development Fund for Iraq-Cash Accountability Review:
Joint Area Support Group-Central,” April 28, 2006

SIGIR Report No. 06-005, “Follow-up on Recommendations Made in SIGIR Audit
Reports Related to Management and Control of the Development Fund for Iraq,” April
28, 2006

SIGIR Report No. 06-004, “Changes in Iraq Relief and Reconstruction Fund Program
Activities-October through December 2005,” April 28, 2006

SIGIR Report No. 06-003, “Review of Data Entry and General Controls in the Collecting
and Reporting of the Iraq Relief and Reconstruction Fund,” April 28, 2006

SIGIR Report No. 06-001, “Management of Iraq Relief and Reconstruction Fund
Program: The Evolution of the Iraq Reconstruction Management System,” April 24, 2006

SIGIR Report No. 06-002, “Prompt Payment Act: Analysis of Expenditures Made From
the Iraq Relief and Reconstruction Fund,” February 3, 2006

SIGIR Report No. 05-027, “Methodologies for Reporting Cost-to-complete Estimates,”
January 27, 2006

SIGIR Report No. 05-026, “Issues Related to the Use of $50 Million Appropriation to
Support the Management and Reporting of the Iraq Relief and Reconstruction Fund,”
January 27, 2006

SIGIR Report No. 05-029, “Challenges Faced in Carrying Out Iraq Relief and
Reconstruction Fund Activities,” January 26, 2006

SIGIR Report No. 05-028, “GRD-PCO Management of the Transfer of IRRF-funded
Assets to the Government of Iraq 05-028,” January 23, 2006

SIGIR Report No. 05-025, “Management of the Commander’s Emergency Response
Program for Fiscal Year 2005,” January 23, 2006

SIGIR Report No. 05-024, “Management of the Mansuria Electrical Reconstruction
Project,” January 23, 2006

SIGIR Report No. 05-023, “Management of Rapid Regional Response Program Contracts
in South-Central Iraq,” January 23, 2006

                                          64
SIGIR Report No. 05-020, “Management of the Contracts, Grant, and Micro-Purchases
Used To Rehabilitate the Karbala Library,” October 26, 2005

SIGIR Report No. 05-016, “Management of the Contracts and Grants Used To Construct
and Operate the Babylon Police Academy,” October 26, 2005

SIGIR Report No. 05-015, “Management of Rapid Regional Response Program Grants in
South-Central Iraq,” October 26, 2005

SIGIR Report No. 05-017, “Award Fee Process for Contractors Involved in Iraq
Reconstruction,” October 25, 2005

SIGIR Report No. 05-022, “Managing Sustainment for Iraq Relief and Reconstruction
Fund Programs,” October 24, 2005

SIGIR Report No. 05-021, “Management of Iraq Relief and Reconstruction Fund
Programs - Cost-to-Complete Estimate Reporting,” October 24, 2005

SIGIR Report No. 05-018, “Acquisition of Armored Vehicles Purchased Through
Contract W914NS-05-M-1189,” October 21, 2005

SIGIR Report No. 05-014, “Management of Commanders’ Emergency Response
Program for Fiscal Year 2004,” October 13, 2005

SIGIR Report No. 05-019, “Attestation Engagement Concerning the Award of Non-
Competitive Contract DACA63-03-D-0005 to Kellogg, Brown, and Root Services, Inc.,”
September 30, 2005

SIGIR Report No. 05-013, “Controls Over Equipment Acquired by Security
Contractors,” September 9, 2005

SIGIR Report No. 05-011, “Cost-to-Complete Estimates and Financial Reporting for the
Management of the Iraq Relief and Reconstruction Fund,” July 26, 2005

SIGIR Report No. 05-010, “Interim Briefing to the Project and Contracting Office - Iraq
and the Joint Contracting Command - Iraq on the Audit of the Award Fee Process,”
July 26, 2005

SIGIR Report No. 05-012, “Policies and Procedures Used for Iraq Relief and
Reconstruction Fund Project Management Construction Quality Assurance,” July 22,
2005

SIGIR Report No. 05-009, “Reconciliation of Reporting Differences of the Source of
Funds Used on Contracts After June 28, 2004,” July 8, 2005

SIGIR Report No. 05-008, “Administration of Contracts Funded by the Development
Fund of Iraq,” April 30, 2005

SIGIR Report No. 05-007, “Administration of Iraq Relief and Reconstruction Fund
Contract Files,” April 30, 2005

SIGIR Report No. 05-006, “Control of Cash Provided to South-Central Iraq,” April 30,
2005


                                           65
SIGIR Report No. 05-005, “Compliance with Contract No. W911S0-04-C-003 Awarded
to Aegis Defense Services Limited,” April 20, 2005

SIGIR Report No. 05-004, “CORRECTED - Oversight of Funds Provided to Iraqi
Ministries through the National Budget Process,” January 30, 2005

SIGIR Report No. 05-003, “Memorandum Report regarding audit of Task Order 0044 of
the Logistics Civil Augmentation Program III Contract,” November 23, 2004

SIGIR Report No. 05-002, “Accountability and Control of Materiel Assets of the
Coalition Provisional Authority in Kuwait,” October 25, 2004

SIGIR Report No. 05-001, “Coalition Provisional Authority Control of Appropriated
Funds,” October 22, 2004

SIGIR Report No. 04-008, “Coalition Provisional Authority Control Over Seized and
Vested Assets,” July 30, 2004

SIGIR Report No. 04-009, “Coalition Provisional Authority Comptroller Cash
Management Controls Over the Development Fund for Iraq,” July 28, 2004

SIGIR Report No. 04-004, “Task Orders Awarded by the Air Force Center for
Environmental Excellence in Support of the Coalition Provisional Authority,” July 28,
2004

SIGIR Report No. 04-013, “Coalition Provisional Authority’s Contracting Processes
Leading Up to and Including Contract Award,” July 27, 2004

SIGIR Report No. 04-011, “Audit of the Accountability and Control of Materiel Assets
of the Coalition Provisional Authority in Baghdad,” July 26, 2004

SIGIR Report No. 04-007, “Oil for Food Cash Controls for the Office of Project
Coordination in Erbil, Iraq,” July 26, 2004

SIGIR Report No. 04-005, “Award of Sector Design-Build Construction Contracts,”
July 23, 2004

SIGIR Report No. 04-006, “Corporate Governance for Contractors Performing Iraq
Reconstruction Efforts,” July 21, 2004

SIGIR Report No. 04-003, “Federal Deployment Center Forward Operations at the
Kuwait Hilton,” June 25, 2004

SIGIR Report No. 04-002, “Management of Personnel Assigned to the Coalition
Provisional Authority in Baghdad, Iraq,” June 25, 2004

SIGIR Report No. 04-001, “Coalition Provisional Authority Coordination of
Donated Funds,” June 25, 2004




                                          66
Special Inspector General for Afghanistan Reconstruction

The Special Inspector General for Afghanistan Reconstruction issued 7 audit reports
mainly pertaining to Operation Enduring Freedom. SIGAR also issued reports with
recommendations to non-DOD activities. We included all the products issued by SIGAR
in this report. To obtain electronic copies of the reports, please visit
http://www.sigar.mil/audit/Reports.aspx.

SIGAR Audit-09-7, “Documenting Detention Procedures Will Help Ensure Counter-
Narcotics Justice Center Is Utilized As Intended,” September 30, 2009

SIGAR Audit-09-6, “Strategy and Resources Needed to Sustain Afghan Electoral
Capacity,” September 22, 2009

SIGAR Audit 09-5, “Increased Visibility, Monitoring, and Planning Needed for
Commander’s Emergency Response Program in Afghanistan,” September 9, 2009

SIGAR Audit 09-4, “Actions Needed to Resolve Construction Delays at the Counter-
Narcotics Justice Center,” August 27, 2009

SIGAR Audit 09-3, “A Better Management Information System Is Needed to Promote
Information Sharing, Effective Planning, and Coordination of Afghanistan
Reconstruction Activities,” July 30, 2009

SIGAR Audit 09-2, “UN Action Urged To Strengthen Afghanistan Capacity to Support
Future Elections,” July 6, 2009

SIGAR Audit 09-1, “Contract Oversight Capabilities of the Defense Department’s
Combined Security Transition Command - Afghanistan (CSTC-A) Need Strengthening,”
May 19, 2009

Commission on Wartime Contracting
The Commission on Wartime Contracting issued 2 reports related to Operations Iraqi
Freedom and Enduring Freedom and contracting in SWA. To obtain electronic copies of
the reports, please visit http://wartimecontracting.gov/index.php/reports.

CWC Interim Report, “At What Cost? Contingency Contracting in Iraq and
Afghanistan,” June 2009

CWC Special Report 1, “Defense Agencies must improve their oversight of contractor
business systems to reduce waste, fraud, and abuse,” September 21, 2009




                                         67
Appendix C. OIF and OEF Testimony FY 2003
through FY 2009
Army Audit Agency

The Army Audit Agency issued 3 testimonies pertaining to Operations Iraqi Freedom and
Enduring Freedom. To request hardcopies of the testimonies, please contact the
Agency’s Audit Coordination and Followup Office at 703-697-3992.

Army Audit Agency Testimony, “Defense Base Act Insurance for the Logistics Civil
Augmentation Program, Audit of Logistics Civil Augmentation Program Operations in
Support of Operation Iraqi Freedom,” May 15, 2008

Army Audit Agency Testimony, “Logistics Civil Augmentation Program (LOGCAP),”
April 19, 2007

Army Audit Agency Testimony, “USAAA Work in Support of the U.S. Army’s Role in
the Reconstruction of Iraq,” October 18, 2005

DoD Office of Inspector General
The DoD OIG issued 17 testimonies pertaining to Operations Iraqi Freedom and
Enduring Freedom. To obtain electronic copies of DoD OIG testimonies, please visit
http://www.dodig.mil/fo/index.html.

DoD OIG Testimony, “Afghanistan and Pakistan: Accountability Community Oversight
of a New Interagency Strategy,” September 9, 2009

DoD OIG Testimony, “DoD IG Assessment of Arms, Ammunition, and Explosives
Control and Accountability; Security Assistance; and Sustainment for the Afghan
National Security Forces,” February 12, 2009

DoD OIG Testimony, “Oversight of Wartime Contracting in Iraq and Afghanistan,”
February 2, 2009

DoD OIG Testimony, “Maintenance of Electrical Systems in Facilities Occupied by
Military and Contractor Personnel in Iraq,” July 30, 2008

DoD OIG Testimony, “The effectiveness of U.S. efforts to combat corruption, waste,
fraud, and abuse in Iraq,” July 23, 2008

DoD OIG Testimony, “Accountability over Several Funds to Support the Iraq War,
Including the Iraq Security Forces fund, the Commander’s Emergency Response
Program, and the Seized and Vested Assets of the Iraqi People,” May 22, 2008




                                          68
DoD OIG Testimony, “Investigation into the Sale of Sensitive, In-Demand Military
Equipment and Supplies on the Internet,” April 10, 2008

DoD OIG Testimony, “DoD Procurement Policy for Body Armor,” April 10, 2008

DoD OIG Testimony, “The effectiveness of U.S. efforts to combat corruption, waste,
fraud, and abuse in Iraq,” March 11, 2008

DoD OIG Testimony, “Department of Defense Outsourcing,” (Closed Hearing)
January 29, 2008

DoD OIG Testimony, “Accountability During Contingency Operations: Preventing and
Fighting Corruption in Contracting and Establishing and Maintaining Appropriate
Controls on Materiel,” September 20, 2007

DoD OIG Testimony, “War Profiteering and Other Contractor Crimes Committed
Overseas,” June 19, 2007

DoD OIG Testimony, “Investigations by the Office of the Inspector General, Department
of Defense, Concerning the Death of Corporal Patrick Tillman and the Rescue of Private
First Class Jessica Lynch,” April 24, 2007

DoD OIG Testimony, “Combating War Profiteering: Are We Doing Enough to
Investigate and Prosecute Contracting Fraud and Abuse in Iraq,” March 20, 2007

DoD OIG Testimony, “Audit of Reconstruction and Support Activities in Iraq,”
January 18, 2007

DoD OIG Testimony, “Trafficking in Persons,” June 21, 2006
DoD OIG Testimony, “Iraq Reconstruction, Governance and Security Oversight,”
October 18, 2005

Government Accountability Office

GAO issued 53 testimonies related to Operations Iraqi Freedom and Enduring Freedom
and actions in SWA. To obtain electronic copies of GAO testimony, please visit
http://www.gao.gov/docsearch/featured/oif.html. To request hardcopies of GAO
testimony, please visit http://www.gao.gov/ordering.htm, or call 202-512-6000 or fax to
202-512-6061.

GAO Report No. GAO-09-1019T, “Human Capital: Improved Tracking and Additional
Actions Needed to Ensure the Timely and Accurate Delivery of Compensation and
Medical Benefits to Deployed Civilians,” September 16, 2009

GAO Report No. GAO-09-1015T, “Afghanistan and Pakistan: Oversight of U.S.
Interagency Efforts,” September 9, 2009

GAO Report No. GAO-09-692T, “V-22 Osprey Aircraft: Assessments Needed to
Address Operational and Cost Concerns to Define Future Investments,” June 23, 2009



                                           69
GAO Report No. GAO-09-538T, “Contingency Contracting: DoD, State, and USAID
Are Taking Actions to Track Contracts and Contractor Personnel in Iraq and
Afghanistan,” April 1, 2009

GAO Report No. GAO-09-476T, “Iraq and Afghanistan: Security, Economic, and
Governance Challenges to Rebuilding Efforts Should Be Addressed in U.S. Strategies,”
March 25, 2009

GAO Report No. GAO-09-380T, “Iraq and Afghanistan: Availability of Forces,
Equipment, and Infrastructure Should Be Considered in Developing U.S. Strategy and
Plans,” February 12, 2009

GAO Report No. GAO-09-366T, “Afghanistan Security: Corrective Actions Are Needed
to Address Serious Accountability Concerns about Weapons Provided to Afghan
National Security Forces,” February 12, 2009

GAO Report No. GAO-08-1144T, “Stabilizing and Rebuilding Iraq: Iraqi Revenues,
Expenditures, and Surplus,” September 16, 2008

GAO Report No. GAO-08-1146T, “Military Personnel: Actions Needed to Strengthen
Implementation and Oversight of DoD’s and the Coast Guard’s Sexual Assault
Prevention and Response Programs,” September 10, 2008

GAO Report No. GAO-08-1013T, “Military Personnel: Preliminary Observations On
DoD’s and the Coast Guard’s Sexual Assault Prevention and Response Programs,” July
31, 2008

GAO Report No. GAO-08-1021T, “Securing, Stabilizing, and Rebuilding Iraq: Progress
Report: Some Gains Made, Updated Strategy Needed,” July 23, 2008

GAO Report No. GAO-08-932T, “Combating Terrorism: U.S. Oversight of Pakistan
Reimbursement Claims for Coalition Support Funds,” June 24, 2008

GAO Report No. GAO-08-883T, “Afghanistan Security: U.S. Efforts to Develop Capable
Afghan Police Forces Face Challenges and Need a Coordinated, Detailed Plan to Help
Ensure Accountability,” June 18, 2008

GAO Report No. GAO-08-820T, “Combating Terrorism: U.S. Efforts to Address
Terrorist Threat in Pakistan’s Federally Administered Tribal Areas Require a
Comprehensive Plan and Continued Oversight,” May 20, 2008

GAO Report No. GAO-08-568T, “Stabilizing and Rebuilding Iraq: Actions Needed to
Address Inadequate Accountability over U.S. Efforts and Investments,” March 11, 2008

GAO Report No. GAO-08-231T, “Securing, Stabilizing and Rebuilding Iraq: GAO
Audits and Key Oversight Issues,” October 30, 2007

GAO Report No. GAO-08-124T, “Stabilizing and Rebuilding Iraq: Serious Challenges
Confront U.S. Efforts to Build the Capacity of Iraqi Ministries, by David M. Walker,
comptroller general of the United States, before the House Committee on Oversight and
Government Reform,” October 4, 2007



                                          70
GAO Report No. GAO-07-1235T, “DoD Civilian Personnel: Medical Policies for
Deployed DoD Federal Civilians and Associated Compensation for Those Deployed,
September 18, 2007

GAO Report No. GAO-07-1230T, “Securing, Stabilizing, and Rebuilding Iraq: Iraqi
Government Has Not Met Most Legislative, Security, and Economic Benchmarks,”
September 7, 2007

GAO Report No. GAO-07-1222T, “Securing, Stabilizing, and Rebuilding Iraq: Iraqi
Government Has Not Met Most Legislative, Security, and Economic Benchmarks,”
September 5, 2007

GAO Report No. GAO-07-1221T, “Securing, Stabilizing, and Rebuilding Iraq: Iraqi
Government Has Not Met Most Legislative, Security, and Economic Benchmarks,”
September 5, 2007

GAO Report No. GAO-07-1220T, “Securing, Stabilizing, and Rebuilding Iraq: Iraqi
Government Has Not Met Most Legislative, Security, and Economic Benchmarks,”
September 4, 2007

GAO Report No. GAO-07-832T, “Defense Acquisitions: Improved Management and
Oversight needed to Better Control DoD’s Acquisition of Services,” May 10, 2007

GAO Report No. GAO-07-827T, “Stabilizing And Rebuilding Iraq: Coalition Support
and International Donor Commitments,” May 9, 2007

GAO Report No. GAO-07-525T, “Stabilizing And Rebuilding Iraq: Conditions in Iraq
Are Conducive to Fraud, Waste and Abuse,” April 23, 2007

GAO Report No. GAO-07-639T, “Operation Iraqi Freedom: DoD Should Apply Lessons
Learned Concerning the Need for Security Over Conventional Munitions Storage Sites to
Future Operations Planning,” March 22, 2007

GAO Report No. GAO-07-637T, “Stabilizing Iraq: Preliminary Observations on Budget
and Management Challenges of Iraq’s Security Ministries,” March 22, 2007

GAO Report No. GAO-07-612T, “Stabilizing Iraq: Factors Impeding the Development of
Capable Iraqi Security Forces,” March 13, 2007

GAO Report No. GAO-07-582T, “Operation Iraqi Freedom: Preliminary Observations on
Iraqi Security Forces’ Logistical Capabilities,” March 9, 2007

GAO Report No. GAO-07-426T, “Rebuilding Iraq: Reconstruction Progress Hindered by
Contracting, Security, and Capacity Challenges,” February 15, 2007

GAO Report No. GAO-07-439T, “Defense Logistics: Preliminary Observations on the
Army’s Implementation of Its Equipment Reset Strategies,” January 31, 2007

GAO Report No. GAO-07-385T, “Securing, Stabilizing, And Rebuilding Iraq: GAO
Audit Approach and Findings,” January 18, 2007

GAO Report No. GAO-06-1130T, “Rebuilding Iraq: Continued Progress Requires
Overcoming Contract Management Challenges,” September 28, 2006

                                         71
GAO Report No. GAO-06-1094T, “Stabilizing Iraq: An Assessment of the Security
Situation,” September 11, 2006

GAO Report No. GAO-06-885T, “Global War On Terrorism: Observations on Funding,
Costs, and Future Commitments,” July 18, 2006

GAO Report No. GAO-06-953T, “Rebuilding Iraq: More Comprehensive National
Strategy Needed to help Achieve U.S. Goals and Overcome Challenges,” July 11, 2006

GAO Report No. GAO-06-865T, “Rebuilding Iraq: Actions Still Needed to Improve the
Use of Private Security Providers,” June 13, 2006

GAO Report No. GAO-06-711T, “United Nations: Oil for Food Program Provides
lessons for Future Sanctions and Ongoing Reform,” May 2, 2006

GAO Report No. GAO-06-697T, “Rebuilding Iraq: Governance, Security,
Reconstruction, and Financing Challenges,” April 25, 2006

GAO Report No. GAO-06-604T, “Defense Logistics: Preliminary Observations on
Equipment Reset Challenges and Issues for the Army and Marine Corps,”
March 30, 2006

GAO Report No. GAO-06-428T, “Rebuilding Iraq: Stabilization, Reconstruction, and
Financing Challenges,” February 8, 2006

GAO Report No. GAO-06-179T, “Rebuilding Iraq: Enhancing Security, Measuring
Program Results, and Maintaining Infrastructure Are Necessary to Make Significant and
Sustainable Progress,” October 18, 2005

GAO Report No. GAO-05-431T, “Rebuilding Iraq: Preliminary Observations on
Challenges in Transferring Security Responsibilities to Iraqi Military and Police,”
March 14, 2005

GAO Report No. GAO-05-392T, “United Nations: Sustained Oversight Is Needed for
Reforms to Achieve Lasting Results,” March 2, 2005

GAO Report No. GAO-05-346T, “United Nations: Oil for Food Program Audits,”
February 15, 2005

GAO Report No. GAO-04-953T, “United Nations: Observations on the Oil for Food
Program and Areas for Further Investigation,” July 8, 2004

GAO Report No. GAO-04-880T, “United Nations: Observations on the Oil for Food
Program and Iraq’s Food Security,” June 16, 2004

GAO Report No. GAO-04-869T, “Contract Management: Contracting for Iraq
Reconstruction and for Global Logistics Support,” June 15, 2004

GAO Report No. GAO-04-730T, “United Nations: Observations on the Management and
Oversight of the Oil for Food Program,” April 28, 2004

GAO Report No. GAO-04-651T, “United Nations: Observations on the Oil for Food
Program,” April 7, 2004

                                            72
GAO Report No. GAO-04-562T, “Military Propositioning Observations on Army and
Marine Corps Programs During Operation Iraqi Freedom and Beyond,” March 24, 2004

GAO Report No. GAO-04-579T, “Recovering Iraq’s Assets: Preliminary Observations
on U.S. Efforts and Challenges,” March 18, 2004

GAO Report No. GAO-03-980T, “Foreign Assistance: Observations on Post-Conflict
Assistance in Bosnia, Kosovo, and Afghanistan,” July 18, 2003

Special Inspector General for Iraq Reconstruction

The Special Inspector General for Iraq Reconstruction issued 28 testimonies relating to
Operation Iraqi Freedom and other actions in Iraq. To obtain electronic copies of the
testimonies, please visit http://www.sigir.mil/publications/testimony/index.html.

SIGIR Testimony No. SIGIR 09-002T, “Effective Counterinsurgency How the Use and
Misuse of Reconstruction Funding Affects the War Effort,” March 25, 2009

SIGIR Testimony No. SIGIR 09-001T, “Hard Lessons The Iraq Reconstruction
Experience,” February 2, 2009

SIGIR Testimony No. SIGIR 08-002T, “The Effectiveness of U.S. Efforts to Combat
Corruption, Waste, Fraud and Abuse in Iraq,” March 11, 2008

SIGIR Testimony No. SIGIR 08-001T, “Improving Contracting and Government
Oversight Of Contractors Performing Work In Contingency Operations,” January 24,
2008

SIGIR Testimony No. SIGIR 07-017T, “Assessing an Effective Diplomatic and
Development Program in Iraq An Examination of the Diploma,” October 30, 2007

SIGIR Testimony No. SIGIR 07-016T, “Effectiveness of the Provincial Reconstruction
Team Program in Iraq,” October 18, 2007

SIGIR Testimony No. SIGIR 07-015T, “Assessing the State of Iraqi Corruption,”
October 4, 2007

SIGIR Testimony No. SIGIR 07-014T, “The Role of the Department of Defense in
Provincial Reconstruction Teams,” September 5, 2007

SIGIR Testimony No. SIGIR 07-013T, “The Costs of Military Operations and
Reconstruction in Iraq and Afghanistan,” July 31, 2007

SIGIR Testimony No. SIGIR 07-012T, “War Profiteering and Other Contractor Crimes
Committed Overseas,” June 19, 2007

SIGIR Testimony No. SIGIR 07-011T, “Is Iraq Reconstruction Failing,” May 22, 2007

SIGIR Testimony No. SIGIR 07-010T, “Contracting in Iraq Reconstruction,” May 10,
2007

SIGIR Testimony No. SIGIR 07-009T, “Can Iraq Pay for Its Own Reconstruction,”
March 27, 2007

                                           73
SIGIR Testimony No. SIGIR 07-008T, “SIGIR Lessons Learned Program Project
Management,” March 22, 2007

SIGIR Testimony No. SIGIR 07-007T, “SIGIR Investigations in Iraq,” March 20, 2007

SIGIR Testimony No. SIGIR 07-006T, “Iraq Security Forces,” March 9, 2007

SIGIR Testimony No. SIGIR 07-005T, “U.S. Contracting in Iraq,” February 15, 2007

SIGIR Testimony No. SIGIR 07-004T, “Review of Iraq Reconstruction Oversight,”
February 8, 2007

SIGIR Testimony No. SIGIR 07-003T, “United States Involvement in Iraq
Reconstruction,” February 7, 2007

SIGIR Testimony No. SIGIR 07-001T, “Review of Iraq Reconstruction,” January 18,
2007

SIGIR Testimony No. SIGIR 06-005T, “Oversight Hearing on Reconstruction
Contracting in Iraq,” September 28, 2006

SIGIR Testimony No. SIGIR 06-004T, “Iraq Reconstruction Lessons Learned in
Contracting and Procurement,” August 2, 2006

SIGIR Testimony No. SIGIR 06-003T, “Review of Iraq Reconstruction,” June 8, 2006

SIGIR Testimony No. SIGIR 06-002T, “Hearing to Examine Iraq Stabilization and
Reconstruction,” February 8, 2006

SIGIR Testimony No. SIGIR 06-001T, “Hearing on Contracting Issues in Iraq,” February
7, 2006

SIGIR Testimony No. SIGIR 05-003T, “Hearing on Iraq Perceptions, Realities and Cost-
to-Complete,” October 18, 2005

SIGIR Testimony No. SIGIR 05-002T, “Oversight Hearing on Iraq Reconstruction,”
September 7, 2005

SIGIR Testimony No. SIGIR 05-001T, “The Development Fund for Iraq,” June 21, 2005

Special Inspector General for Afghanistan Reconstruction

The Special Inspector General for Afghanistan Reconstruction issued 2 testimonies
relating to Operation Enduring Freedom and other actions in Afghanistan. To obtain
electronic copies of the reports, please visit http://www.sigar.mil/reports/testimony.aspx.

SIGAR Testimony No. SIGAR-09-002T, “Afghanistan and Pakistan: Accountability
Community Oversight of a New Interagency Strategy,” September 9, 2009




                                            74
SIGAR Testimony No. SIGAR-09-001T, “Effective Counterinsurgency: How the use and
misuse of reconstruction funding affects the war effort in Iraq and Afghanistan,” March
25, 2009

Commission on Wartime Contracting

The Commission on Wartime Contracting held five hearings and testified at one
congressional hearing in FY 2009 related to Operations Iraqi Freedom and Enduring
Freedom and other contracting issues in SWA. It published 48 documents related to
these hearings. To obtain electronic copies of the reports, please visit
http://wartimecontracting.gov/index.php/hearings/46-commission.

      CWC Hearing on State Department Contractor Oversight and Conduct,
                             September 14, 2009

“State Dept Contractor Oversight Transcript,” September 14, 2009

“State Dept. Oversight of Conduct CWC Co-Chairs Opening Statement,”
September 14, 2009

“Ms. Danielle Brian, POGO, Statement,” September 14, 2009

“Mr. William Ballhaus, DynCorp Intl, Statement,” September 14, 2009

“Mr. Terry Pearson Statement,” September 14, 2009

“Mr. Samuel Brinkley, AGNA, Statement,” September 14, 2009

“Mr. Patrick Kennedy, DoS, Statement,” September 14, 2009

“Mr. Doug Brooks, IPOA Statement,” September 14, 2009

                    CWC Hearing on Linguist Support Services,
                               August 12, 2009

“Linguist Support Services in Theater Opening Statement,” August 12, 2009

“Transcript-Linguist Support Contracts,” August 12, 2009

“Ms. April Stephenson, DCAA, Statement,” August 12, 2009

“Mr. Thomas Miller, L-3, Statement,” August 12, 2009

“Mr. John Isgrigg, U.S. Army Intelligence and Security Command, Statement,”
August 12, 2009


                                          75
“Mr. John Houck, Global Linguist Solutions LLC, Statement,” August 12, 2009

“Mr. Greg Schmidt, Northrop Grumman Statement,” August 6, 2009

                  CWC Hearing on Contractor Business Systems,
                               August 11, 2009

“Transcript - Contractor Business Systems Hearing,” August 11, 2009

“Contractor Business Systems Opener, Statement of COWC Co-Chairs,”
August 11, 2009

“Mr. David Methot, Fluor Corp. Statement,” August 11, 2009

“Ms. April Stephenson, DCAA, Statement,” August 11, 2009

“Mr. William Walter, KBR, Statement,” August 11, 2009

“Mr. William Ballhaus, DynCorp, Statement,” August 11, 2009

“Mr. Jeffrey Parsons, U.S. Army Contracting Command, Statement,” August 11, 2009

“Mr. David Ricci, DCMA statement,” August 11, 2009

“Mr. Charlie Williams, DCMA Response letter to 08/11/2009 hearing,” August 21, 2009

          CWC Congressional Hearing on Interim Report, June 10, 2009

CWC Testimony: “Commission on Wartime Contracting: Interim Findings and Path
Forward,” June 10, 2009

     CWC Hearing on LOGCAP: Support-Contracting Challenges in Iraq and
                        Afghanistan, May 4, 2009

“KBR Statement for the Record, LOGCAP hearing,” May 4, 2009

“Mr. Grant Green, LOGCAP Statement,” May 4, 2009

“Ms. April Stephenson, DCAA, testimony,” May 4, 2009

“Mr. Michael Thibault, LOGCAP opening statement,” May 4, 2009

“Mr. Lee Thompson, U.S. Army Materiel Command, LOGCAP testimony,” May 4, 2009

“The Honorable Mr. John Tierney statement, LOGCAP hearing,” May 4, 2009



                                         76
“Transcript - LOGCAP Hearing,” May 4, 2009

“Mr. Charlie Williams, DCMA, statement,” May 4, 2009

“Mr. Jeffrey Parsons, Army Contracting Command, testimony,” May 4, 2009

“LOGCAP: Support- Contracting Challenges in Iraq and Afghanistan Witness List,”
May 4, 2009

    CWC Hearing on Lessons from the Inspectors General: Improving Wartime
                       Contracting, February 2, 2009

“Testimony of State Dept IG,” February 2, 2009

“Statement of Senator Webb,” February 2, 2009

“Statement of Senator McCaskill,” February 2, 2009

“Statement of Senator Collins,” February 2, 2009

“Statement of Commissioner Robert J Henke,” February 2, 2009

“Statement of Commissioner Linda J Gustius,” February 2, 2009

“Statement of Commissioner Dov S. Zakheim,” February 2, 2009

“Statement of Commissioner Clark K Ervin,” February 2, 2009

“Statement of Commissioner Charles Tiefer,” February 2, 2009

“Joint Statement Michael Thibault and Grant Green, COWC Co-Chairs,”
February 2, 2009

“Transcript: Lessons from the Inspectors General: Improving Wartime Contracting,”
February 2, 2009

“Testimony of USAID OIG,” February 2, 2009

“Testimony of Mr. Stuart Bowen, SIGIR,” February 2, 2009

“Testimony of DODIG,” February 2, 2009




                                          77
Appendix D. Department of State Office of
Inspector General
Department of State OIG opened its first permanent office outside of the United States in
January 2008, when the Middle East Regional Office (MERO) began operations in
Amman, Jordan. Located at the U.S. Embassy in Amman, MERO is the principal office
for planning, coordinating, and execution of OIG activities in an area spanning 33
countries from Northern Africa, to the traditional Middle East and South/Central Asia. In
addition to its Embassy Amman location, MERO also has four satellite offices in
Embassy Baghdad, Embassy Cairo, Embassy Kabul, and Embassy Islamabad. The
MERO main office is located in Washington, DC.

MERO’s forward regional presence has significantly enhanced OIG’s ability to identify
potential savings and cost efficiencies, and provide real-time information on matters
affecting high-cost, high-risk Department programs in critical crisis and post-conflict
areas, such as Iraq, Afghanistan, Pakistan, Lebanon, and other countries throughout the
region. Staff in these offices come from various disciplines, and they are able to
efficiently conduct regional audits, evaluations, and program reviews as necessary, with
little direct guidance or supervision. MERO also proactively assists the Department’s
Office of the Coordinator for Reconstruction and Stabilization through increased
oversight of post-conflict and anti-corruption activities.

Examples of the types of reviews and audits DoS OIG conduct of programs and contracts
are overseas construction, civilian police training, diplomatic security (World Wide
Personal Protection Services contract), anti-corruption and justice reform, anti-terrorism
awareness, Embassy service and maintenance contracts, counternarcotics, refugee
assistance, and public diplomacy.
DoS IG issued 96 reports from January 31, 2003, to August 31, 2009, relating to
operations in and around SWA. To obtain electronic copies of DoS IG reports, please
visit http://oig.state.gov/lbry/index.htm.

DoS IG Report No. MERO-A-09-08, “Performance Audit of the U.S. Training Center
Contract for Personal Protective Services in Afghanistan,” August 31, 2009

DoS IG Report No. MERO-IQO-09-09, “Review of the Roles, Staffing, and
Effectiveness of the Regional Embassy Offices in Iraq,” August 18, 2009

DoS IG Report No. MERO-IQO-09-06, “Performance Audit of the DynCorp Contract for
Personal Protective Services in Iraq,” July 2, 2009

DoS IG Report No. AUD/IQO-09-16, “Joint Audit of Blackwater Contract and Task
Orders for Worldwide Personal Protective Service in Iraq,” June 11, 2009

DoS IG Report No. MERO-I-09-07, “Limited Scope Audit of Management/Internal
Controls over the J. William Fullbright Scholarship Fund, Pakistan,” May 24, 2009

                                            78
DoS IG Report No. ISP-S-09-28A, “Review of U.S. Policy relative to Petroleum-Sector
Contracting in Iraq,” March 16, 2009

DoS IG Report No. ISP-I-09-28A, “Audit of Procurement Competition for the New
Embassy Compound at Baghdad, Iraq,” February 6, 2009

DoS IG Report No. MERO-IQO-09-02, “Review of Diplomatic Security’s Management
of Personal Protective Services in Iraq,” January 7, 2009

DoS IG Report No. ISP-S-09-01A, “Classified Annex to the Inspection of Embassy
Tripoli, Libya,” December 23, 2008

DoS IG Report No. ISP-I-09-01A, “Inspection of Tripoli, Libya,” December 23, 2008

DoS IG Report No. MERO-IQO-09-01, “Status of the Secretary of State’s Panel on
Personal Protective Services in Iraq Report Recommendations,” December 13, 2008

DoS IG Report No. ISP-I-08-50, “Limited-Scope Inspection of Embassy Tashkent,
Uzbekistan,” August 14, 2008

DoS IG Report No. ISP-I-08-46, “Limited-Scope Inspection of Embassy Ashgabat,
Turkmenistan,” August 11, 2008

DoS IG Report No. MERO-IQO-08-01, “Status of Iraqi Special Immigrant Visa
Programs,” July 31, 2008

DoS IG Report No. ISP-S-08-14A, “Inspection of Embassy Bishkek, Kyrgyzstan,”
February 29, 2008

DoS IG Report No. ISP-I-08-14A, “Inspection of Embassy Bishkek, Kyrgyzstan,”
February 29, 2008

DoS IG Report No. ISP-S-08-17A, “Inspection of Embassy Dushanbe, Tajikistan,”
February 29, 2008

DoS IG Report No. ISP-I-08-17A, “Inspection of Embassy Dushanbe, Tajikistan,”
February 29, 2008

DoS IG Report No. ISP-S-08-11A, “Inspection of Embassy Astana & Branch Office
Almaty, Kazakhstan,” February 12, 2008

DoS IG Report No. ISP-I-08-11A, “Inspection of Embassy Astana & Embassy Branch
Office Almaty, Kazakhstan,” February 12, 2008




                                         79
DoS IG Report No. ISP-I-08-09, “Inspection of Rule-of-Law Programs in Afghanistan,”
January 31, 2008

DoS IG Report No. ISP-S-08-02A, “Inspection of Embassy Algiers, Algeria,” January
15, 2008

DoS IG Report No. ISP-I-08-02A, “Inspection of Embassy Algiers, Algeria,” January 15,
2008

DoS IG Report No. ISP-S-08-03A, “Inspection of Embassy Tunis, Tunisia,” January 9,
2008

DoS IG Report No. ISP-I-08-03A, “Inspection of Embassy Tunis, Tunisia,” January 9,
2008

DoS IG Report No. ISP-S-08-04A, “Inspection of Rabat & Consulate General
Casablanca, Morocco,” December 19, 2007

DoS IG Report No. ISP-IB-08-05, “Inspection of International Broadcasting Bureau’s
Morocco Transmitting Station,” December 19, 2007

DoS IG Report No. ISP-I-08-04A, “Inspection of Embassy Rabat & Consulate General
Casablanca, Morocco,” December 19, 2007

DoS IG Report No. AUD/IQO-07-48, “Accounting for Government-Owned Personal
Property Held by Selected Contractors in Afghanistan,” September 30, 2007

DoS IG Report No. ISP-I-07-34, “Interagency Assessment of Afghanistan
Counternarcotics Programs,” August 2, 2007

DoS IG Report No. AUD/IQO-07-20, “Review of DynCorp International, LLC, Contract
Number S-LMAQM-04-C-0030, Task Order 0338, for the Iraqi Police Training Program
Support,” January 30, 2007

DoS IG Report No. ISP-IQO-07-07, “Interagency Assessment of Afghanistan Police
Training & Readiness Program,” November 15, 2006

DoS IG Report No. ISP-IQO-06-50, “Survey of Anticorruption Programs, Embassy
Baghdad, Iraq,” August 15, 2006

DoS IG Report No. AUD/IQO-06-30, “Survey of the Status of Funding for Iraq Programs
Allocated to the Department of State’s Bureau of International Narcotics & Law
Enforcement Affairs as of 12/31/2005,” August 3, 2006

DoS IG Report No. ISP-S-06-19A, “Security Management Review of Embassy Sanaa,
Yemen,” March 17, 2006

                                         80
DoS IG Report No. ISP-I-06-19A, “Inspection of Embassy Sanaa, Yemen,” March 17,
2006

DoS IG Report No. ISP-IB-06-02, “The Broadcasting Board of Governors’ Operations in
& Broadcasting to Afghanistan,” March 14, 2006

DoS IG Report No. ISP-S-06-14A, “Security Management Inspection of Embassy
Riyadh, Saudi Arabia, & Constituent Posts,” March 13, 2006

DoS IG Report No. ISP-I-06-14A, “Embassy Riyadh Saudi Arabia, & Constituent Posts,”
March 13, 2006

DoS IG Report No. AUD/IQO-06-16, “Review of Department Procurement Competitions
to Support Armored Vehicles in Iraq,” March 3, 2006

DoS IG Report No. ISP-S-06-21A, “Security Management Inspection of Embassy
Manama, Bahrain,” February 28, 2006

DoS IG Report No. ISP-I-06-21A, “Inspection of Embassy Manama, Bahrain,” February
28, 2006

DoS IG Report No. ISP-S-06-13A, “Security Management Inspection Embassy Kabul,
Afghanistan,” January 20, 2006

DoS IG Report No. ISP-I-06-13A, “Embassy Kabul, Afghanistan,” January 20, 2006

DoS IG Report No. ISP-IB-05-67, “The Broadcasting Board of Governor’s Operations in
& Broadcasting to Pakistan,” September 30, 2005

DoS IG Report No. ISP-S-05-35A, “Security Management Inspection of Embassy
Islamabad, Pakistan, & Constituent Posts,” September 13, 2005

DoS IG Report No. ISP-I-05-35A, “Inspection of Embassy Islamabad, Consulate General
Karachi, & Consulates Lahore & Peshawar, Pakistan,” September 13, 2005

DoS IG Report No. ISP-IB-05-66, “Inspection of the Broadcasting Board of Governors’
(BBG) Operations in India,” August 19, 2005

DoS IG Report No. ISP-S-05-13A, “Security Management Review of Embassy Tel Aviv,
Israel,” August 18, 2005

DoS IG Report No. ISP-I-05-13A, “Inspection of Embassy Tel Aviv, Israel,” August 18,
2005




                                         81
DoS IG Report No. ISP-S-05-21A, “Security Management Inspection of Embassy New
Delhi, India,” August 16, 2005

DoS IG Report No. ISP-I-05-21A, “Inspection of Embassy New Delhi, India,” August
16, 2005

DoS IG Report No. ISP-S-05-17A, “Security Management Inspection of Embassy
Damascus, Syria,” August 10, 2005

DoS IG Report No. ISP-I-05-17A, “Inspection of Embassy Damascus, Syria,” August 10,
2005

DoS IG Report No. ISP-S-05-16A, “Security Management Inspection of Embassy Beirut,
Lebanon,” July 26, 2005

DoS IG Report No. ISP-I-05-16A, “Inspection of Embassy Beirut, Lebanon,” July 26,
2005

DoS IG Report No. ISP-IQO-05-72, “Review of Iraqi Police Training (joint State/DoD
report),” July 15, 2005

DoS IG Report No. ISP-C-05-22, “Compliance Follow-up Review of Embassy
Kathmandu, Nepal,” July 6, 2005

DoS IG Report No. AUD/CG-05-25, “Report on Applying Agreed-Upon Procedures
Export Control & Related Border Security Assistance Program Kazakhstan, Kyrgyzstan,
& Uzbekistan,” June 21, 2005

DoS IG Report No. IT-IQO-05-04, “Survey of Iraq IT Waivers,” June 6, 2005

DoS IG Report No. AUD/CG-05-18, “Survey of Department of State’s Funding for Iraq,”
March 18, 2005

DoS IG Report No. ISP-S-05-10A, “Security Management Review of Embassy
Bucharest, Romania,” March 16, 2005

DoS IG Report No. ISP-I-05-10A, “Inspection of Embassy Bucharest, Romania,” March
16, 2005

DoS IG Report No. ISP-I-05-04A, “Inspection of Embassy Cairo & American Presence
Post in Alexandria, Egypt,” March 15, 2005

DoS IG Report No. ISP-S-05-04A, “Security Inspection of Embassy Cairo, Egypt, & the
American Presence Post in Alexandria,” March 15, 2005




                                         82
DoS IG Report No. IBO/IQO-A-05-02, “Review of Radio Sawa Support to the Transition
in Post-Saddam Iraq,” November 19, 2004

DoS IG Report No. AUD-PPA-04-45, “Review of Allegations Concerning DynCorp
International’s Worldwide Personal Protective Services Contract in Afghanistan,”
September 30, 2004

DoS IG Report No. AUD/IQO-04-47, “Procurement Competitions to Support the Iraqi
Police Training Program,” September 30, 2004

DoS IG Report No. AUD/CG-04-41, “Factsheet on the Iraqi National Congress Support
Foundation,” August 2, 2004

DoS IG Report No. SIO-I-04-19A, “Security Inspection of Embassy Abu Dhabi, &
Consulate General Dubai, United Arab Emirates,” August 2, 2004

DoS IG Report No. ISP-I-04-19A, “Inspection of Embassy Abu Dhabi & Consulate
General Dubai, United Arab Emirates,” August 2, 2004

DoS IG Report No. ISP-I-04-26A, “Inspection of Embassy Muscat, Oman,” July 22,
2004

DoS IG Report No. SIO-C-04-26A, “Security Compliance Follow-up Review of
Embassy Muscat, Oman,” July 20, 2004

DoS IG Report No. SIO-I-04-20A, “Security Inspection of Embassy Ankara, Turkey, &
Constituent Posts,” July 15, 2004

DoS IG Report No. ISP-I-04-20A, “Inspection of Embassy Ankara, Turkey, &
Constituent Posts,” July 15, 2004

DoS IG Report No. IT-I-04-01, “IT Security Inspection of Embassy Bucharest,
Romania,” July 1, 2004

DoS IG Report No. ISP-I-04-23A, “Inspection of Embassy Doha, Qatar,” June 30, 2004

DoS IG Report No. SIO-I-04-23A, “Security Inspection of Embassy Doha, Qatar,” June
29, 2004

DoS IG Report No. ISP-I-04-35, “Management Assessment Review of Embassy Kabul,
Afghanistan,” June 22, 2004

DoS IG Report No. SIO-I-04-24A, “Security Inspection of Embassy Kuwait, Kuwait,”
June 8, 2004




                                         83
DoS IG Report No. ISP-I-04-24A, “Inspection of Embassy Kuwait, Kuwait,” June 8,
2004

DoS IG Report No. IBO-I-04-04, “Inspection of the International Broadcasting Bureau’s
Kuwait Transmitting Station,” April 16, 2004

DoS IG Report No. IBO-I-04-02, “Inspection of the International Broadcasting Bureau’s
Transmitting Station in Sri Lanka,” March 31, 2004

DoS IG Report No. ISP-I-04-09A, “Embassy Kathmandu, Nepal,” March 3, 2004

DoS IG Report No. SIO-I-04-09A, “Security Inspection of Embassy Kathmandu, Nepal,”
March 2, 2004

DoS IG Report No. ISP-I-04-03A, “Embassy Colombo, Sri Lanka,” February 9, 2004

DoS IG Report No. SIO-I-04-04A, “Security Inspection of Embassy Dhaka,
Bangladesh,” February 5, 2004

DoS IG Report No. SIO-I-04-03A, “Security Inspection of Embassy Colombo, Sri
Lanka,” February 5, 2004

DoS IG Report No. SIO-I-03-02, “Limited Scope Security Inspection of Embassy
Almaty, Kazakhstan,” December 4, 2003

DoS IG Report No. SIO-I-03-16, “Security Inspection of Embassy Abu Dhabi, United
Arab Emirates, & Consulate General Dubai,” February 27, 2003

DoS IG Report No. ISP-I-03-01, “Embassy Almaty, Republic of Kazakhstan,” February
13, 2003

DoS IG Report No. ISP-I-03-02, “Inspection of Embassy Ashgabat, Turkmenistan,”
February 13, 2003

DoS IG Report No. SIO-I-03-17, “Security Inspection of Embassy Muscat, Oman,”
February 2, 2003

DoS IG Report No. ISP-I-03-04, “Inspection of Embassy Dushanbe, Republic of
Tajikistan,” January 31, 2003

DoS IG Report No. ISP-I-03-09, “Inspection of Embassy Tashkent, Republic of
Uzbekistan,” January 31, 2003




                                         84
Appendix E. U.S. Agency for International
Development Office of the Inspector General
USAID programs in Afghanistan, Pakistan, and Iraq are intended to promote and
strengthen a host of needs such as building democratic local governance systems for good
governance, providing the foundation for open, modern, mixed-market economies,
improving the quality of education, and providing reliable energy needs to citizens.
Recent USAID OIG audits have concluded that although these main goals have not yet
been achieved, some progress has been made on certain activities such as providing
training to locals and developing action plans and strategies. OIG audits made
recommendations to strengthen program monitoring and management, improve oversight
and evaluation of contractor and sub-contractor performance, and recover funds
overbilled to USAID.

USAID OIG issued 272 reports and products from March 2003 to September 29, 2009
related to Afghanistan, Pakistan, and Iraq. To obtain electronic copies of USAID OIG
reports and OIF/OEF related products, please visit
http://www.usaid.gov/oig/public/public1.htm.

USAID OIG Report No. 5-306-09-021-R, “Financial Audit of the Program “Regenerating
Murad Khane, Restoring, Refurbishing and Revitalizing the Old City,”
USAID/Afghanistan Cooperative Agreement No. 306-A-00-09-00503-00, Managed by
the Turquoise Mountain Trust (TMT), for the Period from November 2, 2008 to
December 31, 2008,” September 29, 2009

USAID OIG Report No. 5-306-09-002-D, “Audit of Costs Incurred and Billed by
BearingPoint, Inc., USAID/Afghanistan Contract No. 306-C-00-03-00001-00, for the
Period from November 1, 2002 to December 15, 2005,” August 19, 2009

USAID OIG Report No. E-267-09-005-P, “Audit of USAID/Iraq’s Iraq Rapid Assistance
Program (IRAP),” August 16, 2009

USAID OIG Report No. 5-391-09-006-N, “Financial Audit of the Budgetary Support,
USAID/Pakistan Program Assistance Agreement Nos. 391-005-ES-05 and 391-005-ES-
06, Managed by the Ministry of Finance, Government of Pakistan, for the years ended
June 30, 2006 and 2007,” August 13, 2009

USAID OIG Report No. E-267-09-018-D, “DCAA Evaluation Report on BearingPoint,
Inc.’s Purchase Existence and Consumption Practices in Baghdad, Iraq,” August 10, 2009

USAID OIG Report No. E-267-09-017-D, “Audit of Costs and Payments Made to
Business Systems House (BSH) by Research Triangle Institute (RTI) for the Period from
March 23, 2003 to September 30, 2007,” August 3, 2009



                                          85
USAID OIG Report No. E-267-09-016-D, “Audit on Costs Verified for BearingPoint,
Inc. under USAID Contract No. 267-C-00-04-00405-00 for the Period October 1, 2007
through May 15, 2009,” July 20, 2009

USAID OIG Report No. E-267-09-015-D, “DCAA Evaluation Report on Floor Checks of
BearingPoint’s Financial Management Information System Project Employees in Iraq,”
July 14, 2009

USAID OIG Report No. E-267-09-014-D, “Audit of Costs Incurred and Billed by
International Business and Technical Consultants, Inc. under USAID Contract No. 267-
C-00-05-00508-00 for the Period of January 1, 2007 through December 31, 2007,” June
25, 2009

USAID OIG Report No. E-267-09-013-D, “Audit of Direct Costs Incurred by Research
Triangle Institute under Contract No. 267-C-00-05-00505-00 from January 1, 2007
through December 31, 2007,” June 25, 2009

USAID OIG Report No. 5-391-09-013-R, “Financial Audit of the Developing Non-
Bankable Territories for Financial Services Program, USAID/Pakistan Cooperative
Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank, for the Period
from January 1 to December 31, 2007,” June 25, 2009

USAID OIG Report No. 5-306-09-005-N, “Financial Audit of Local Costs Incurred by
the Joint Venture Louis Berger Group, Inc./Black & Veatch Special Projects Corp. to
implement the Afghanistan Infrastructure Rehabilitation Program, USAID/Afghanistan
Contract No. 306-I-00-06-00517, for the Period from August 25, 2006 to September 30,
2007,” June 25, 2009

USAID OIG Report No. 5-306-09-001-D, “Audit of Costs Incurred in the United States
by The Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities
and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from January 1, 2007 to May 31, 2008,” June 18, 2009

USAID OIG Report No. 5-306-09-004-P, “Audit of USAID/Afghanistan’s Land Titling
and Economic Restructuring in Afghanistan Project,” June 8, 2009

USAID OIG Report No. E-267-09-004-P, “Audit of USAID/Iraq’s Economic
Governance II Program,” June 3, 2009

USAID OIG Report No. E-267-09-012-D, “Audit of Costs Recorded by Sabre
International Security under USAID Cooperative Agreement No. 267-A-00-06-00507-00
for the Period of September 30, 2006 through September 30, 2007, and USAID
Agreement No. 267-A-00-06-00503-00 for the Period May 29, 2006 through September
30, 2007,” June 2, 2009




                                          86
USAID OIG Report No. E-267-09-003-P, “Audit of USAID/Iraq’s Local Governance
Program II Activities,” May 31, 2009

USAID OIG Report No. E-267-09-011-D, “Audit of Direct Costs Incurred and Billed by
CHF International under USAID Agreement No. AFP-A-00-03-00004-00 (ICAP I) for
August 1, 2005 through April 30, 2007, and USAID Agreement No. 267-A-00-06-00507-
00 (ICAP II) for September 30, 2006 through September 30, 2007,” May 28, 2009

USAID OIG Report No. 5-391-09-002-N, “Financial Audit of USAID/Pakistan’s Rupee
Trust Fund for Operating Expenses, for Fiscal Years Ended September 30, 2005 and
2006,” May 11, 2009

USAID OIG Report No. 5-306-09-003-P, “Audit of USAID/Afghanistan’s Local
Governance and Community Development Project in Southern and Eastern Regions of
Afghanistan,” May 11, 2009

USAID OIG Report No. E-267-09-010-D, “Report on the Application of Agreed-Upon
Procedures on Bechtel National Inc.’s Settlement of Subcontractors’ Requests for
Equitable Adjustments-Iraq Infrastructure Reconstruction Project Phase I and II Contract
Nos. EEE-C-00-03-00018-00 and SPU-C-00-04-00001-00,” May 8, 2009

USAID OIG Report No. 5-391-09-008-R, “Financial Audit of the College Improvement
Program, USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00, Managed by
Forman Christian College, Lahore (FCC), for the Period from August 23, 2004 to June
30, 2007,” April 30, 2009

USAID OIG Report No. 5-391-09-001-Q, “Quality Control Review of the Audit Report
and Audit Documentation for the Financial Audit Conducted by A.F. Ferguson & Co. of
the College Improvement Program, USAID/Pakistan Grant Agreement No. 391-G-00-04-
01036-00, Managed by Forman Christian College, Lahore (FCC), for the Period from
August 23, 2004 to June 30, 2007,” April 30, 2009

USAID OIG Report No. 5-391-09-007-R, “Financial Audit of the Aga Khan University -
Examination Board (AKU-EB), USAID/Pakistan Cooperative Agreement No. 391-A-00-
03-01003-00, for the Period from January 1, 2006, to December 31, 2006,” April 29,
2009

USAID OIG Report No. E-267-09-008-D, “Audit of Costs Incurred and Billed by Louis
Berger Group, Inc. (LBGI) under Contract No. 267-C-00-07-00500-00 for the Period
from May 14, 2007 to May 13, 2008,” March 8, 2009

USAID OIG Report No. E-267-09-002-P, “Audit of USAID/Iraq’s Oversight of Private
Security Contractors in Iraq,” March 4, 2009




                                           87
USAID OIG Report No. E-267-09-007-D, “Audit of Costs Incurred and Billed by Save
the Children Federation, Inc. under Cooperative Agreement No. AFP-A-00-03-00005-00
for the Period from August 1, 2004 to April 1, 2006,” January 28, 2009

USAID OIG Report No. E-267-09-006-D, “Audit of the Costs Incurred and Billed by
Development Alternatives, Inc. (DAI) under USAID Contract No. RAN-C-00-04-00002-
00 for the Period July 1, 2006 through December 31, 2006,” January 27, 2009

USAID OIG Report No. 5-391-09-006-R, “Financial Audit of the Interactive Teaching
and Learning Program in Pakistan, USAID/Pakistan Cooperative Agreement No. 391-A-
00-06-01075-00, Managed by the Children’s Resources International Pakistan (G)
Limited (CRI Pakistan), for the Period from March 1, 2006, to June 30, 2007,” December
15, 2008

USAID OIG Report No. 5-306-09-002-P, “Audit of USAID/Afghanistan’s Higher
Education Project,” December 4, 2008

USAID OIG Report No. E-267-09-001-P, “Audit of USAID/Iraq’s National Capacity
Development Program,” November 25, 2008

USAID OIG Report No. 5-391-09-001-P, “Audit of USAID/Pakistan’s Earthquake
Reconstruction Activities,” November 25, 2008

USAID OIG Report No. E-267-09-005-D, “Audit of Costs Incurred and Billed by the
Services Group, Inc. under Contract No. 267-C-00-04-00435-00 for the Period of
October 1, 2006 through September 30, 2007,” November 14, 2008

USAID OIG Report No. E-267-09-004-D, “Audit of Costs Incurred and Billed by
Management Systems International (MSI) under USAID Contract No. DFD-I-01-05-
00221-00 for the Period July 27, 2006, through September 30, 2007,” November 14,
2008

USAID OIG Report No. E-267-09-003-D, “Audit of Costs Incurred and Billed by
International Relief & Development, Inc. under Cooperative Agreement No. AFP-A-00-
03-00002-00 from November 1, 2005 through March 31, 2007,” November 14, 2008

USAID OIG Report No. E-267-09-001-D, “Audit of the Costs Incurred and Billed by
International Relief and Development, Inc. (IRD) under USAID Cooperative Agreement
No. 267-A-00-06-00503-00 for the Period May 29, 2006, through September 30, 2007,”
November 14, 2008

USAID OIG Report No. E-267-08-006-P, “Audit of USAID/Iraq’s Agribusiness
Program,” September 30, 2008

USAID OIG Report No. 5-306-08-012-P, “Audit of USAID/Afghanistan’s Capacity
Development Program,” September 30, 2008

                                         88
USAID OIG Report No. 5-391-08-035-R, “Financial Audit of the Program Titled
“Improved Pakistani Family Planning and Reproductive Health Services,”
USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by the
Greenstar Social Marketing Pakistan (Guarantee) Limited (Greenstar), for the Period
From July 1, 2006, to June 30, 2007,” September 26, 2008

USAID OIG Report No. 5-391-08-034-R, “Financial Audit of the Program Titled
“Improved Pakistani Family Planning and Reproductive Health Services,”
USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by the
Greenstar Social Marketing Pakistan (Guarantee) Limited (Greenstar), for the Period
From July 1, 2005, to June 30, 2006,” September 25, 2008

USAID OIG Report No. 5-391-08-032-R, “Financial Audit of the Program Title
“Improved Pakistani Family Planning and Reproductive Health Services,”
USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by the
Greenstar Social Marketing Pakistan (Guarantee) Limited (Greenstar), for the Period
From July 1, 2004, to June 30, 2005,” September 19, 2008

USAID OIG Report No. 5-391-08-030-R, “Closeout Audit of the Programs Titled
“Rewarding Innovation at the District Level, “ USAID/Pakistan Cooperative Agreement
No. 391-A-00-03-01015-00 for the Period from July 1, 2005 to March 31, 2006, and
“Establishing Tent Schools and Cash for Work Program, “ Grant Agreement No. 391-G-
00-06-0169-00 for the Period from December 9, 2005, to June 15, 2006; Managed by
Rural Support Programmes Network (RSPN),” August 27, 2008

USAID OIG Report No. 5-391-08-005-N, “Financial Audit of the Project Titled “
Technical Assistance and Training to Improve Project and Financial Management of
Provincial and District Health and Population Welfare Services in Pakistan, “
USAID/Pakistan Limited Scope Grant Agreement No. 391-G-00-04-01020-00, Managed
by the Options Consultancy Services Limited (Options) - Technical Assistance
Management Agency (TAMA), for the Period from January 1, 2004, to March 31, 2006,”
August 20, 2008

USAID OIG Report No. 5-391-08-029-R, “Closeout Audit of the Enterprise
Development Facility Program, Cooperative Agreement No. 391-A-00-03-01010-00,
Managed by the Pakistan Poverty Alleviation Fund (PPAF) for the Period from July 1,
2006, to September 30, 2007,” August 15, 2008

USAID OIG Report No. E-267-08-014-D, “Audit of Costs Incurred and Billed by
International Relief and Development, Inc. under USAID Cooperative Agreement No.
AFP-A-00-03-00002-00 for the Period November 1, 2005 through March 31, 2007,”
August 12, 2008

USAID OIG Report No. 5-306-08-009-P, “Audit of USAID/Afghanistan’s Accelerating
Sustainable Agriculture Program,” August 8, 2008

                                         89
USAID OIG Report No. E-267-08-005-P, “Audit of USAID/Iraq’s Community Action
Program II,” August 5, 2008

USAID OIG Report No. E-267-08-013-D, “Audit of the Subcontract Costs Submitted by
Sallyport Global Services Ltd. (Sallyport) for Security Services and Life Support
Services under USAID Prime Contract No. 267-C-00-04-00435-00 with the Louis Berger
Group, Inc. for the Period October 1, 2006 through September 30, 2007,” July 6, 2008

USAID OIG Report No. E-267-08-004-P, “Audit of USAID/Iraq’s Monitoring and
Evaluation Performance Program,” July 3, 2008

USAID OIG Report No. 5-391-08-027-R, “Financial Audit of the Aga Khan University -
Examination Board (AKU-EB), USAID/Pakistan Cooperative Agreement No. 391-A-00-
03-01003-00, for the Period from January 1, 2005 to December 31, 2005,” July 2, 2008

USAID OIG Report No. E-267-08-003-P, “Audit of USAID/Iraq’s Management of Its
Official Vehicle Fleet,” June 24, 2008

USAID OIG Report No. 5-306-08-006-P, “Audit of USAID/Afghanistan’s Small and
Medium Enterprise Development Activity,” June 23, 2008

USAID OIG Report No. E-267-08-012-D, “Audit of Costs Incurred and Billed by the
Louis Berger Group, Inc. under Contract No. 267-C-00-04-00435-00 from October 1,
2006 through September 30, 2007,” May 27, 2008

USAID OIG Report No. E-267-08-011-D, “Audit of Costs Incurred by Mercy Corps
under USAID Cooperative Agreement No. AFP-A-00-03-00001-00 from August 1, 2004
through March 31, 2007,” May 20, 2008

USAID OIG Report No. 5-306-08-003-D, “Audit of Costs Incurred in the United States
by The Louis Berger Group, Inc. to implement the Rehabilitation of Economic Facilities
and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from July 1, 2006, to December 31, 2006,” May 16, 2008

USAID OIG Report No. E-267-08-010-D, “Audit of Costs Incurred and Billed by
Agricultural Cooperative Development International/Volunteers Overseas Cooperative
Assistance (ACDI/VOCA) under Cooperative Agreement No. AFP-A-00-03-00003-00
from August 1, 2004 to March 31, 2007,” May 13, 2008

USAID OIG Report No. 5-306-08-019-R, “Closeout Audit of the Project Titled
“Business Advisory Services to Small and Medium - Sized Enterprises (SMEs) in
Afghanistan,” USAID/Afghanistan Cooperative Agreement No. 306-A-00-04-00570-00,
Managed by Acap Management Limited, for the Period from September 30, 2004, to
March 29, 2007,” April 25, 2008



                                          90
USAID OIG Report No. E-267-08-009-D, “Audit of Costs Incurred and Billed by
BearingPoint, Inc. under Contract No. 267-C-00-04-00405-00 for the Period October 1,
2006 through September 30, 2007,” April 15, 2008

USAID OIG Report No. 5-391-08-017-R, “Financial Audit of the Developing Non-
Bankable Territories for Financial Services Program, USAID/Pakistan Cooperative
Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank, for the Period
from January 1, 2005, to December 31, 2006,” April 15, 2008

USAID OIG Report No. E-267-08-002-P, “Audit of USAID/Iraq’s Management of the
Maria Ruzicka Iraqi War Victims Fund,” April 3, 2008

USAID OIG Report No. 5-391-08-004-P, “Audit of USAID/Pakistan’s Education Sector
Reform Assistance Program,” March 28, 2008

USAID OIG Report No. E-267-08-001-P, “Audit of USAID/Iraq’s Community
Stabilization Program,” March 18, 2008

USAID OIG Report No. 5-306-08-003-P, “Audit of USAID/Afghanistan’s Alternative
Development Program–Southern Region,” March 17, 2008

USAID OIG Report No. E-267-08-008-D, “Audit of Costs Incurred and Billed by
International Business and Technical Consultants, Inc. under Contract No. 267-C-00-05-
00508-00 from January 1, 2006 through December 31, 2006,” March 6, 2008

USAID OIG Report No. E-267-08-007-D, “Audit of Costs Incurred and Billed by
IntraHealth International, Inc., under Its Subcontract No. 15-330-0208954 with Research
Triangle Institute Contract No. GHS-I-04-03-00028-00 for the Period April 26, 2005
through December 31, 2006,” February 24, 2008

USAID OIG Report No. E-267-08-006-D, “Audit of Costs Incurred and Billed by
Bechtel National, Inc. under Contract Nos. EEE-C-00-03-00018-00 (Phase I) and SPU-C-
00-04-00001-00 (Phase II) from November 1, 2006 to September 30, 2007,” February 12,
2008

USAID OIG Report No. E-267-08-005-D, “Audit of Costs Incurred and Billed by
Management Systems International under Contract No. AEP-I-00-00-0024-00, Task No.
08, from June 26, 2003 through May 31, 2005,” February 4, 2008

USAID OIG Report No. E-267-08-004-D, “Audit of Costs Incurred and Billed by
Creative Associates International, Inc. under Contract No. EPP-C-00-04-00004-00 from
July 1, 2005 through February 28, 2007,” February 4, 2008

USAID OIG Report No. E-267-08-003-D, “Audit of Costs Incurred and Billed by
America’s Development Foundation under Contract No. GEW-C-00-04-00001-00 from
October 1, 2006 through June 30, 2007,” January 23, 2008

                                          91
USAID OIG Report No. 5-306-08-001-P, “Audit of USAID/Afghanistan’s Agriculture,
Rural Investment and Enterprise Strengthening Program,” January 22, 2008

USAID OIG Report No. E-267-08-002-D, “Audit of Costs Incurred and Billed by
Sallyport Global Services Ltd. Under Its Subcontracts with the Louis Berger Group, Inc.
under USAID Contract Nos. 267-C-00-04-00417-00 for the Period September 27, 2004
through September 30, 2005 and 267-C-00-04-00435-00 for the Period August 1, 2005
through March 31, 2007,” December 17, 2007

USAID OIG Report No. 5-306-08-001-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from April 1, 2007, to June 30, 2007,” November 27, 2007

USAID OIG Report No. E-267-08-001-D, “Audit of Direct Costs Incurred and Billed by
Research Triangle Institute Under Contract No. GHS-I-04-03-00028-00 from April 26,
2005 to December 31, 2006,” October 4, 2007

USAID OIG Report No. 5-391-07-024-R, “Financial Audit of the Four Year Bachelor’s
Degree Program, USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00,
Managed by Forman Christian College, Lahore (FCC), for the Period from July 1, 2005,
to June 30, 2006,” September 28, 2007

USAID OIG Report No. E-267-07-008-P, “Audit of USAID/Iraq’s Participation in
Provincial Reconstruction Teams in Iraq,” September 27, 2007

USAID OIG Report No. E-267-07-024-D, “Audit of Costs Incurred and Billed by
Research Triangle Institute under Contract No. 267-C-00-05-00505-00 from January 1,
2006 to December 31, 2006,” September 20, 2007

USAID OIG Report No. E-267-07-023-D, “Audit of Costs Incurred and Billed by the
International Republican Institute under Cooperative Agreement No. REE-A-00-04-
00050-00 from July 26, 2004 through July 31, 2006,” September 12, 2007

USAID OIG Report No. E-267-07-022-D, “Audit of Costs Incurred and Billed by the
National Democratic Institute for International Affairs under Cooperative Agreement No.
AFP-A-00-04-00014-00 from July 9, 2004 to June 30, 2006,” September 12, 2007

USAID OIG Report No. E-267-07-021-D, “Audit of Costs Incurred and Billed by the
Louis Berger Group, Inc. under Contract No. 267-C-00-04-00417-00 for the Period
September 27, 2004 through September 30, 2005,” September 10, 2007

USAID OIG Report No. 5-306-07-009-P, “Audit of Selected Follow-on Activities under
USAID/Afghanistan’s Economic Program,” August 31, 2007



                                          92
USAID OIG Report No. 5-391-07-023-R, “Financial Audit of the Enterprise
Development Facility Program, Cooperative Agreement No. 391-A-00-03-01010-00,
Managed by the Pakistan Poverty Alleviation Fund for the Period from July 1, 2005, to
June 30, 2006,” August 22, 2007

USAID OIG Report No. E-267-07-020-D, “Audit of Costs Incurred and Billed by the
Louis Berger Group, Inc. under Contract No. 267-C-00-04-00435-00 for the Period
August 1, 2005 through September 30, 2006,” August 16, 2007

USAID OIG Report No. E-267-07-019-D, “Audit of Costs Incurred and Billed by the
Volunteers for Economic Growth Alliance under USAID Associate Cooperative
Agreement No. EGA-A-00-04-00002-00 for the Period July 7, 2004 through January 6,
2006,” August 12, 2007

USAID OIG Report No. E-267-07-018-D, “Audit of Costs Incurred and Billed by
Development Alternatives, Inc. under USAID Contract No. RAN-C-00-04-00002-00 for
the Period July 1, 2005 through November 30, 2006,” August 2, 2007

USAID OIG Report No. E-267-07-007-P, “Audit of USAID/Iraq’s Local Governance
Activities,” July 31, 2007

USAID OIG Report No. 5-391-07-020-R, “Financial Audit of the Program Titled
‘Improved Pakistani Family Planning and Reproductive Health Services,’
USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by the
Greenstar Social Marketing Pakistan (Guarantee) Limited (Greenstar), for the Period
from November 7, 2003, to June 30, 2004,” July 25, 2007

USAID OIG Report No. E-267-07-006-P, “Audit of the Office of Foreign Disaster
Assistance Program in Iraq,” July 11, 2007

USAID OIG Report No. 5-306-07-008-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from January 1, 2007, to March 31, 2007,” June 27, 2007

USAID OIG Report No. E-267-07-017-D, “Audit of Costs Incurred and Billed by the
International Republican Institute under Cooperative Agreement No. AFP-A-00-04-
00014-00 for the Period of November 1, 2005 through June 30, 2006,” June 19, 2007

USAID OIG Report No. E-267-07-016-D, “Audit of Costs Incurred and Billed by Abt
Associates, Inc. Under USAID Contract No. RAN-C-00-03-00010-00 for the Period
September 25, 2004 through November 30, 2004,” June 14, 2007

USAID OIG Report No. E-267-07-015-D, “Audit of Costs Billed by Kroll Government
Services, Inc. Under Subcontract No. AID-2004-T-00405-00-0058 from May 2005 to
September 2006,” June 12, 2007

                                          93
USAID OIG Report No. E-267-07-014-D, “Audit of Costs Incurred and Billed by the
National Democratic Institute of International Affairs, Under Cooperative Agreement No.
REE-A-00-04-00050-00 from November 1, 2005 to July 31, 2006,” June 10, 2007

USAID OIG Report No. 5-306-07-006-P, “Audit of USAID/Afghanistan’s Urban Water
and Sanitation Program,” June 7, 2007

USAID OIG Report No. E-267-07-005-P, “Audit of USAID/Iraq’s Activity Planning and
Its Reporting Process Under Section 2207 of Public Law 108-106,” June 6, 2007

USAID OIG Report No. 5-306-07-002-D, “Audit of Costs Incurred in the United States
by The Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities
and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from January 1, 2006, to June 30, 2006,” May 27, 2007

USAID OIG Report No. 5-391-07-005-P, “Audit of Selected Activities Under
USAID/Pakistan’s Basic Health Program,” May 23, 2007

USAID OIG Report No. 5-306-07-004-P, “Audit of Critical Power Sector Activities
Under USAID/Afghanistan’s Rehabilitation of Economic Facilities and Services (REFS)
Program,” May 21, 2007

USAID OIG Report No. E-267-07-013-D, “Audit of Public Vouchers Submitted by
International Resources Group, Ltd. From November 1, 2004 to September 30, 2006
Under Contract No. 517-C-00-04-00106-00,” May 10, 2007

USAID OIG Report No. E-267-07-004-P, “Audit of USAID/Iraq’s Telecommunications
Activities,” May 3, 2007

USAID OIG Report No. 5-391-07-014-R, “Financial Audit of the Aga Khan University
Examination Board, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01003-
00, for the Period from July 1, 2003, to December 31, 2004,” May 3, 2007

USAID OIG Report No. E-267-07-012-D, “Audit of Direct Costs Incurred and Billed by
America’s Development Foundation under USAID Contract No. GEW-C-00-04-00001-
00 from July 1, 2005 to September 30, 2006,” April 24, 2007

USAID OIG Report No. 5-306-07-006-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from October 1, 2006 to December 31, 2006,” April 18, 2007

USAID OIG Report No. E-267-07-011-D, “Audit of Costs Incurred and Billed Under
USAID Contract No. 267-C-00-04-00405-00 for the Period of August 1, 2005 through
September 30, 2006,” April 3, 2007

                                          94
USAID OIG Report No. E-267-07-010-D, “Audit of Costs Incurred and Billed by the
International Foundation for Election Systems under Cooperative Agreement No. 267-
Ca-00-04-00405-00 from September 1, 2004 through September 30, 2005,” March 27,
2007

USAID OIG Report No. E-267-07-009-D, “Audit of Costs Incurred and Billed by
Bechtel National, Inc. under Contract No. EEE-C-00-03-00018-00 for the Period October
1, 2005 through February 28, 2006 and Contract No. SPU-C-00-04-00001-00 for the
Period October 1, 2005 through October 31, 2006,” March 15, 2007

USAID OIG Report No. 5-391-07-010-R, “Financial Audit of the Fullbright-USAID
Scholarship Program, Grant Agreement No. 391-G-00-04-01035-00, Managed by the
United States Educational Foundation in Pakistan, for the Period from September 1,
2004, to August 31, 2005,” February 22, 2007

USAID OIG Report No. 5-306-07-002-P, “Audit of USAID/Afghanistan’s Alternative
Livelihoods Program-Eastern Region,” February 13, 2007

USAID OIG Report No. E-267-07-003-P, “Follow-Up Audit of USAID/Iraq’s Education
Activities,” February 4, 2007

USAID OIG Report No. E-267-07-002-P, “Audit of USAID/Iraq’s Agriculture
Reconstruction and Development Program,” January 22, 2007

USAID OIG Report No. 5-391-07-007-R, “Financial Audit of the Enterprise
Development Facility Program, Cooperative Agreement No. 391-A-00-03-01010-00,
Managed by the Pakistan Poverty Alleviation Fund (PPAF) for the Period from October
1, 2003, to June 30, 2005,” January 12, 2007

USAID OIG Report No. 5-391-07-006-R, “Financial Audit of the Four Year Bachelor’s
Degree Program, USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00,
Managed by Forman Christian College, Lahore, for the Period from August 23, 2004, to
June 30, 2005,” January 12, 2007

USAID OIG Report No. E-267-07-008-D, “Audit of Costs Incurred and Billed by the
Research Foundation of the State University of New York (SUNY) under its Cooperative
Subagreement No. 04-04465-IRA.0-408 with National Democratic Institute under
USAID Cooperative Agreement No. REE-A-00-04-00050-00 for the Period July 26,
2004 through December 31, 2005,” January 3, 2007

USAID OIG Report No. E-267-07-007-D, “Audit of Costs Incurred and Billed by
Research Triangle Institute (RTI) under Contract No. 267-C-00-05-00505-00 for the
Period May 9, 2005 through December 31, 2005,” December 18, 2006




                                         95
USAID OIG Report No. 5-306-07-004-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from July 1, 2006, to September 30, 2006,” December 11, 2006

USAID OIG Report No. E-267-07-006-D, “Audit of Costs Incurred and Billed by the
National Democratic Institute of International Affairs, Under Cooperative Agreement No.
REE-A-00-04-00050-00 from July 26, 2004 to October 31, 2005,” November 26, 2006

USAID OIG Report No. E-267-07-005-D, “Audit of Costs Incurred and Billed by
International Relief and Development, Inc. under Cooperative Agreement No. AFP-A-
00-03-00002-00 from August 1, 2004 through October 31, 2005,” November 26, 2006

USAID OIG Report No. E-267-07-001-P, “Audit of USAID/Iraq’s Civil Society
Activities,” November 5, 2006

USAID OIG Report No. E-267-07-004-D, “Audit of Billed Costs by SkyLink Air and
Logistic Support (USA), Inc. Under USAID Contract No. DFD-C-00-03-00026-00 for
the Period October 1, 2004 through January 31, 2005, and Determination on the
Allowability of Previously Questioned Serco, Inc. Costs,” October 25, 2006

USAID OIG Report No. E-267-07-003-D, “Audit of Fiscal Year 2006 Floor Check and
Review of Timekeeping Procedures Under Contract No. 267-C-00-05-00505-00,”
October 19, 2006

USAID OIG Report No. 5-306-07-001-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from April 1, 2006, to June 30, 2006,” October 16, 2006

USAID OIG Report No. 5-391-07-001-Q, “Quality Control Review of the Audit Report
and Audit Documentation for the Financial Audit Conducted by KPMG Taseer Hadi &
Co., of the Aga Khan University - Examination Board, USAID/Pakistan Cooperative
Agreement No. 391-A-00-03-01003-00, for the Period from July 1, 2003, to December
31, 2004,” October 6, 2006

USAID OIG Report No. E-267-07-002-D, “Audit of the Accounting System of Unity
Resources Group under Subcontract No. IDG 31-2 with Research Triangle Institute
Under Contract No. 267-C-00-05-00505-00,” October 2, 2006

USAID OIG Report No. E-267-07-001-D, “Audit of Direct Costs Incurred and Billed by
the International Republican Institute through the Consortium for Elections and Political
Process Strengthening Under USAID Agreement No. AFP-A-00-04-00014-00 for the
Period July 9, 2004 through October 31, 2005,” October 1, 2006




                                           96
USAID OIG Report No. 5-391-06-033-R, “Financial Audit of the Developing Non-
Bankable Territories for Financial Services Project, USAID/Pakistan Cooperative
Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank, for the Period
from October 1, 2003, to December 31, 2004,” September 27, 2006

USAID OIG Report No. 5-391-06-003-Q, “Quality Control Review of the Audit Report
and Audit Documentation for the Financial Audit Conducted by Ford Rhodes Sidat
Hyder & Co., Pakistan, of the Program titled ‘Improved Pakistani Family Planning and
Reproductive Health Services’, USAID/Pakistan Cooperative Agreement No. 391-A-00-
03-01016-00, Managed by the Greenstar Social Marketing Pakistan (Guarantee) Limited
(Greenstar), for the Period from November 7, 2003, to June 30, 2004,” September 26,
2006

USAID OIG Report No. 5-391-06-032-R, “Financial Audit of the Rural Support
Programmes Network - USAID Grant Rewarding Innovations at the District Level,
Agreement No. 391-A-00-03-01015-00, for the Period Ended June 30, 2005,” September
26, 2006

USAID OIG Report No. E-267-06-017-D, “Audit of Direct Costs Incurred by Bechtel
National, Inc. Under Iraq Infrastructure Reconstruction Phase I and II Contracts No.
EEE-C-00-03-00018-00 and No. SPU-C-00-04-00001-00 for the Period of October 1,
2004 Through September 30, 2005,” September 18, 2006

USAID OIG Report No. 5-391-06-031-R, “Financial Audit of the Rural Support
Programmes Network -- USAID Grant Rewarding Innovations at the District Level,
Agreement No. 391-A-00-03-01015-00, for the Nine Month Period Ended June 30,
2004,” September 13, 2006

USAID OIG Report No. 5-306-06-008-P, “Audit of USAID/Afghanistan’s School and
Health Clinic Reconstruction Activities,” August 18, 2006

USAID OIG Report No. E-267-06-004-P, “Audit of USAID Transition Initiatives in
Iraq,” August 16, 2006

USAID OIG Report No. 5-306-06-007-P, “Audit of USAID/Afghanistan’s Rural
Expansion of Afghanistan’s Community-based Healthcare (REACH) Program,” August
16, 2006

USAID OIG Report No. E-267-06-016-D, “Audit of Costs Incurred by Crown Agents
Consultancy, Inc. under Subcontract No. 1100-003 with International Resources Group,
Inc. under Contract No. EMT-C-00-03-0007-00 and Contract No. 517-C-00-04-00106-00
for the Period of November 1, 2004 through December 31, 2004,” August 14, 2006

USAID OIG Report No. 5-306-06-004-D, “Audit of Treatment of Specified Costs
Incurred by Camp, Dresser & McKee Constructors, Inc. Under the Afghanistan Water



                                          97
and Sanitation Program, USAID/Afghanistan Contract No. 306-C-00-04-00568-00, for
the Period from September 30, 2004 to February 25, 2006,” August 10, 2006

USAID OIG Report No. 5-306-06-003-D, “Audit of Costs Incurred in the United States
by the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities
and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from April 1, 2005 to December 31, 2005,” August 2, 2006

USAID OIG Report No. E-267-06-015-D, “Audit of Costs Incurred by International
Business & Technical Consultants, Inc. Under Contract No. 267-C-0500508-00 for the
Period of May 31, 2005 through December 31, 2005,” July 27, 2006

USAID OIG Report No. E-267-06-003-P, “Audit of USAID/Iraq’s Local Governance
Activities,” July 10, 2006

USAID OIG Report No. E-267-06-014-D, “Audit of Costs Incurred by BearingPoint, Inc.
under Contract No. 267-C-00-04-00405 from September 4, 2004 to July 31, 2005,” July
7, 2006

USAID OIG Report No. E-267-06-013-D, “Audit of Costs Incurred by Creative
Associates International, Inc. under Contact No. EPP-C-00-04-00004-00 from July 1,
2004 through June 30, 2005,” July 3, 2006

USAID OIG Report No. E-267-06-012-D, “Audit of Invoices Submitted on Kroll
Government Services Inc. Under Subcontract No. AID-2004-T-00043-000-0021 from
February 2004 to September 2004,” July 2, 2006

USAID OIG Report No. 5-306-06-005-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from January 1, 2006, to March 31, 2006,” June 28, 2006

USAID OIG Report No. E-267-06-011-D, “Audit of Direct Costs Billed by Research
Triangle Institute under Contract No. EDG-C-00-03-00010-00 from October 1, 2004 to
July 31, 2005,” June 23, 2006

USAID OIG Report No. E-267-06-010-D, “Audit of Costs Billed by Research Triangle
Institute Under Contract No. EDG-C-00-03-00010-00 for the Period of March 26, 2004
through September 30, 2004,” June 15, 2006

USAID OIG Report No. E-267-06-009-D, “Audit of Costs Incurred by Cooperative
Housing Federation International Under Cooperative Agreement No. AFP-A-00-03-
00004-00 from August 1, 2004 to July 31, 2005,” June 6, 2006




                                          98
USAID OIG Report No. E-267-06-008-D, “Audit of Costs Incurred by International
Relief and Development, Inc. Under Cooperative Agreement No. AFP-A-00-03-00002-
00 from May 16, 2003 to July 31, 2004,” May 18, 2006

USAID OIG Report No. 5-306-06-005-P, “Audit of USAID/Afghanistan’s
Reconstruction of the Kandahar-Herat Highway Under the Rehabilitation of Economic
Facilities and Services Program,” May 18, 2006

USAID OIG Report No. 5-391-06-020-R, “Financial Audit of the Program Titled
‘Improved Pakistani Family Planning and Reproductive Health Services,’
USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by the
Greenstar Social Marketing Pakistan (Guarantee) Limited (Greenstar), for the Period
from November 7, 2003, to June 30, 2004,” May 11, 2006

USAID OIG Report No. E-267-06-007-D, “Audit of Costs Incurred by Development
Alternatives, Inc. Under Contract No. RAN-C-00-04-00002-00 from October 15, 2004
through June 30, 2005,” April 23, 2006

USAID OIG Report No. 5-306-06-002-P, “Audit of USAID/Afghanistan’s Rebuilding
Agricultural Markets Program,” March 28, 2006

USAID OIG Report No. 5-306-06-004-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from October 1, 2005, to December 31, 2005,” March 21, 2006

USAID OIG Report No. E-267-06-002-D, “Supplemental Report on Audit of Request for
Equitable Adjustment Procedures Used by Bechtel National, Inc. for Contract Nos. EEE-
C-00-03-00018-00 and SPU-C-00-04-00001-00 (Revised),” February 28, 2006

USAID OIG Report No. E-267-06-006-D, “Audit of Costs Incurred by Louis Berger
Group, Inc. under Contract No. 267-C-00-04-0435-00 from October 1, 2004 to July 31,
2005,” February 22, 2006

USAID OIG Report No. E-267-06-002-P, “Audit of USAID/Iraq’s Nonexpendable
Property,” February 16, 2006

USAID OIG Report No. E-267-06-005-D, “Audit of Costs Incurred and Billed by
America’s Development Foundation Under USAID Contract No. GEW-C-00-04-00001-
00 from August 16, 2004 to June 30, 2005,” February 12, 2006

USAID OIG Report No. E-267-06-004-D, “Audit of Costs Incurred by CHF International
Under Cooperative Agreement No. AFP-A-00-03-00004-00 from May 16, 2003 to July
31, 2004,” February 1, 2006




                                          99
USAID OIG Report No. 5-391-06-003-N, “Financial Audit of USAID/Pakistan’s Rupee
Trust Fund for Operating Expenses, for Fiscal Years Ended September 30, 2002, 2003,
and 2004,” January 10, 2006

USAID OIG Report No. 5-306-06-001-P, “Audit of USAID/Afghanistan’s Cashiering
Operations,” January 10, 2006

USAID OIG Report No. 9-306-06-004-P, “Audit of Funds Earmarked by Congress to
Provide Assistance for Displaced Persons in Afghanistan,” December 21, 2005

USAID OIG Report No. E-267-06-001-P, “Audit of USAID/Iraq’s Basic Education
Activities,” December 20, 2005

USAID OIG Report No. 5-306-06-002-D, “Audit of Costs Incurred in the United States
by the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities
and Services Program, USAID/Afghanistan Contract No. 306-00-02-00500-00, for the
Period from July 1, 2004 to March 31, 2005,” December 19, 2005

USAID OIG Report No. 5-306-06-002-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from July 1, 2005 to September 30, 2005,” December 8, 2005

USAID OIG Report No. 9-267-06-001-P, “Audit of the Accuracy of Biographical
Datasheets Provided by International Resources Group to USAID for Contracts in Iraq,”
October 6, 2005

USAID OIG Report No. E-267-06-001-D, “Evaluation of Labor Timekeeping System
Used by Bechtel National, Inc. Under USAID Contract Nos. EEE-C-00-03-0018-00 and
SPU-C-00-04-00001-00 Between February and July 2005,” October 5, 2005

USAID OIG Report No. E-267-05-005-P, “Audit of USAID/Iraq’s Cash Control
Procedures,” September 27, 2005

USAID OIG Report No. E-267-05-019-D, “Audit of Material and Services Procured by
Bechtel National, Inc. Under Contract No. EEE-C-00-03-00018-00 and SPU-C-000-04-
00001-00 Between January and February 2005,” September 23, 2005

USAID OIG Report No. E-267-05-020-D, “Audit of Costs Incurred by Siemens
Westinghouse Under Subcontract No. 24910-30N-ESL-MG00-001 and Subcontract No.
24910-30B-ESD-MGSO-013 from Inception Until September 30, 2004,” September 22,
2005

USAID OIG Report No. E-267-05-018-D, “Audit of Costs Incurred by Save the Children
Federation, Inc. Under Cooperative Agreement No. AFP-A-00-03-00005-00 from May
16, 2003 to July 31, 2004,” September 22, 2005

                                          100
USAID OIG Report No. 5-306-05-009-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from April 1, 2005 to June 30, 2005, Including Contract Line Item No. 2 Costs for
the Period from July 1, 2004 to June 30, 2005,” August 29, 2005

USAID OIG Report No. E-267-05-004-P, “Audit of USAID/Iraq’s Water and Sanitation
Rehabilitation Activities,” June 30, 2005

USAID OIG Report No. 5-306-05-008-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from January 1, 2005 to March 31, 2005, Including Contract Line Item No. 2
Costs for the Period from April 1, 2004 to June 30, 2004,” June 30, 2005

USAID OIG Report No. E-267-05-003-P, “Audit of USAID/Iraq’s Electrical Power
Sector Activities,” June 29, 2005

USAID OIG Report No. E-267-05-017-D, “Audit of SkyLink Air and Logistic Support
(USA), Inc. Costs for the Period March 1, 2004 through September 30, 2004, Under
USAID Contract No. DFD-C-00-03-00026-00,” June 27, 2005

USAID OIG Report No. E-267-05-016-D, “Audit of Costs Incurred and Billed by Abt
Associates, Inc. from April 1, 2004 through September 24, 2004, Under Contract No.
RAN-C-00-03-00010-00,” June 27, 2005

USAID OIG Report No. E-267-05-015-D, “Audit of Costs Incurred by Bechtel National
Inc. from March 1, 2004 to September 30, 2004 Under Contract No. EEE-C-00-03-
00018-00 and from January 5, 2004 to September 30, 2004 Under Contract No. SPU-C-
00-04-00001-00,” June 16, 2005

USAID OIG Report No. E-267-05-014-D, “Audit of Costs Incurred and Billed by the
International Resources Group from April 1, 2004 through May 4, 2004 Under Contract
No. EMT-C-00-03-00007-00, and from May 4, 2004 through October 31, 2004 under
Contract No. 517-C-00-04-00106-00,” June 16, 2005

USAID OIG Report No. E-267-05-013-D, “Audit of Costs Incurred and Billed to USAID
by BearingPoint, Inc. Under USAID Contract No. RAN-C-00-03-00043-00, April 1,
2004 through September 30, 2004,” June 14, 2005

USAID OIG Report No. E-267-05-012-D, “Audit of Costs Billed by Creative Associates
International, Inc. Under Contract No. EDG-C-00-03-00011-00 from March 1, 2004
through August 31, 2004,” May 17, 2005




                                          101
USAID OIG Report No. E-267-05-011-D, “Audit of Costs Billed by Research Triangle
Institute Under Contract No. EDG-C-00-03-00010-00 for the Period of March 26, 2004
through September 30, 2004,” May 15, 2005

USAID OIG Report No. E-267-05-010-D, “Audit of Skylink Air and Logistical Support
Inc.’s Labor Systems and Controls Under Contract No. DFD-C-00-03-00026-00
Conducted on December 28, 2004 and January 13, 2005,” April 28, 2005


USAID OIG Report No. E-267-05-009-D, “Audit of Costs Incurred by Agricultural
Cooperative Development International/Volunteers Overseas Cooperative Assistance
Under USAID Cooperative Agreement No. AFP-A-00-03-00003-00 from May 16, 2003
through July 31, 2004,” April 21, 2005

USAID OIG Report No. 5-306-05-006-D, “Audit of Costs Incurred in the United States
by the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities
and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from October 1, 2003 to June 30, 2004,” April 19, 2005

USAID OIG Report No. 5-306-05-005-P, “Audit of USAID/Afghanistan’s Primary
Education Program,” April 14, 2005

USAID OIG Report No. E-267-05-008-D, “Audit of Costs Incurred by Mercy Corps
Under USAID Cooperative Agreement No. AFP-A-00-03-00001-00 from May 16, 2003
through July 31, 2004,” March 22, 2005

USAID OIG Report No. E-266-04-043-D, “Audit of Costs Incurred and Billed to USAID
by BearingPoint, Inc. Under Contract No. RAN-C-00-03-00043-00 from December 1,
2003 to March 31, 2004,” March 17, 2005

USAID OIG Report No. 5-306-05-006-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from October 1, 2004 to December 31, 2004,” March 14, 2005

USAID OIG Report No. 5-306-05-003-P, “Audit of USAID/Afghanistan’s School and
Clinic Reconstruction Program,” March 14, 2005

USAID OIG Report No. E-267-05-007-D, “Audit of Costs Billed on Development
Alternatives, Inc. Prime Contract Nos. HDA-I-00-03-00061-00 from January 1, 2004
through April 5, 2004 and DOT-I-00-03-00004-00 from February 5, 2004 through
August 31, 2004,” March 1, 2005

USAID OIG Report No. E-267-05-002-P, “Audit of USAID/Iraq’s Health System
Strengthening Contract Activities,” February 28, 2005



                                          102
USAID OIG Report No. E-267-05-006-D, “Audit of Costs Billed Under Parsons
Infrastructure and Technology Group Subcontract No. 24964-000-ESU-W000-001 from
January 12, 2004 through September 24, 2004,” February 27, 2005

USAID OIG Report No. E-267-05-005-D, “Audit of Incurred Costs Submitted on
Voucher Nos. 8 through 12 for Contract No. TRN-C-00-03-00054-00,” February 19,
2005

USAID OIG Report No. E-267-05-004-D, “Audit of Costs Incurred Under Subcontracts
24910-TSC-003 and 24910-GSC-005 from May 1, 2003 through September 30, 2004,”
February 10, 2005

USAID OIG Report No. E-267-05-001-P, “Audit of USAID/Iraq’s Community Action
Program,” January 31, 2005

USAID OIG Report No. E-267-05-003-D, “Audit of Materials, Equipment, and Services
Incurred Under USAID Contract No. EDG-C-00-03-00010-00,” January 29, 2005

USAID OIG Report No. E-267-05-002-D, “Audit on Kroll Government Services Inc.,
Related to Labor Provided for Security Services Under USAID Contract No. 267-C-00-
03-00001-00 from April 1, 2004 through December 31, 2004,” January 17, 2005

USAID OIG Report No. A-267-05-005-P, “Audit of USAID’s Compliance with Federal
Regulations in Awarding the Iraq Basic Education Services in Iraq to Kroll Government
Services International Inc.,” January 6, 2005

USAID OIG Report No. 5-306-05-002-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from July 1, 2004 to September 30, 2004,” December 9, 2004

USAID OIG Report No. E-267-05-001-D, “Audit of Costs Incurred and Billed to USAID
by the International Resources Group, Inc. Under Contract No. EMT-C-00-03-00007
from September 1, 2003 to March 31, 2004,” October 21, 2004

USAID OIG Report No. A-000-04-004-P, “Audit of USAID’s Compliance with Federal
Regulations in Awarding the Iraq Basic Education Phase II Contract,” September 23,
2004

USAID OIG Report No. 5-306-04-006-P, “Audit of the Kabul to Kandahar Highway
Reconstruction Activities Financed by USAID/Afghanistan’s Rehabilitation of Economic
Facilities and Services Program,” September 21, 2004

USAID OIG Report No. E-266-04-004-P, “Audit of USAID/Iraq’s Economic Reform
Program,” September 20, 2004



                                          103
USAID OIG Report No. 5-306-04-003-D, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from April 1, 2004 to June 30, 2004,” September 16, 2004

USAID OIG Report No. E-266-04-044-D, “Audit of Incurred Direct Costs Under Iraq
Infrastructure Reconstruction by Bechtel National, Inc. Under Contract No. EEE-C-00-
03-00018-00 from September 1, 2003 to February 29, 2004,” September 4, 2004

USAID OIG Report No. 5-306-04-006-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from April 1, 2004 to June 30, 2004,” August 23, 2004

USAID OIG Report No. 5-306-04-005-P, “Audit of the Sustainable Economic Policy and
Institutional Reform Support Program at USAID/Afghanistan,” August 17, 2004

USAID OIG Report No. E-266-04-042-D, “Audit of Costs Incurred and Billed by
Research Triangle Institute Under USAID Contract No. EDG-C-00-03-00010-00 from
December 1, 2003 through March 25, 2004,” August 9, 2004

USAID OIG Report No. E-266-04-003-P, “Audit of USAID’s Compliance with Fedral
Regulations in Awarding the Iraq Phase II Reconstruction and Rehabilitation, Program
Advisors and Oversight Contract,” August 6, 2004

USAID OIG Report No. E-266-04-041-D, “Report of Labor Timekeeping System Used
by Bechtel National Inc. Under Contract Nos. EEE-C-00-03-00018-00 and SPU-C-00-
04-00001-00,” August 5, 2004

USAID OIG Report No. E-266-04-040-D, “Audit Report on Review of Billed Costs by
SkyLink Air and Logistic Support from November 1, 2003 to February 29, 2004 Under
Contract DFD-C-00-03-00026-00,” July 19, 2004

USAID OIG Report No. 5-306-04-005-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from January 1, 2004 to March 31, 2004,” July 9, 2004

USAID OIG Report No. E-266-04-039-D, “Audit Report on Review of Costs Incurred
and Billed by SSA Marine (SSA) on Voucher Nos. 3 through 7 Under Contract No.
TRN-C-00-03-0005400,” June 30, 2004

USAID OIG Report No. E-266-04-038-D, “Report on Audit of Costs Incurred by Abt
Associates, Inc. from October 25, 2003 through March 26, 2004 Under USAID Contract
No. RAN-C-00-03-00010-00,” June 20, 2004



                                          104
USAID OIG Report No. E-266-04-037-D, “Report on Audit of Bechtel National, Inc.’s
Proposed Common Cost Pool Recovery Rate Under Iraq Infrastructure Reconstruction
Project Phase I and II,” June 18, 2004

USAID OIG Report No. E-266-04-001-F, “Audit of USAID/Iraq’s Cashiering
Operations,” June 9, 2004

USAID OIG Report No. E-266-04-002-P, “Audit of USAID/Iraq’s Infrastructure
Reconstruction and Rehabilitation Program,” June 3, 2004

USAID OIG Report No. E-266-04-036-D, “Costs Incurred and Billed by Creative
Associates International Inc.’s Under USAID Contract No. EDG-C-00-03-00011-00 for
the Period Ended November 1, 2003 through February 28, 2004,” May 27, 2004

USAID OIG Report No. A-000-04-003-P, “Capping Report on the Audit of USAID’s
Compliance with Federal Regulations in Awarding the Iraq Phase I Contracts,” May 19,
2004

USAID OIG Report No. 5-306-04-004-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from October 1, 2003 to December 31, 2003,” May 17, 2004

USAID OIG Report No. 5-306-04-002-D, “Report on the Application of Agreed-Upon
Procedures on Costs Incurred in the United States by the Louis Berger Group, Inc. to
Implement the Rehabilitation of Economic Facilities and Services Program,
USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period from September
30, 2002 to June 30, 2003,” May 17, 2004

USAID OIG Report No. E-266-04-035-D, “Report on Audit of Proposed Iraq
Infrastructure Reconstruction Project Controller Procedures 5AP-A01-018 for
Estimating, Accumulating and Recovering Direct Common Costs,” May 14, 2004

USAID OIG Report No. 5-306-04-001-F, “Audit of USAID/Afghanistan’s Cashiering
Operations,” May 11, 2004

USAID OIG Report No. AIG/A Memorandum 04-006, “USAID’s Compliance with
Federal Regulation in Awarding the Iraq Infrastructure Reconstruction Program Phase II
Contract,” April 20, 2004

USAID OIG Report No. 5-306-04-002-S, “Risk Assessment of Major Activities
Managed by USAID/Afghanistan,” April 15, 2004

USAID OIG Report No. E-266-04-034-D, “Costs Incurred and Billed by Development
Alternatives, Inc. Under USAID Prime Contract No. HDA-I-00-03-00061-00 and



                                          105
Subcontract No. 3825-100-03S-001, for the Period January 6, 2003 to December 31,
2003,” April 12, 2004

USAID OIG Report No. RIG/M Memorandum 04-003, “Second Review of the Road
Project Financed by USAID/Afghanistan’s Rehabilitation of Economic Facilities and
Services (REFS) Program,” March 31, 2004

USAID OIG Report No. 5-306-04-003-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from July 1, 2003 to September 30, 2003,” March 26, 2004

USAID OIG Report No. E-266-04-033-D, “Audit of Costs Incurred and Billed by
BearingPoint, Inc. Under USAID Contract No. RAN-C-00-03-0043-00 from July 18,
2003 through November 30, 2003,” March 24, 2004

USAID OIG Report No. AIG/A Memorandum 04-005, “USAID’s Compliance with
Federal Regulations in Awarding the Contract for Economic Recovery, Reform and
Sustained Growth Contract in Iraq,” March 22, 2004

USAID OIG Report No. E-266-04-001-P, “Audit of USAID’s Results Data for Its
Education Activities in Iraq,” March 19, 2004

USAID OIG Report No. E-266-04-032-D, “Audit of Costs Incurred and Billed by the
International Resources Group Under USAID Contract No. EMT-C-00-03-00007 from
February 5, 2003 through August 31, 2003,” March 10, 2004

USAID OIG Report No. E-266-04-031-D, “Audit of Costs Incurred and Billed by
Management Systems International Inc. Under USAID Contract No. AEP-I-00-00-
00024-00 from June 25, 2003 through January 30, 2004,” March 10, 2004

USAID OIG Report No. E-266-04-030-D, “Report on the Evaluation of Research
Triangle Institute’s Compliance with Established Timekeeping System Policies and
Procedures for Recording Labor Charges Under USAID Contract No. EDG-C-00-03-
00010-00,” March 7, 2004

USAID OIG Report No. E-266-04-029-D, “Report on Evaluation of Abt Associate, Inc.’s
Usage and Controls of Materials and Equipment Procured Under USAID Contract No.
RAN-C-00-03-00010-00,” March 1, 2004

USAID OIG Report No. E-266-04-028-D, “Audit of Costs Incurred and Billed by
Creative Associates International, Inc. Under USAID Contract No. EDG-C-00-03-00011-
00 from April 11, 2003 through October 31, 2003,” February 28, 2004




                                          106
USAID OIG Report No. E-266-04-027-D, “Report on the Audit of Research Triangle
Institute’s Usage and Controls of Materials and Services Procured Under USAID
Contract No. EDG-C-00-03-00010-00,” February 26, 2004

USAID OIG Report No. E-266-04-026-D, “Audit of Costs Incurred and Billed by
Research Triangle Institute Under USAID Contract No. EDG-C-00-03-00010-00 from
March 26, 2003 through November 30, 2003,” February 26, 2004

USAID OIG Report No. E-266-04-025-D, “Report on Audit of Creative Associates
International, Inc.’s Usage and Controls of Materials and Services Procured Under
USAID Contract No. EDG-C-00-03-00011-00,” February 26, 2004

USAID OIG Report No. E-266-04-024-D, “Report on Evaluation of Creative Associates
International, Inc.’s Compliance with Established Timekeeping System Policies and
Procedures for Recording Labor Charges Under USAID Contract No. EDG-C-00-03-
00011-00,” February 21, 2004

USAID OIG Report No. E-266-04-023-D, “Report on Evaluation of BearingPoint, Inc.’s
Compliance with Established Timekeeping System Policies and Procedures for
Recording Labor Charges Under USAID Contract No. RAN-C-00-03-00043-00,”
February 15, 2004

USAID OIG Report No. E-266-04-022-D, “Audit of Costs Incurred and Billed by Abt
Associates, Inc. Under USAID Contract No. RAN-C-00-03-00010-00 from July 18, 2003
through October 24, 2003,” February 15, 2004

USAID OIG Report No. E-266-04-021-D, “Report on Evaluation of Abt Associates,
Inc.’s Compliance with Established Timekeeping System Policies and Procedures for
Recording Labor Charges Under USAID Contract No. RAN-C-00-03-00010-00,”
February 15, 2004

USAID OIG Report No. E-266-04-020-D, “Audit Report on International Resources
Group’s Usage and Controls of Materials and Services Procured Under USAID Contract
No. EMT-C-00-03-00007,” February 14, 2004

USAID OIG Report No. E-266-04-019-D, “Audit Report on Review of Costs Incurred
and Billed by SSA Marine Under USAID Contract TRN-C-00-03-00054-00 as of August
12, 2003,” February 12, 2004

USAID OIG Report No. E-266-04-018-D, “Audit of Bechtel National, Inc.’s Subsidiary
Billing System for USAID’s Iraq Infrastructure Reconstruction Contract EEE-C-00-03-
00018-00,” February 12, 2004

USAID OIG Report No. E-266-04-017-D, “Audit of the Accounting Controls of Bechtel
National, Inc. Under USAID’s Iraq Infrastructure Reconstruction Contract EEE-C-00-03-
00018-00,” February 12, 2004

                                         107
USAID OIG Report No. E-266-04-016-D, “Audit of Costs Incurred by Bechtel National,
Inc. Under USAID Iraq Infrastructure Reconstruction Contract EEE-C-00-03-00018-00
from April 17, 2003 (Inception of the Contract) to August 31, 2003,” February 12, 2004

USAID OIG Report No. E-266-04-015-D, “Evaluation of Bechtel National Inc.’s Usage
and Controls of Materials and Services Procured Under USAID Iraq Infrastructure
Reconstruction Contract No. EEE-C-00-03-00018-00,” February 9, 2004

USAID OIG Report No. E-266-04-014-D, “Report on the Audit of the Accounting
System of Skylink Air & Logistical Support (USA) Inc,” February 9, 2004
USAID OIG Report No. E-266-04-013-D, “Audit Report on Skylink Air & Logistical
Support (USA) Inc.’s Usage and Controls of Materials and Services Procured Under
USAID Contract No. DFD-C-00-03-00026-00,” February 9, 2004

USAID OIG Report No. AIG/A Memorandum 04-004, “USAID’s Compliance with
Federal Regulations in Awarding the Iraq Seaport Assessment and Operation Contract,”
January 27, 2004

USAID OIG Report No. AIG/A Memorandum 04-003, “USAID’s Compliance with
Federal Regulations in Awarding the Iraq Airport Administration Contract,” January 27,
2004

USAID OIG Report No. 5-306-04-001-N, “Financial Audit of Local Costs Incurred by
the Louis Berger Group, Inc. to Implement the Rehabilitation of Economic Facilities and
Services Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the
Period from September 30, 2002 to June 30, 2003,” January 23, 2004

USAID OIG Report No. E-266-04-012-D, “Report on Evaluation of the International
Resources Group’s Compliance with Established Timekeeping System Policies and
Procedures for Recording Labor Charges under USAID Contract No. EMT-C-00-03-
00007,” January 15, 2004

USAID OIG Report No. E-266-04-011-D, “Audit of Costs Incurred and Billed by
SkyLink Air and Logistic Support (USA), Inc., Under USAID Contract DFD-C-00-03-
00026-00 from March 21, 2003 through October 31, 2003,” January 14, 2004

USAID OIG Report No. AIG/A Memorandum 04-002, “USAID’s Compliance with
Federal Regulations in Awarding the Agriculture Reconstruction and Development
Program for Iraq Contract,” January 14, 2004

USAID OIG Report No. AIG/A Memorandum 04-001, “USAID’s Compliance with
Federal Regulations in Awarding the Iraq Monitoring and Evaluation Program
Performance Task Order,” January 14, 2004




                                          108
USAID OIG Report No. E-266-04-010-D, “Report on Evaluation of Skylink Air &
Logistical Support (USA) Inc.’s Compliance with Established Timekeeping System
Policies and Procedures for Recording Labor Charges Under USAID Contract No. DFD-
C-00-03-00026-00,” January 13, 2004

USAID OIG Report No. E-266-04-008-D, “Audit of Bechtel National Inc.’s Internal
Controls of Subcontract Awards Under USAID Iraq Infrastructure Reconstruction
Contract No EEE-C-00-03-00018-00,” January 5, 2004

USAID OIG Report No. E-266-04-009-D, “Report on Evaluation of Bechtel National
Inc.’s Compliance with Established Timekeeping System Policies and Procedures for
Recording Labor Charges Under USAID Iraq Infrastructure Reconstruction Contract No.
EEE-C-00-03-00018-00,” January 4, 2004

USAID OIG Report No. E-266-04-007-D, “Audit of SSA Marine’s Controls Over Port
Revenues and Expenses at Um Qasr, Iraq Under USAID Contract No. TRN-C-00-03-
00054-00,” December 5, 2003

USAID OIG Report No. 0-000-03-043-D, “Bechtel National, Inc. Report on Application
of Agreed Upon Procedures, internal Controls and Organization Related to Performance
of Subcontract Award and Administration Activities for USAID Iraq Infrastructure
Reconstruction Contract No. EEE-C-03-00018-00,” November 21, 2003

USAID OIG Report No. E-266-04-006-D, “Audit of Creative Associates International,
Inc.’s Internal Controls for the Awarding of Grants Under Contract No. EDG-C-00-03-
00011-00,” November 20, 2003

USAID OIG Report No. E-266-04-004-D, “Survey of Kroll and Associates Inc.’s
Accounting System,” November 19, 2003

USAID OIG Report No. RIG/M Memorandum 04-002, “Review of the Road Project
Financed by USAID/Afghanistan’s Rehabilitation of Economic Facilities and Services
(REFS) Program,” November 13, 2003

USAID OIG Report No. E-266-04-003-D, “Report on SSA Marine’s Usage and Controls
of Materials and Services Procured Under USAID Contract RN-C-00-03-00054-00,”
November 4, 2003

USAID OIG Report No. E-266-04-002-D, “Audit of Kroll Associates Inc.’s Proposal for
USAID Contract No. 267-C-00-03-001-00,” November 4, 2003

USAID OIG Report No. E-266-04-001-D, “Report on Evaluation of Timekeeping
Procedures and Practices of SSA Marine,” October 31, 2003

USAID OIG Report No. 5-391-04-001-S, “Risk Assessment of Major Activities
Managed by USAID/Pakistan,” October 30, 2003

                                         109
USAID OIG Report No. AIG/A Memorandum 03-005, “USAID’s Compliance with
Federal Regulations in Awarding the Health System Strengthening in Post-Conflict Iraq
Contract,” October 17, 2003

USAID OIG Report No. AIG/A Memorandum 03-004, “USAID’s Compliance with
Federal Regulations in Awarding the Iraq Sub-National Governance and Civic Institution
Support Contract,” September 9, 2003

USAID OIG Report No. AIG/A Memorandum 03-003, “USAID’s Compliance with
Federal Regulations in Awarding the Iraq Infrastructure Reconstruction Contract,” July
23, 2003

USAID OIG Report No. AIG/A Memorandum 03-002, “USAID’s Compliance with
Federal Regulations in Awarding the Iraq Personnel Support Services Contract,” June 20,
2003

USAID OIG Report No. AIG/A Memorandum 03-001, “USAID’s Compliance with
Federal Regulations in Awarding the Iraq Educational Sector Contract,” June 6, 2003

USAID OIG Report No. 5-306-03-001-S, “Risk Assessment of Major Activities
Managed by USAID/Afghanistan,” March 11, 2003




                                          110
Additional Information
The Department of Defense Office of the Special Deputy Inspector General for SWA
prepared this report. If you have questions, contact sdig-swa@dodig.mil.

Suggestions for Oversight Efforts
To suggest or request oversight efforts for defense programs, contact the Office of the
Special Deputy Inspector General for SWA by phone (703) 604-9165 (DSN 664-9165),
by fax (703) 604-8932, or by mail:

                      SDIG-SWA
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 1000)
                      Arlington, VA 22202-4704




                                                                                            Department of Defense
�
Acronyms and Abbreviations                                                                     Inspector General
�
AFAA                  Air Force Audit Agency                                                  400 Army Navy Drive
�
CWC                   Commission on Wartime Contracting                                     Arlington, VA 22202-4704
�
DCAA                  Defense Contract Audit Agency
DoD OIG               Department of Defense Office of Inspector General                          www.dodig.mil
�
DoN                   Department of Navy
DoS OIG               Department of State Office of Inspector General                     Defense Hotline 1.800.424.9098
�
GWOT                  Global War on Terror
MNSTC-I               Multi-National Security Transition Command-Iraq
NAVAUDSVC             Naval Audit Service
OEF                   Operation Enduring Freedom
OIF                   Operation Iraqi Freedom
PHC                   Primary Healthcare Centers
SIGAR                 Special Inspector General for Afghanistan Reconstruction
SIGIR                 Special Inspector General for Iraq Reconstruction
SWA JPG               Southwest Asia Joint Planning Group
USAAA                 United States Army Audit Agency
USAID OIG             United States Agency for International Development
                      Office of Inspector General
USMC                  United States Marine Corps
                                     Participating Agencies
�

Department of Defense 
                                  U.S. Department of State and 

Office of Inspector General
�                            Broadcasting Board of Governors
�
400 Army Navy Drive
�                                    Office of Inspector General
�
Arlington, VA 22202 
                                    Room 8100, SA-3
�
                                                         2201 C Street, NW
�
U.S. Army Audit Agency
�                                 Washington, DC 20520-0308
�
3101 Park Center Drive
�
Alexandria, VA 22302-1596
�                              United States Agency for International Development
�
                                                         Office of Inspector General
�
Naval Audit Service
�                                    Room 8.09-090, RRB
�
1006 Beatty Place, SE
�                                  1300 Pennsylvania Avenue NW
�
Washington Navy Yard Bldg. 219
�                         Washington, DC 20523
�
Washington, DC 20374 

                                                         Special Inspector General for Iraq Reconstruction 

Air Force Audit Agency
�                                 400 Army Navy Drive 

1126 AF Pentagon 
                                       Arlington, VA 22202-4704
�
Washington, DC 20330-1126 

                                                         Special Inspector General for Afghanistan Reconstruction
�
Defense Contract Audit Agency                            400 Army Navy Drive
�
8725 John J. Kingman Road, Suite 2135
�                  Arlington, VA 22202-4704
�
Fort Belvoir, VA 22060-6219 

                                                         Commission on Wartime Contracting
�
Government Accountability Office
�                       in Iraq and Afghanistan
�
441 G St., NW
�                                          1401 Wilson Blvd., Suite 300
�
Washington, DC 20548
�                                   Arlington, VA 22209
�




                                                                                                                      Observations from Oversight Organizations Impacting
                                Department of Defense Office of Inspector General
�
                                                                                                                       Operations Iraqi Freedom and Enduring Freedom
                                             400 Army Navy Drive
�
                                          Arlington, VA 22202-4704
�                                                         Beginning FY 2003 Through FY 2009
                                 This report is available online at: www.dodig.mil
�
                                                                                                                      Report No. SDIG-SWA-10-01              August 30, 2010
